<html>
<title> - JOHNSON, KOONIN, TRIAY, TOMPKINS, AND HARRIS NOMINATIONS</title>
<body><pre>[Senate Hearing 111-22]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-22
 
        JOHNSON, KOONIN, TRIAY, TOMPKINS, AND HARRIS NOMINATIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE NOMINATIONS OF KRISTINA M. JOHNSON, TO BE THE UNDER 
 SECRETARY OF ENERGY, STEVEN ELLIOT KOONIN, TO BE THE UNDER SECRETARY 
 FOR SCIENCE, DEPARTMENT OF ENERGY, INES R. TRIAY, TO BE AN ASSISTANT 
    SECRETARY OF ENERGY (ENVIRONMENTAL MANAGEMENT), HILARY CHANDLER 
  TOMPKINS, TO BE SOLICITOR OF THE DEPARTMENT OF THE INTERIOR, SCOTT 
  BLAKE HARRIS, TO BE THE GENERAL COUNSEL OF THE DEPARTMENT OF ENERGY

                               __________

                             April 23, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-780 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel

























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Harris, Scott Blake, Nominee to be General Counsel, Department of 
  Energy.........................................................    16
Johnson, Kristina M., Nominee to be Under Secretary of Energy....     6
Koonin, Steven Elliot, Nominee to be the Under Secretary for 
  Science, Department of Energy..................................     8
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Tompkins, Hilary Chandler, Nominee to be Solicitor of the 
  Department of the Interior.....................................    14
Triay, Ines R., Nominee to be an Assistant Secretary for 
  Environmental Management, Department of Energy.................    11
Udall, Hon. Tom, U.S Senator From New Mexico.....................     2

                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    63


        JOHNSON, KOONIN, TRIAY, TOMPKINS, AND HARRIS NOMINATIONS

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Senator Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Ok. Why don't we get started here? The 
committee meets this afternoon to consider five nominations for 
offices in the Department of Energy and the Department of 
Interior.
    The 5 nominees are Kristina Johnson to be the Under 
Secretary of Energy.
    Steven Elliot Koonin to be the Under Secretary of Science 
in the Department of Energy.
    Ines Triay to be the Assistant Secretary of Energy for 
Environmental Management.
    Scott Blake Harris to be the General Counsel for the 
Department of Energy.
    Hilary Chandler Tompkins to be the Solicitor for the 
Department of Interior.
    These are 5 very important offices. I believe the President 
has chosen well. He has presented us with very well qualified 
and capable people for each of these positions.
    I'm very impressed with the scientific credentials of both 
Dr. Johnson and Dr. Koonin, of course. Believe that they, along 
with Secretary Chu, will provide the Department of Energy 
leadership worthy of the nation's premier science agency.
    Dr. Triay has been the principle Deputy Assistant Secretary 
for Environmental Management for the past 2 years and has been 
the Acting Assistant Secretary since November. She brings to 
the job over 10 years of experience in the Office of 
Environmental Management and in the Carlsbad Field Office and 
another 14 years of experience at Los Alamos National 
Laboratory.
    Mr. Harris and Ms. Tompkins are both very capable 
experienced lawyers who will bring their skills and experience 
to the top legal offices of their respective departments.
    I note that Dr. Triay and Ms. Tompkins are from New Mexico. 
My colleague, Senator Udall is here to make an endorsement of 
each of them. We're very glad that we have all five nominees 
before the committee.
    Let me first, before I call on Senator Udall, let me call 
on Senator Murkowski for any statement she would like to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I want to 
welcome all the nominees before us and thank them for their 
willingness to enter into, or in one case, to remain in 
Government service.
    I am gratified that the log jam of seems to have broken on 
the nominees at the Department of the Interior and Energy as 
well. We have before us today the folks who will be making a 
large percentage of the day to day policy and the legal 
decisions at these agencies. I think the importance of these 
positions cannot be overestimated.
    Today we have before us the person who is responsible for 
overseeing the Department's nuclear waste program. In light of 
the administration's recent decision to reject the Yucca 
Mountain program before providing any alternative plan for 
meeting the government's growing liabilities, I tell you this 
is not a job that I envy.
    The nominee for Solicitor General at Interior will also 
have her plate full as she walks in the door. I think we would 
agree that there never seems to be a shortage of issues or 
legal issues at Interior. But it does seem that recent days 
have brought an extra level of perhaps controversy in a whole 
range of areas.
    One court decision that concerns me greatly is the DC's 
Circuit's recent decision to vacate and remand the 5-year OCS 
Leasing Program. So whether this case is appealed again or if 
the Department of Interior restructures the 5-year plan, 
Interior must make advancing a responsible and efficient 
program for our OCS resources in Alaska and elsewhere a 
priority.
    Mr. Chairman, as I have mentioned to you, I have another 
hearing that I am ranking on and chairing this afternoon at 
2:30. So I will have to leave. I will have a series of 
questions that I would submit to the nominees.
    But I do look forward to continuing our discussion on these 
and other issues as the process moves forward. So thank you.
    The Chairman. Thank you very much. Let me call on Senator 
Udall to make some introductions of two of the witnesses as I 
understand it or two of the nominees. Go ahead.

         STATEMENT OF HON. TOM UDALL, U.S SENATOR FROM 
                           NEW MEXICO

    Senator Udall. Thank you, Chairman Bingaman and Ranking 
Member Murkowski and other members of the committee. It's an 
honor to introduce two constituents of mine and Chairman 
Bingaman's, Hilary Tompkins, President Obama's nominee as 
Solicitor General of the Department of Interior and Dr. Ines 
Triay, President Obama's nominee for Assistant Secretary for 
the Department of Energy.
    Ms. Tompkins has already seen just about everything the law 
has to offer from the Federal offices of Washington, DC, to the 
court rooms of the Navajo Nation to the highest levels of New 
Mexico State Government. As a law student she clerked for the 
Navajo Nation Supreme Court giving her fluency in Indian law 
that few lawyers have. After graduation she was accepted into 
the prestigious Justice Department Honors Program. In that role 
she helped to use the power of the Federal Government to hold 
businesses accountable for violation of our nation's 
environmental regulations.
    She also gained experience navigating the complex world of 
regulatory law as it is practiced at the highest levels. But 
Ms. Tompkins was not content to spend her whole life serving in 
Washington. After 2 years fighting crime in the Brooklyn United 
States Attorney's Office, she returned to the land of her 
birth.
    As a practicing lawyer in Albuquerque, New Mexico, she 
focused on environmental and water law, two areas that loom 
large in the arid West. She also handled Federal and tribal law 
for her law firm. Then Governor Richardson called. In January 
2003, Ms. Tompkins joined the New Mexico Governor's Counsel 
Office. She was the first Native American to be Chief Counsel 
to a New Mexico Governor.
    From that position she saw every legal controversy that a 
State as diverse as New Mexico can produce. She advised on 
legislation, oversaw litigation, provided the legal expertise 
for an active State executive. She also managed a large staff 
of talented attorneys gaining their trust and respect.
    Now Ms. Tompkins has been nominated for a new job. The 
Interior Department Solicitor General oversees 400 staff 
lawyers including 400 staff including 300 lawyers. The job 
demands a wide variety of legal knowledge ranging from water 
and environmental regulation to complex property law to 
constitutional doctrine.
    It must be filled by a lawyer who has the skills, the 
dedication and values to protect our Nation's priceless natural 
legacy and pass it down to future generations. It requires a 
lawyer who understands and appreciates this Nation's special 
relationship with its Native American tribes. Ms. Tompkins is 
that lawyer. I hope the committee agrees. I hope you all join 
me in supporting her confirmation.
    Dr. Triay is an extremely qualified scientist with a Ph.D. 
in physical chemistry from the University of Miami. She spent 
much of her successful career in New Mexico, first at Los 
Alamos National Laboratory and next as the head of the Carlsbad 
Field Office before serving in the Department's leadership in 
Washington, DC. She's a strong role model. Her career is a 
shining example for aspiring young scientists, particularly 
women and Hispanics who are today under represented in the 
scientific community.
    She has devoted her career to a safe, cleanup of the 
environmental legacy of the Nation's cold war nuclear weapon 
production. This is the largest and complex environmental 
cleanup program in history with more than 100 sites in 30 
States. I have witnessed Dr. Triay's work in New Mexico and 
attest to its quality.
    Dr. Triay is able to handle both the difficult scientific 
issues and the critical public health issues involved in these 
cleanups. During her 10 years at DOE, Dr. Triay has tackled 
some of the Nation's most difficult cleanup challenges 
including completing cleanup at Rocky Flats in Colorado. She 
also played an instrumental role in assuring that transeuranic 
waste disposal operations at the Department's Waste Isolation 
Pilot Project in New Mexico are safe and secure.
    Mr. Chairman there is no scientist better qualified to be 
Assistant Secretary of the Office of Environmental Management 
at DOE. I hope you will join me in supporting Dr. Triay for 
this position. I thank you, Mr. Chairman for the opportunity to 
come and introduce these two very capable individuals.
    The Chairman. Thank you very much for the strong 
endorsement of both individuals. Let me mention that Senator 
Barbara Mikulski was not able to be here today. But she has 
provided testimony* which we'll include in the record strongly 
endorsing Dr. Kristina Johnson's nomination by the President as 
well.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Unless there's a question of our colleague Senator Udall, 
we'll allow him to leave. We will call forward the nominees. 
Why don't you all come forward and just remain standing. I will 
present this oath which we are required to do in our committee 
by our committee rules.
    If each of you would stand and raise your right hand, 
please.
    Ok, do you solemnly swear that the testimony you're about 
to give to the Senate committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth.
    Nominees. I do.
    The Chairman. Please be seated. Before we begin to hear 
your statement I will ask three questions that we address to 
nominees that come before this committee.
    The first question is will you be able to--will you be 
available to appear before this committee and other 
congressional committees to represent departmental positions 
and to respond to any issues of concern to the Congress?
    Ms. Johnson.
    Ms. Johnson. I will.
    The Chairman. Mr. Koonin.
    Mr. Koonin. I will.
    The Chairman. Ms. Triay.
    Ms. Triay. I will.
    The Chairman. Ms. Tompkins.
    Ms. Tompkins. I will.
    The Chairman. Mr. Harris.
    Mr. Harris. I will.
    The Chairman. Thank you. Here's the second question. Are 
you aware of any personal holdings, investments or interests 
that could constitute a conflict of interest or create the 
appearance of such a conflict should you be confirmed and 
assume the office to which you've been nominated by the 
President?
    Ms. Johnson, why don't you go first?
    Ms. Johnson. All of my personal assets have been reviewed 
by both myself and appropriate ethics counselors with the 
Federal Government. I've taken every appropriate action to 
avoid any conflicts of interest.
    The Chairman. Alright. Mr. Koonin.
    Mr. Koonin. All of my personal assets have been reviewed 
both by myself and by appropriate ethics counselors within the 
Federal Government. I've taken appropriate actions to avoid any 
conflicts of interest.
    The Chairman. Ms. Triay.
    Ms. Triay. All of my personal assets have been reviewed 
both by myself and by appropriate ethics counselors within the 
Federal Government. I have taken appropriate action to avoid 
any conflicts of interest.
    The Chairman. Alright. Ms. Tompkins.
    Ms. Tompkins. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselor in the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Mr. Harris.
    Mr. Harris. All of my personal assets have been reviewed 
both by myself and by the appropriate ethics counselors within 
the Federal Government. I have taken appropriate action to 
avoid any conflicts of interest.
    The Chairman. Alright. Thank you all very much. The third 
and final question is are you involved or do you have any 
assets that are held in a blind trust?
    Ms. Johnson.
    Ms. Johnson. No.
    Mr. Koonin. No.
    Ms. Triay. No.
    Ms. Tompkins. No.
    Mr. Harris. No, sir.
    The Chairman. Alright. Thank you all very much. Our 
tradition here in the committee is for nominees to have the 
opportunity at this point to introduce any family members that 
are with them. If you'd like to do that, please go right ahead.
    Ms. Johnson.
    Ms. Johnson. Thank you very much. Please allow me to 
introduce my sister, Jennifer Looney from Arizona. My sister 
Sarah Cullin and her daughter, Hannah who's here with bring a 
daughter to work day and my friends from West Virginia, 
Colorado, North Carolina, Maryland and Ontario joining us 
today. Thank you.
    The Chairman. You've got a big crowd here. It's obvious. 
Thank you. Mr. Koonin.
    Mr. Koonin. With me this afternoon are my wife, Laurie, who 
has been my companion, advisor and support for almost 39 years 
and the second of our three children, Allison.
    The Chairman. Very good. We welcome them.
    Ms. Triay.
    Ms. Triay. With me today is my husband of 24 years, Dr. 
John Hull and his parents, Mr. and Mrs. Harvey Hull.
    The Chairman. Good. We welcome them too. Ms. Tompkins.
    Ms. Tompkins. With me today are my parents, Ken and Nancy 
Tompkins from Southern New Jersey and my husband, Mike Prindle 
and our daughter, Haley are back in New Mexico fighting a cold.
    The Chairman. Alright.
    Ms. Tompkins. So they apologize for not being here.
    The Chairman. That's fine. Mr. Harris.
    Mr. Harris. Senator, I'd like to introduce my wife of 30 
years, Barbara Harris. Also with me is my son, Colin, who is a 
senior at the Sidwell Friend School and will soon become a 
constituent of Senator Shaheen's as he enters Dartmouth next 
fall. I'd also like to introduce my daughter, Margo, who is a 
sophomore at the National Cathedral School. She has worked on 
the Hill as an intern for Senator Cantwell.
    The Chairman. It sounds like you have an inside track 
around here.
    [Laughter.]
    The Chairman. Thank you all and we welcome all of your 
family members. Why don't, at this point, why don't we hear 
whatever statements you'd like to make, any opening statement.
    Dr. Johnson, go right ahead.

STATEMENT OF KRISTINA M. JOHNSON, NOMINEE TO BE UNDER SECRETARY 
                           OF ENERGY

    Ms. Johnson. Mr. Chairman, distinguished members of the 
committee, it is an honor and privilege to appear here today as 
President Obama's nominee for Under Secretary of Energy. I look 
forward, if confirmed, to working with Secretary Chu and 
members of the committee in serving our Nation in this 
capacity. Thank you for the opportunity to be here today and 
also to have met with you or your staff prior to today.
    I wish to thank President Obama for asking me to join his 
administration as Under Secretary of Energy and Secretary Chu 
for his confidence in this appointment. If confirmed I look 
forward to being part of the stellar Department of Energy team 
that Secretary Chu has assembled, some of which are here today 
and some of which you will see in the future. I'm confident 
that this team and many others working with us are up to the 
challenges of achieving the goals of producing more jobs, 
reducing greenhouse gases and achieving energy security.
    Together we will work tirelessly to bridge the gap between 
basic and applied research, technology development and 
commercial deployment to advance our economy and energy 
security through optimizing our electrical building 
infrastructures. As I stated in my written testimony I am a 
third generation engineer. My grandfather worked with George 
Westinghouse at the first turn of the last century. My father, 
Robert G. Johnson, was an electrical mechanical engineer also 
working for Westinghouse.
    After serving in the Umited States Army during World War 
II, my dad rejoined Westinghouse. Developed most of the bid 
packages for the large hydroelectric power plants including 
Glen Canyon, Grand Coulee and Boulder Dam, to mention a few. 
Their example, along with my mother's determination that all 
seven of her children would have the opportunity for a college 
education which she was not able to have as she grew up during 
the depression has helped shape my own course and desire to 
similarly serve society through educating others and through 
the application of science and technology innovation to build 
new products, processes and companies to make lives better.
    I've been a professor, an inventor, an entrepreneur, a 
small business owner and a senior university administrative 
leader. My career has focused on improving each institution as 
I have tried to make the whole greater than the sum of the 
parts. If confirmed I pledge to you and members of this 
committee that I will apply my knowledge, expertise and 
experience to work with you to serve the President, Secretary 
Chu and our country for the betterment of society. Thank you.
    [The prepared statement of Ms. Johnson follows:]

    Prepared Statement of Kristina M. Johnson, Nominee to be Under 
                          Secretary of Energy
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee for Under Secretary of 
Energy.
    I wish to thank President Obama for asking me to join his 
administration as Under Secretary for Energy in the Department of 
Energy (DOE), and Secretary Chu for his confidence in my appointment. 
If confirmed, I look forward to working with the Department of Energy 
team Secretary Chu is assembling to advance the President's plans to 
restore our economy, secure our energy future and reduce our greenhouse 
gas (GHG) emissions. I am confident that the team you see here today 
will work together, tirelessly, to achieve these goals.
    The Under Secretary for Energy has wide responsibilities in energy 
technology including the DOE Offices of Fossil Energy, Nuclear Energy, 
Energy Efficiency and Renewable Energy, Electricity Delivery and Energy 
Reliability, Environment Management, Civilian Radioactive Waste 
Management and Legacy Management, and the DOE Laboratories associated 
with energy technologies. While the duties are varied, one consistent 
challenge is better integration of the work of the science and 
technology offices and DOE laboratories. By bridging the gap between 
basic research, development and commercial deployment, DOE can deliver 
technologies that will help to improve our everyday lives and enable us 
to achieve our long-term energy and climate change goals.
    I believe my background and experience have helped equip me with 
the skills and perseverance to tackle the challenges faced by the Under 
Secretary for Energy.
    I am a third generation engineer. My grandfather, Charles W. 
Johnson, was a mechanical engineer and worked directly for George 
Westinghouse as his engineering assistant, during the early days of 
Westinghouse Corporation.
    My father, Robert G. Johnson, was an electro-mechanical engineer, 
and also worked for Westinghouse. After serving in the U.S. Army during 
WWII, he rejoined the company, developing the bid packages for the 
Boulder, Grand Coulee and Glen Canyon hydroelectric power generation 
plants, to mention a few. I am inspired by my Grandfather's and 
Father's desire to improve their communities through technology. Their 
example, along with my Mother and Family's extraordinary support, has 
helped shaped my own course and desire to similarly serve society 
through the application of science and technology innovation.
    After receiving my PhD in electrical engineering from Stanford 
University, I served on the faculty of the University of Colorado at 
Boulder for fourteen years, ultimately directing the cross-disciplinary 
National Science Foundation Engineering Research Center (ERC) in 
Optoelectronic Computing Systems. The NSF/ERC program emphasizes a 
systems-focus and market pull for academic research. Our mission was to 
create a new workforce and new industries for the 21st Century.
    We succeeded in starting fourteen new companies, creating high 
paying jobs and new technologies in the optics and photonics industry 
sector. As an academic, I am most proud of the accomplishments of my 25 
PhD students and postdoctoral fellows, and 48 bachelor and master 
independent study students who contributed mightily to the success of 
our research program and ERC.
    After Colorado, I served as Dean of the Pratt Engineering School at 
Duke University for eight years, where I started programs to transition 
academic research and development into the commercial marketplace. I 
established the Fitzpatrick Center for Interdisciplinary Engineering, 
Medicine and Applied Sciences, an expanded professional master's of 
engineering management program and a technology accelerator called 
SouthEast Techinventures. Working with industry, academia and the state 
and federal governments, we spun out over twenty-two companies, 
creating jobs and an educated workforce in the biotech and photonic 
industry sectors in North Carolina.
    For the last two years I have been the Provost and Senior Vice-
President for Academic Affairs at Johns Hopkins University. Johns 
Hopkins University is the largest research university in the country. 
It is comprised of nine Schools, the Applied Physics Laboratory, and 
numerous centers and institutes. In managing the academic affairs of a 
university with 20,000 full and part-time students and approximately 
2,500 faculty, I was responsible for building a strong management team 
and launching university-wide strategic research and faculty hiring 
initiatives.
    My entire career has focused on improving each institution I have 
served by making the whole ``greater than the sum of the parts.'' I 
relish the opportunity to do this by working with the outstanding DOE 
leadership and staff to develop an energy technology roadmap to 
inspire, guide and measure our progress toward achieving President 
Obama's clean energy, job creation, and climate change goals.
    If confirmed as Under Secretary of Energy, I look forward to 
working with members of this committee, and I pledge to you that I will 
apply my knowledge, expertise and experience to solving our nation's 
energy challenges. Thank you.

    The Chairman. Thank you very much.
    Dr. Koonin, go right ahead.

  STATEMENT OF STEVEN ELLIOT KOONIN, NOMINEE TO BE THE UNDER 
          SECRETARY FOR SCIENCE, DEPARTMENT OF ENERGY

    Mr. Koonin. Chairman Bingaman, Senator Murkowski and 
members of the committee, I am truly honored to appear before 
you as President Obama's nominee for Under Secretary for 
Science in the Department of Energy. To aid your consideration 
of my nomination I'd like to say something about myself, 
something about science in the Department and something about 
what I hope to accomplish if my nomination is confirmed. I've 
worked in science for almost four decades largely as a 
Professor of Theoretical Physics at the California Institute of 
Technology.
    As a researcher I have several times been thrilled to 
understand something new about nature. As a teacher I've had 
the satisfaction of supervising some 25 Ph.D. theses and 
educating hundreds of talented students. As Cal Tech's Provost 
for 9 years, I gained a deeper understanding of the breadth of 
technical cultures and shaped programs in biology, astronomy, 
the earth sciences, the social sciences and information 
science.
    For the past 5 years as BP's chief scientist, I've help 
guide that company's long range technology strategy and in 
particular catalyzing a major business and research initiative 
in biofuels. I also came to appreciate the dynamics, strengths 
and weaknesses of the private sector as well as the global 
context for United States. research and education efforts. In 
diverse advisory roles for the past 25 years, including work 
with the JASON Group, I've been exposed to many technical 
problems facing the government, particularly in national 
security and have even help solve some of them.
    Throughout my career it's been a privilege and pleasure for 
me to learn and understand deeply from many teachers, mentors 
and colleagues. Over the decades my tastes have broadened from 
the fascinating, but relatively circumscribed problems of basic 
science to the richer and more difficult problems that 
intertwined science, technology, economics and politics. My 
involvement with the DOE began as a Los Alamos summer graduate 
student in 1972. Since then more by inclination than design 
I've worked significantly in the three major areas of DOE 
technical activities, basic science, nuclear security and 
energy technologies.
    Let me offer a few observations about each. The basic 
research supported by the Office of Science is one of the 
jewels of the Federal research portfolio. The long tradition of 
peer reviewed support for university and national laboratory 
researchers and for forefront user facilities continues to 
drive advances on many fronts.
    We're at the cusp of understanding the origin of mass. 
We're at the cusp of understanding what makes up most of the 
universe and how quarks and gluons combine to form nuclei. New 
instrumentation and new information technologies are enabling 
better understanding of the changing climate and new 
capabilities to predict, control and manipulate materials, 
biological systems and plasma. The commitments from Congress 
and from the administration to double support for these 
activities over the next decade are more than justified.
    In nuclear security the President has set ambitious goals 
for reducing the United States stockpile of weapons while 
maintaining confidence in their safety, security and 
reliability in the absence of nuclear testing. But these goals 
will not be achievable without a robust technical enterprise in 
the NNSA. The ongoing stockpile stewardship program has been 
effective for more than a decade but faces growing challenges 
in maintaining technical capabilities. Strengthening those same 
capabilities will also be essential to achieving the 
President's non proliferation goals.
    The President's energy goals are to enhance energy security 
and reduce greenhouse gas emissions while creating new jobs. 
Improvements in the technologies to produce, transmit, store 
and use energy are essential to meeting them. But the scale, 
duration, cost and complexity of energy matters poses 
significant challenges.
    Technical understanding and judgment are important in 
making the right decisions. Novel forms of public, private and 
international partnerships will be required to address these 
global, societal problems. I have pledged to Secretary Chu that 
I will work closely with the Under Secretary of Energy on these 
matters. Indeed I'm confident that Dr. Johnson and I will be 
very effective together should we both be confirmed.
    What do I aspire to accomplish as Under Secretary for 
Science? By statute the position has the dual responsibilities 
of overseeing the Office of Science and of being the principle 
scientific advisor to the Secretary. In the former capacity I 
would look forward to working with this committee, Secretary 
Chu, the Director of the Office of Science and the broader 
scientific community to see that Office of Science funds are 
wisely allocated and the programs are well executed.
    As a scientific advisor I would hope to coordinate and 
harmonize technical activities across the department and bring 
the discipline of appropriate peer review, program management 
and project management to all parts of DOE. I would also hope 
to promote rigorous and unbiased technical assessments in all 
matters facing the department as these necessarily underpin 
good policy decisions. The tone that Secretary Chu has already 
set and the team he is assembling are highly conducive to 
achieving those goals.
    In closing let me say that I am both humbled and energized 
by the confidence President Obama has placed in me through this 
nomination. If confirmed I will do my utmost to work with this 
committee, Secretary Chu and others to sustain and enhance the 
Department of Energy's basic research and to ensure quality 
technical thinking across the entire spectrum of the 
department's activities. Thank you for the opportunity to 
address the committee. I'm happy to answer any questions that 
you might have for me.
    [The prepared statement of Mr. Koonin follows:]

  Prepared Statement of Steven Elliot Koonin, Nominee to be the Under 
              Secretary for Science, Department of Energy
    Chairman Bingaman, Senator Murkowski, members of the Committee, I 
am honored to appear before you as President Obama's nominee for Under 
Secretary for Science in the Department of Energy. With me this 
afternoon are my wife Laurie, who has been my companion and support for 
39 years, and the second of our three children, Alyson, a junior at the 
University of Richmond.
    As you consider my nomination, I thought it would be useful for me 
to say something about myself beyond the bare biographical facts, 
something about my perceptions of Science in the Department of Energy, 
and about what I hope to accomplish if my nomination is confirmed.
    I have worked in Science for almost 4 decades, most of that time as 
a professor of Theoretical Physics at the California Institute of 
Technology. As a researcher, I have several times had the thrill of 
understanding something new about Nature: in the Cosmos, in the atomic 
and subatomic realms, and in the Earth's climate system. As a teacher, 
I have had the satisfaction of supervising some 25 PhD theses and 
educating hundreds of talented undergraduate and graduate students. And 
as Caltech's Provost for nine years, I gained a deeper understanding of 
the breadth of technical cultures, supervised the selection and hiring 
of 1/3 of the Institute's professors, and shaped programs in the 
biological sciences, astronomy, the earth sciences, the social 
sciences, and information science.
    For the past five years as BP's Chief Scientist, I've helped guide 
that company's long-range technology strategy, in the process forming a 
synthetic and synoptic understanding of energy and catalyzing a major 
initiative in biofuels. I also came to appreciate the dynamics, 
strengths, and weaknesses of the private sector, and to better 
understand the global context for US research and education efforts. 
And in diverse government advisory roles for the past 25 years, 
including work with the JASON group, I've been exposed to the variety 
of technical problems facing the government, particularly in National 
Security, and have even occasionally contributed to their solution.
    Throughout my career, it has been a privilege and pleasure for me 
to learn and understand deeply from many teachers, mentors and 
colleagues, to apply the substance and methods of Science toward 
defining problems and seeking their solutions, to clearly communicate 
those learnings, and then to be a part of their implementation. Over 
the decades, my tastes have broadened from the fascinating, but 
relatively circumscribed, problems of basic science to the richer, and 
more difficult, problems that intertwine science, technology, 
economics, and politics.
    My involvement with the DOE began as a Los Alamos summer graduate 
student in 1972. Since then, more by inclination than design, I've 
worked significantly in the three major areas of DOE technical 
activities--basic science, nuclear security, and energy technologies. 
Let me offer a few observations about each.
    The basic research supported by the Office of Science is one of the 
jewels of the Federal research portfolio. The long tradition of peer-
reviewed support for university and national laboratory researchers and 
forefront user facilities continues to drive advances on many fronts. 
We are on the cusp of understanding the origin of mass, the nature of 
most of what's in the universe, and how quarks and gluons combine to 
form nuclei. New instrumentation and new information technologies are 
enabling better understanding of the changing climate and new 
capabilities to predict, manipulate, and control materials, biological 
systems, and plasma. The commitments from Congress and the 
Administration to double support for these activities over the next 
decade are more than justified.
    In nuclear security, the President has set ambitious goals for 
reducing the US stockpile of weapons while maintaining confidence in 
their safety, security, and reliability in the absence of nuclear 
testing. But these will not be achievable without a robust technical 
enterprise in the NNSA. The National Nuclear Security Administration's 
ongoing Stockpile Stewardship program of simulation, non-nuclear 
experimentation, and warhead surveillance and refurbishment has been 
effective for more than a decade, but faces growing challenges in 
maintaining technical capabilities. Strengthening these capabilities 
will be essential to achieving the President's non-proliferation goals.
    In Energy, President Obama has set ambitious goals to enhance 
energy security and reduce GHG emissions while creating new jobs. 
Improvements in the technologies to produce, transmit, store, and use 
energy are essential to meeting these goals. But the scale, duration, 
cost, and complexity of energy matters pose great challenges. Technical 
understanding and judgement are important to making the right decisions 
about which technologies to pursue and how each should be advanced from 
research and development through demonstration and deployment. Novel 
forms of public/private and international partnerships will be required 
to address these global problems. I have pledged to Secretary Chu to 
work closely with the Under Secretary of Energy on these matters, I am 
confident that Dr. Johnson and I will work well together, should we 
both be confirmed.
    What might I aspire to accomplish in the position to which I've 
been nominated? As you know, by statue the Under Secretary for Science 
has the dual responsibilities of overseeing the basic research carried 
out in the Office of Science, and of serving as the principal 
scientific advisor to the Secretary. In the former capacity, I would 
look forward to working with this Committee, Secretary Chu, the 
Director of the Office of Science, and the broader scientific community 
to see that the existing and planned incremental funds for basic 
research are wisely allocated and the programs well-executed. In the 
latter capacity, I would hope to coordinate and harmonize technical 
activities across the department, looking for gaps and identifying 
synergies, bringing the rigor of appropriate peer review, program and 
project management to all parts of DOE. Indeed, the tone Secretary Chu 
has already set, and the team he is assembling, are highly conducive to 
achieving those goals. I would also hope to promote thorough and 
unbiased technical assessments in all matters facing the Department, as 
these necessarily underpin all good policy decisions.
    In closing, let me say that I am both humbled and energized by the 
confidence President Obama has placed in me through this nomination. If 
confirmed, I will do my utmost to work with this Committee, Secretary 
Chu, and others to sustain and enhance the Department of Energy's basic 
research and to ensure quality technical thinking across the entire 
spectrum of the Department's activities.
    Thank you for the opportunity to address the committee and I am 
happy to address any questions that you might have for me.

    The Chairman. Thank you very much.
    Ms. Triay.

    STATEMENT OF INES R. TRIAY, NOMINEE TO BE AN ASSISTANT 
  SECRETARY FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Ms. Triay. Mr. Chairman, Senator Murkowski, members of the 
committee, it's a great honor to appear before you today as 
President Obama's nominee to be the Assistant Secretary for 
Environmental Management at the Department of Energy. I thank 
President Obama and Secretary Chu for their confidence. I also 
thank the committee for considering my nomination.
    In 1961 when my parents fled Cuba's communist regime and 
went into exile with a 3-year old daughter and nothing but 
their dreams for a better life and their love for freedom, it 
would have been impossible to believe that their daughter would 
ever be nominated by the President of the United States to 
serve this great country. My parents and I are proud to be 
naturalized citizens of the United States and are humbled by 
the honor of my being here today.
    The pride that we feel has only served to deepen the great 
love that we have for this country and the admiration and 
respect that we have for the American people. That a girl born 
in Cuba was welcome in Puerto Rico, encouraged to study math 
and science, received a Ph.D. in chemistry from the University 
of Miami was recruited by Los Alamos National Laboratory and 
mentored by giants in the field of nuclear science was asked to 
direct the beginning of the operational phase of the waste 
isolation pilot plant, the only nuclear waste repository of its 
kind in the world, was promoted to the top career position in 
the Department of Energy's Environmental Management Program, 
the most complex nuclear cleanup in the world. Is now being 
nominated to direct cleanup is something that only happens in 
America.
    Mr. Chairman if I'm confirmed to this position I will work 
closely with you and with all of Congress to address the many 
local, State, regional and national issues that we face within 
the environmental management program. I commit to informing and 
consulting with Congress, the tribal nations, the States, our 
regulators, our stakeholders and individual concerned citizens. 
As I address you today I want to affirm my commitment to 
safety, the safety of our workers, the safety of the public and 
the safety of our environment. Safe operations and cleanup is 
our ever present and ultimate goal.
    I come before you today with a unique understanding of the 
complexity and magnitude of the task that we face. I have 
firsthand experience in every aspect of environmental 
management. I have dedicated my life to the successful cleanup 
of the environmental legacy of the cold war.
    While we have made significant progress in environmental 
management program I recognize the enormity of the remaining 
effort and the technical challenges that we face. I am eager to 
use science and technology, robust project management and our 
intergovernmental partnerships to reduce the cost and schedule 
of the remaining program. As the committee is aware the 
Environmental Management Program has come under considerable 
criticism for the execution of its projects. Under my 
leadership as Acting Assistant Secretary aggressive efforts are 
underway to transform the Environmental Management Program into 
a best in class project management organization.
    I commit to you that if I am confirmed I will work 
tirelessly to make this effort successful and to continue to 
improve the Environmental Management Program. I would like to 
thank Congress for including $6 billion of funding in the 
American Recovery and Reinvestment Act for Environmental 
Management. This funding will save and create jobs quickly for 
shovel ready work that is essential to our strategic objectives 
to reduce the footprint of the legacy cleanup complex. I 
recognize that discipline management and oversight of these 
funds will be critical to our success. I pledge to work with 
other offices in the Energy Department and the Congress to 
ensure that we meet this challenge.
    I have a long history of demanding excellence from my team. 
Nothing less than performance that results in delivering our 
projects on time and within cost will be acceptable from the 
Environmental Management Federal team and our contractors. 
Should I be confirmed I will use every available tool to ensure 
the successful performance of the Environmental Management 
mission. Relentless focus on performance, utilization of 
science and technology, hard work, staff professionalism and 
competency, transparency and accountability, this will be the 
cornerstones of my tenure if I am confirmed.
    Mr. Chairman, members of the committee, I would be honored 
to serve this country that I so deeply love. As a Latina I 
embrace the responsibility of excelling. If confirmed I will do 
everything in my power to meet your highest expectations. I 
would be pleased to answer your questions.
    [The prepared statement of Ms. Triay follows:]

    Prepared Statement of Ines R. Triay, Nominee to be an Assistant 
      Secretary for Environmental Management, Department of Energy
    It is a great honor to appear before you today as President Obama's 
nominee to be the Assistant Secretary for Environmental Management at 
the United States Department of Energy. I thank Secretary Chu and 
President Obama for their support and confidence in recommending and 
nominating me. I also thank the Committee for considering my 
nomination. I would like to introduce my husband of 24 years, Dr. John 
Hall, and his parents Mr. and Mrs. Harvey Hall, who are with me here 
today.
    In 1961, when my parents fled Cuba's Communist regime and went into 
exile with a three-year-old daughter and nothing but their dreams for a 
better life and their love for freedom, it would have been impossible 
to believe that their daughter would ever be nominated by the President 
of the United States to serve this great country. My parents and I are 
proud to be naturalized citizens of the United States of America and 
are humbled by the honor of my being here today. The pride that we feel 
has only served to deepen the great love that we have for this country 
and the admiration and respect that we have for the American people.
    That a girl born in Cuba was welcomed in Puerto Rico; encouraged to 
study math and science; received a Ph.D. in Chemistry at the University 
of Miami in Florida; was recruited by Los Alamos National Laboratory in 
New Mexico and mentored by giants in the field of nuclear science; was 
asked to direct the beginning of the operational phase of the Waste 
Isolation Pilot Plant in Carlsbad, New Mexico, the only nuclear waste 
repository of its kind in the world; was promoted to the top career 
position in the Department of Energy's Environmental Management 
program, the most complex nuclear cleanup in the world; and is now 
being recommended by a Nobel laureate, Secretary Chu, and nominated by 
President Obama to direct that cleanup is something that only happens 
in the United States of America.
    Mr. Chairman, if I am confirmed to this position, I will work 
closely with you and with all of Congress to address the many local, 
state, regional and national issues that we face within the 
Environmental Management program.
    As I address you today, I want to affirm my commitment to safety--
the safety of our workers, the safety of the public, the safety of our 
site communities and our stakeholders and the safety of our 
environment. Safe operations and cleanup is our ever present and 
ultimate goal.
    I come before you today with a unique understanding of the 
complexity and magnitude of the task that we face in the Environmental 
Management program. I have first-hand experience in every aspect of 
environmental management and I have dedicated my life to the successful 
cleanup of the environmental legacy of the Cold War.
    While we have made significant progress in the Environmental 
Management program, I recognize the enormity of the remaining effort 
and the technical challenges that we face. I am eager to use science 
and technology, robust project management, and our intergovernmental 
partnerships to reduce the cost and schedule of the remaining program.
    As the Committee is aware, the Environmental Management program has 
come under considerable criticism over the years in the execution of 
its projects. We must strengthen our project management capability and 
improve the skill set of our project management teams. Under my 
leadership as Acting Assistant Secretary, aggressive efforts are 
underway to transform the Environmental Management program into a 
``best-in-class'' project management organization. We are implementing 
processes and procedures for quality assurance and for identifying and 
managing project risks. I commit to you that if I am confirmed, I will 
work tirelessly to make these efforts successful and to continue to 
improve the Environmental Management program.
    I would like to thank Congress for including $6 billion in the 
American Recovery and Reinvestment Act for the Environmental Management 
program. This funding will save and create jobs quickly for shovel-
ready work that is essential to our strategic objective to reduce the 
footprint of the legacy cleanup complex. Footprint reduction can be 
accomplished by focusing cleanup activities on decontamination and 
demolition of excess contaminated facilities, soil and groundwater 
remediation, and solid waste disposition, all of which have proven 
technologies and an established regulatory framework. In addition to 
creating jobs, the Recovery Act funding will accelerate protection of 
human health and the environment at these sites. I recognize that 
disciplined management and oversight of these funds will be critical to 
our success. I pledge to work with other offices in the Energy 
Department and the Congress to ensure that we meet this challenge.
    I would like to end my testimony by reaffirming my commitment to 
the safety of our staff and contractors, to the safety of the 
communities and stakeholders at our sites and to the protection of our 
environment. I commit to informing and consulting with Congress, the 
tribal nations, the States, our regulators, our stakeholders and 
individual concerned citizens.
    I have a long history of demanding excellence from my team. Nothing 
less than performance that results in delivering our projects on time 
and within cost will be acceptable from the Environmental Management 
federal team and our contractors. Should I be confirmed, I will use 
every available tool to ensure the successful performance of the 
Environmental Management mission, relentless focus on performance, 
utilization of science and technology, hard work, staff professionalism 
and competency, transparency, and accountability. These would be the 
cornerstones of my tenure if I am confirmed.
    Mr. Chairman, members of the Committee, I would be honored to serve 
this country that I so deeply love. As a Latina executive and 
scientist, I embrace the responsibility of excelling, and, if 
confirmed, I will do everything in my power to meet your highest 
expectations. It is an honor to testify before you today. I would be 
pleased to answer your questions.

    The Chairman. Thank you very much. Ms. Tompkins, go right 
ahead.

STATEMENT OF HILARY CHANDLER TOMPKINS, NOMINEE TO BE SOLICITOR 
               OF THE DEPARTMENT OF THE INTERIOR

    Ms. Tompkins. Chairman Bingaman and members of the 
committee, I am honored to appear before you as President 
Obama's nominee to be the Solicitor of the Department of the 
Interior. I ask for your consent to his nomination. I thank you 
for providing me with the opportunity to present to you my 
background and qualifications for this position.
    For the past year I've been a stay at home mom. I've taught 
a seminar at the University of New Mexico School of Law. For 
the majority of my career I have served in the public sector. I 
have represented the United States and the State of New Mexico. 
I also have represented various Indian tribes and pueblos.
    I have expertise in the areas of environmental law, natural 
resources, water and Indian law as well as experience in the 
areas of constitutional law, administrative law and the 
legislative process. I have considerable litigation experience 
as well. I also have the experience of serving as a political 
appointee at the highest levels of the State of New Mexico 
government.
    As Chief Counselor to Governor Bill Richardson of the State 
of New Mexico I was responsible for advising the Governor on 
all legal matters. As well as managing a legal team and 
overseeing the general counsels in 31 State agencies. From this 
experience I understand the importance of providing unbiased 
and intellectually honest advice to a chief executive and to 
governmental agencies.
    I believe in working in a collaborative fashion and meeting 
with the interested parties, affected communities, experts and 
elected officials to learn the best solution to often difficult 
and complex issues. If I am confirmed I will bring these 
experiences and values to the position of Solicitor. I 
understand that the Department of the Interior presents its own 
unique set of challenges where the balancing of competing 
interests is a frequent occurrence and the multitude of issues 
can be staggering at times.
    I am prepared to take on these challenges. I have and will 
always have an open mind, a strong work ethic and a commitment 
to providing the best legal advice to my client and to my 
country. I also will have the benefit of working with the 
exceptional attorneys in the Solicitor's Office.
    On a personal note, I was born on the Navajo reservation 
into a family that was burdened with the social ills of 
alcoholism and poverty. When I met my birth mother she told me 
that she did not want me to grow up in that situation and that 
was why she gave me up for adoption as a baby. I was fortunate 
to be placed with wonderful, caring parents who raised me in 
Southern New Jersey. It was far from Indian Country, but I 
never forgot where I came from.
    At times it was difficult being a Native American without a 
culture or a community. I distinctly remember visiting the 
Natural History Museum here in Washington, DC, as a young child 
and seeing a display of Navajo Indians behind a pane of glass. 
I wanted to climb into the scene spread out before me and 
become a part of it. But at the same time I felt like it was 
foreign. It was the support and love and guidance of my parents 
that allowed me to navigate this world and find my place it in.
    I attended Dartmouth College in part to join their Native 
American Student Program and learn more about my heritage. As a 
young adult I reconnected with my roots and lived on the Navajo 
Reservation. I learned about my Navajo culture which at its 
core stresses the importance of living in harmony with the 
Earth.
    I went to law school after practicing in the Navajo Tribal 
Courts as a lay practitioner an opportunity provided to tribal 
members who pass the Navajo bar exam. It is because of these 
experiences that I am able to adapt and exist in different 
worlds. As a lawyer I am able to inhabit these worlds with a 
duty and purpose.
    It would be the greatest honor and a privilege to serve the 
United States as Solicitor of the Department of the Interior. 
Thank you, Mr. Chairman, for the opportunity to testify before 
you and all of the committee members today. I stand ready to 
answer any questions you may have.
    [The prepared statement of Ms. Tompkins follows:]

Prepared Statement of Hilary Chandler Tompkins, Nominee to be Solicitor 
                   of the Department of the Interior
    Chairman Bingaman and members of the Committee, I am honored to 
appear before you as President Obama's nominee to be the Solicitor of 
the Department of the Interior. I ask for your consent to the 
President's nomination.
    I thank you for providing me with the opportunity to present to you 
my background and qualifications for this position. For the past year, 
I have been a stay at home mom and taught a seminar at the University 
of New Mexico law school.
    For a majority of my career I have served in the public sector. I 
have represented the United States and the State of New Mexico. I also 
have represented various Indian tribes and pueblos. In this regard, I 
have a broad and unique perspective. I am comfortable and conversant in 
the culture of these various governmental entities, which I believe 
gives me a valuable awareness of and sensitivity to their distinct 
interests.
    I have expertise in the areas of environmental, natural resources, 
water, and Indian law, as well as experience in the areas of 
constitutional law, administrative law, and the legislative process. I 
have considerable litigation experience and have appeared on behalf of 
my clients in tribal, state, and federal courts. I've witnessed the 
challenges firsthand of bringing governmental entities and different 
groups together to tackle the difficult and complex issues of water 
management and compliance with laws such as NEPA and the Endangered 
Species Act.
    I also have the experience of serving as a political appointee at 
the highest levels of the New Mexico state government. As chief counsel 
to Governor Bill Richardson of the State of New Mexico, I was 
responsible for advising the Governor on all legal matters as well as 
managing a legal team and overseeing the general counsels in over 
twenty agencies. From this experience, I understand the importance of 
providing unbiased and intellectually honest advice to a chief 
executive and to governmental agencies. I believe in working in a 
collaborative fashion and meeting with the interested parties, affected 
communities, experts, and elected officials to learn the best solution 
to often difficult and complex issues.
    If I am confirmed, I will bring all these experiences and values to 
the position of Solicitor. I understand that the Department of the 
Interior presents its own unique set of challenges, where the balancing 
of competing interests is a frequent occurrence and the multitude of 
issues can be staggering at times. I am prepared to take on these 
challenges. I have and will always have an open mind, a strong work 
ethic, and a commitment to providing the best legal advice to my client 
and to my country. I also will have the benefit of working with the 
exceptional attorneys in the Solicitor's Office.
    I am humbled to be considered to serve in this capacity. As a young 
Justice Department attorney, I received training from John Cruden--some 
of you may know him. He is a well-respected, senior lawyer in the 
Justice Department's Energy and Natural Resources Division. John told 
us that we must never forget that it is the greatest honor and 
privilege to stand before a court of law and state ``I represent the 
United States of America.'' I have never forgotten his wise words and 
have carried them with me all these years. I would represent the 
Department of the Interior with great pride and with these words in 
mind if given the opportunity.
    On a personal note, I was born on the Navajo reservation to a 
family that was burdened with the social ills of alcoholism and 
poverty. When I met my birth mother, she told me that she did not want 
me to grow up in that situation and that was why she gave me up for 
adoption as a baby. I was fortunate to be placed with wonderful, caring 
parents who raised me in Southern New Jersey. It was far from ``Indian 
Country'' but I never forgot where I came from. At times it was 
difficult being a Native American without any culture or community. I 
distinctly remember visiting the Natural History Museum here in 
Washington, D.C. as a young child and seeing a display of Navajo 
Indians behind a pane of glass. I wanted to climb into the scene spread 
out before me and become a part of it, but at the same time I felt like 
it was foreign. It was the love, support, and guidance of my parents 
that allowed me to navigate this world and find my place in it.
    I attended Dartmouth College in part to join their Native American 
student program and learn more about my heritage. As a young adult, I 
reconnected with my roots and lived on the Navajo reservation. I 
learned about my Navajo culture which at its core stresses the 
importance of respecting and living in harmony with the earth. I went 
to law school after practicing in the Navajo tribal courts as a lay 
practitioner--an opportunity given to tribal members who pass the 
Navajo bar exam. It is because of these experiences that I am able to 
adapt and exist in different worlds. As a lawyer, I am able to inhabit 
these worlds with a duty and purpose.
    It would be the greatest honor and a privilege to serve the United 
States as Solicitor of the Department of the Interior.
    Thank you, Mr. Chairman, for the opportunity to testify before you 
today. I stand ready to answer any questions you may have.

    The Chairman. Thank you very much.
    Mr. Harris, go right ahead.

STATEMENT OF SCOTT BLAKE HARRIS, NOMINEE TO BE GENERAL COUNSEL, 
                      DEPARTMENT OF ENERGY

    Mr. Harris. Mr. Chairman, distinguished members of the 
committee, thank you for considering my nomination and for the 
opportunity to appear before you today. I'd also like to 
express my sincere appreciation to President Obama for his 
confidence in nominating me to be General Counsel of the 
Department of Energy and to Secretary Chu for asking me to 
serve as Counsel at the Department. I am most honored to be 
here today.
    Mr. Chairman I've practiced law in Washington for 33 years. 
I've been a partner in three law firms. I've worked for a 
Federal judge and for two Federal Government agencies.
    I have more experience than I sometimes like to admit to my 
younger colleagues with litigation, with administrative law, 
with trade law and with national security law. I have earned 
every gray hair that I possess.
    [Laughter.]
    Mr. Harris. But there are, I think, several benefits to 
having practiced law as long as I have in as many different 
substantive areas as I have and in so many different venues. 
One benefit is that there are few problems I am likely to 
encounter that I've not seen before in one guise or another. 
While the words of the relevant statutes may vary the key 
issues of statutory interpretation are remarkably alike.
    A second benefit is that I've learned a deep respect for 
Congress and the laws it has enacted including critically the 
Administrative Procedure Act which provides the public with 
important safeguards against arbitrary government action.
    Third, I know from both inside and from outside the 
government how important it is that agencies act within the law 
at all times in all things whether large or small and how 
important legal counsel is in assuring that happens. I long ago 
learned that sometimes you have to tell clients what they might 
not want to hear. A good general counsel needs more than a good 
mind and good training. A general counsel must have the 
experience, the wisdom and simply put, the backbone to provide 
on occasion unwelcome advice.
    Finally, I've learned how important it is for government 
agencies to have open lines of communication with the Congress. 
If confirmed I promise I will be available to you and your 
staffs whenever and wherever you think I can be of assistance.
    In summary, I hope to bring to the Department of Energy a 
wide range of experience that will allow me to provide 
informed, direct and clear advice. Above all, advice which is 
faithful to the laws that Congress has enacted. Mr. Chairman, I 
want to thank you and the committee once again for this 
opportunity to appear before you. I'm prepared to answer any 
questions you may have for me. Thank you.
    [The prepared statement of Mr. Harris follows:]

    Prepared Statement of Scott Blake Harris, Nominee to be General 
                     Counsel, Department of Energy
    Mr. Chairman, Senator Murkowski, distinguished Members of the 
Committee, thank you for considering my nomination and for the 
opportunity to appear before you today.
    Let me begin by expressing my sincere appreciation to President 
Barack Obama for his confidence in asking me to be part of his 
Administration as General Counsel of the U.S. Department of Energy. I 
am honored to have been nominated.
    I also want to thank Secretary Steven Chu for asking me to serve as 
counsel to the Department of Energy. Secretary Chu is an extraordinary 
scientist and an extraordinary man. I would be thrilled to have the 
opportunity to advise him and his management team as they develop and 
implement policies needed to make our country more energy secure while, 
at the same time, preserving and protecting our environment.
    As you know, the General Counsel is responsible for providing legal 
advice and counsel to the Secretary, Deputy Secretary, and all 
operating DOE units (except for the Federal Energy Regulatory 
Commission), for effectively representing the Department as counsel 
before other Federal governmental agencies, and for working with the 
Department of Justice to represent the agency before the courts. Most 
importantly, the General Counsel assures that the Department operates 
in compliance with all applicable laws and regulations. Mr. Chairman, I 
come before this Committee with what I believe is the experience 
necessary to allow me to handle the challenges of the general counsel 
position for which I have been nominated.
    I have practiced law in Washington for thirty-three years, both in 
the private sector and in the government.
    I have been a partner at two large firms, Williams & Connolly and 
Gibson Dunn & Crutcher. Eleven years ago I started my own law firm, 
Harris, Wiltshire & Grannis, and have been the managing partner since 
its inception.
    I have also spent several years--the most rewarding years of my 
career--in the government. I worked for a federal judge, the Hon. 
Gerhard A. Gesell, immediately after graduating from law school. 
Following sixteen years in private practice, I served as Chief Counsel 
for Export Administration at the U. S. Department of Commerce, and then 
as the first Chief of the International Bureau at the Federal 
Communications Commission.
    In these various positions in both the private and public sectors, 
I've had a great deal of experience with litigation, administrative 
law, trade law and national security law. More importantly for the 
position to which I have been nominated, I have spent the last sixteen 
years working at the intersection of law, technology, and policy. The 
core of my experience over the last decade and a half is in providing 
legal advice to scientists, engineers and policy-makers. Additionally, 
I have managed divisions of key federal agencies at moments when they 
simply had to step up their game.
    The result of practicing law as long as I have, in the public and 
private sectors, in as many different areas as I have, is that there 
are few issues I am likely to encounter that I have not seen before in 
one guise or another.
    While the words of the relevant statutes may vary, the key issues 
of statutory interpretation are remarkably alike. And regardless of the 
federal agency involved, I have learned that a deep respect for 
Congress and the laws it creates, including, critically, the 
Administrative Procedure Act, provides the public with important 
safeguards against arbitrary government action. This means, as I long 
ago learned, that to provide good counsel, sometimes you have to tell 
clients--whether in the private sector or the public sector--what they 
might not want to hear. I know from both inside the government and 
outside the government how important it is that agencies act within the 
law at all times in all things, large and small, and how important 
legal counsel is in making that happen.
    Simply put, a good general counsel needs more than a good mind and 
good training. A good general counsel must have the experience, wisdom 
and strength to provide unwelcome advice.
    In summary, if confirmed, I will bring to the Department of Energy 
a wide range of experience in a variety of legal disciplines, all of 
which will allow me to provide the agency with informed, clear and 
direct advice--and, above all, advice which is faithful to the laws 
that Congress has enacted.
    Finally, I understand how important it is for government agencies 
to have open and honest lines of communication with the Congress. If 
confirmed, I hope to have many opportunities to work closely with you 
and members of your staffs over the next few years.
    Mr. Chairman, I want to thank you and the committee once again for 
this opportunity to appear before you and I am prepared to answer any 
questions you may have.

    The Chairman. Thank you very much. Thank you all for your 
excellent testimony. As I said in my opening statement, I 
support each of your nominations.
    I think the President has chosen well. Secretary Chu has 
chosen well. Secretary Salazar has chosen well. So I commend 
you for taking on these difficult jobs.
    Let me call on my colleagues who may have questions at this 
time. Senator Bennett?
    Senator Bennett. Thank you very much, Mr. Chairman. Thank 
you to all of you for your willingness to serve in the Federal 
Government which is not the most financially remunerative thing 
you could do. But I'm impressed by the fact that you are all 
excited about the challenge.
    I have no particular questions for most of you. But I've 
already warned the next Solicitor that I'm going to have a 
conversation with her. So let's get to it.
    I want to thank you again to coming in to see me this week 
and giving me an opportunity to outline for you some of the 
issues that we have. I'll submit some questions for the record.
    But here today I want to focus my time on the very 
controversial issue of wilderness in Utah, particularly the 
wilderness settlement between the United States of America and 
the State of Utah. Perhaps we are blessed in Utah with the most 
beautiful wilderness available or we're cursed with the most 
beautiful wilderness available because we seem to be ground 
zero for the wilderness debates that are going on. So as a 
consequence Utah public lands have been studied to death for 
wilderness going all the way back to the Carter administration.
    Environmental groups tell the story of wilderness quality 
lands disappearing at record rates to OHVs and oil and gas 
development and so on. While they say that their proposals for 
wilderness have gone from 4.7 million acres which was a factor 
in my Senate race in 1992 when my opponent introduced a bill in 
the House of Representatives to create 4.7 million acres and as 
the public responded to that back pedaled from that.
    At one point in one of our debates said I never said 4.7 
million was the right number. I had to remind him that he had 
introduced a bill to that effect in the Congress of the United 
States which he then tried to down pedal. Now their proposals 
have gone from 4.7 to 5.7 to 8.4 to 9.1 and currently stand at 
9.4 million acres in the latest proposal.
    Now FLPMA has a 5 point process as to deal with wilderness.
    Number 1, conduct an inventory.
    Number 2, conduct a wilderness review of the inventory and 
establish what are known as wilderness study areas.
    Number 3, report the recommendation to the President.
    Number 4, the President reports a recommendation to the 
Congress.
    The point that everyone must remember, No. 5, Congress is 
the only entity that can designate wilderness, the only entity 
under the law. All of the rest of this is advisory. Congress is 
the only entity.
    A wilderness study area, once it has been designated and 
recommended is managed as if it were wilderness awaiting 
Congressional activity. What we have seen out of subsequent 
Departments of Interior is that they are willing to lock up BLM 
land as study areas and thus create de facto wilderness. Then 
the environmental groups block the Congress in every effort to 
designate wilderness so they have created de facto wilderness 
with WSAs. The Congress has been unable, for a variety of 
reasons to designate wilderness.
    We've finally broken through that after more than 15 years 
with a designation of wilderness in the Washington County, one 
area of Utah. It's very interesting that many of the 
environmental groups that fought us tooth and nail up to 48 
hours before the chairman ultimately submitted the bill that 
included the solution of the wilderness area in Washington 
County now claim credit for it. Say, isn't it wonderful that we 
have done a great job of creating this wilderness.
    They didn't want the bill passed because they want the WSAs 
maintained as de facto wilderness forever. Previous Departments 
of the Interior have designated WSAs and inventory that goes 
beyond the FLPMA process. Now are managing those as wilderness. 
Do you see where I'm going?
    As a lawyer you should understand that this is a 
significant way of getting around the law. The United States 
and Utah, there's been a legal case. There's been a lawsuit. A 
Federal judge has issued his opinions. The United States 
Government and Utah have entered into a settlement agreement 
with respect to that.
    You are going to be the Solicitor that's going to have to 
defend that agreement because the environmental groups are 
trying to overcome it because of the history I've just 
described. They're going to try to say, no, no, no. The 
Secretary has the right to conduct an inventory outside of the 
FLPMA process approved by Congress.
    The key issue in that lawsuit was once the FLPMA process 
approved in the Carter administration had expired could the 
Secretary continue to designate WSAs? The Federal judge said 
no. Once that it had expired Congress had acted. The Secretary 
didn't have the right to go beyond the time period given him 
for the inventory and the designation.
    You're going to have to defend that lawsuit. You're going 
to have to defend that judge's opinion. We need to know your 
legal approach to this kind of thing.
    My question is quickly, as my time is gone. But I'll just 
run through them. Then you can respond as you wish.
    Do you agree that the Department's authority to establish 
new wilderness study areas under section 603 of FLPMA expired 
on October 21, 1993, which is the period of that first 
inventory conducted in the Carter administration?
    Do you agree that the Department has no authority to 
establish new WSAs post 603 WSAs under any provision of Federal 
law?
    Do you agree with Federal judge DeBenson that the 
settlement agreement between the State of Utah and the United 
States is consistent with FLPMA?
    Finally, does the BLM have authority to apply the non-
impairment standard as enumerated in the interim management 
plan for wilderness study areas to lands that are not 
designated as WSAs under section 603?
    These are the 4 core questions going to this issue. Again, 
at the risk of taking too much time, I see a deliberate 
strategy on the part of groups that are not satisfied with what 
comes out of the inventory under FLPMA of saying we will get a 
friendly Secretary to designate something as a WSA and then 
recognizing that only Congress can resolve this issue. Once 
it's designated and being managed as a WSA, we will do 
everything we can to prevent Congress from acting so that we 
can get de facto what we could never get under the legal 
process as established by the Congress.
    That's the issue. You can respond here now if you like or 
you can respond in writing as you like. But I wanted to get all 
of that on the record very clearly so that we understand where 
we are on this most contentious issue and what I maintain is 
the most beautiful state in the Union. Thank you, Mr. Chairman.
    Ms. Tompkins. Chairman, Senator, I appreciate your 
comments. It is a new area for me, this particular settlement 
involving Utah and the Department and these wilderness issues. 
So I do think it'd be premature for me today to respond to 
them.
    But I would, certainly will look at those issues carefully 
if I were confirmed. Work with the Department and the Secretary 
and analyze all the applicable legal requirements involving the 
designation of wilderness areas. So I would look at the issue 
closely if I were confirmed and in the position of Solicitor.
    So thank you for your comments.
    Senator Bennett. Thank you. I look forward to working with 
you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Welcome all the 
panelists. We very much appreciate your willingness to serve 
the country in the positions for which you've been nominated.
    I'd like to particularly thank Ms. Tompkins and Mr. Harris 
for recognizing Dartmouth College. For all you young people in 
the audience, think about Dartmouth as you're looking at 
colleges. Certainly would disagree with Senator Bennett about 
Utah being the most beautiful State in the country.
    [Laughter.]
    Senator Shaheen. We obviously vie for that position. But I 
am going to give you a pass, Ms. Tompkins after those questions 
from Senator Bennett. I think you need a rest to think about 
those. I'm really going to focus first on the remaining members 
of the--nominees because you're all going to be in the Energy 
Department.
    The energy issues that we're facing in the country are 
going to be very complex. We're going to be looking at energy 
from a variety of perspectives, new technologies. How it 
affects our need to address climate change.
    So I guess my question for all of you in the Energy 
Department is how you see collaborating and cooperating around 
the very complex issues you will be addressing in a way that 
can make the Department as efficient and effective as possible.
    [Laughter.]
    Ms. Johnson. Senator, may I respond.
    Senator Shaheen. Please.
    Ms. Johnson. Thank you very much for that question. I 
really think that is the key question in that the problems that 
we face are very complex. They'll require a systems integrated 
approach.
    I think you heard from my colleague, the Under Secretary 
for Science, that one of the things that both of us being 
provosts or former provosts, that we understand is our job is 
to make the whole greater than the sum of the parts. The way 
you do that is to vigorously fund research and development 
that's focused on the system, the outcome and the goals. Then 
work back the kind of programs you need put in place so that 
you can take the breakthroughs in research, in science, applied 
technology into deployment and ultimately commercialization to 
achieve the goals of providing for our energy security, 
creating jobs and reducing greenhouse gases.
    Without that system integration we can't do one or the 
other because they are so interconnected. You can even see in 
the programs that are within the technologies that we can 
borrow things that are happening, for example, in nuclear 
power, fossil fuel and apply them to energy efficiency and 
renewable. We're already seeing that even though we are not yet 
confirmed, but if confirmed, we will even explore that deeper.
    Senator Shaheen. Ok. Would anyone else like to respond to 
that?
    Mr. Koonin. Energy technologies are really very different 
than other technologies like bio-matter, IT. Energy is 
everywhere in society. So the changes that you try to make 
really affect many different folks, you need to worry about 
that.
    You need to worry about scale to solve the problems that 
we're facing energy security, greenhouse gas emissions. We need 
to look at technologies that can make a material difference. 
It's not enough to just solve a small piece of the problem.
    In addition because we already have sources of heat, light 
and mobility, new technologies have to compete against existing 
technologies. All of these factors make change relatively 
slowly. But change will only happen if as we do the science and 
technology, we pay attention to the economic, political and 
social dimensions.
    Senator Shaheen. Apropos that comment. Both Dr. Koonin and 
Dr. Triay have extensive knowledge of nuclear energy. I would 
like to ask both of you what role you see nuclear energy 
playing in the future economy, in the country. How you see it 
with respect to our need to address global warming and what you 
think can be done with the waste.
    I was particularly interested in your comments, Dr. Triay 
about dealing with some of the technologies in a way that could 
be helpful.
    Ms. Triay. As Secretary Chu has said, Senator, nuclear 
energy will be part of the mix of the energy future of the 
United States. With respect to the waste, the Environmental 
Management Office doesn't have responsibility for the 
commercial waste and spent nuclear fuel. But we do have spent 
nuclear fuel in the Environmental Management Program. We have 
high level waste that comes from our defense mission.
    With respect to technology development we believe that it 
is essential and in fact, Secretary Chu has told me personally 
that he wants us to make an investment on ensuring that we 
reduce some of the cost associated with vitrifying the waste. 
We are poised to deal with the spent nuclear fuel with put it 
in dry storage. With respect to the actual high level waste, we 
know, as you know, we vitrify the majority of our waste and 
leave it in a very safe configuration.
    With respect to that vitrification process we are looking 
very closely to work with some of our colleagues in Mr. 
Koonin's portfolio to look at better melter technologies. To 
look at ways to reduce constituents that would then allow us to 
maximize the waste loading and the production of glass. In 
these vitrification plants we have both at Savannah River and 
we will have at Hanford.
    So I assure you that Secretary Chu is very interested in 
transformational technologies that actually can help us do our 
job more effectively. We will be working very closely with Mr. 
Koonin's colleagues to accomplish that.
    Senator Shaheen. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. Ms. 
Johnson, we had a chance to visit yesterday and very 
productive, very fruitful meeting. Thank you so much for coming 
by and for the time.
    Something happened since we met yesterday and it was that 
the chairman of the Federal Energy Regulatory Commission said 
that there was no need to build new United States coal and 
nuclear power plants. This is since we visited yesterday. Mr. 
Wellinghoff went on to say that renewables like wind, solar and 
biomass will provide enough energy to meet base load capacity 
and future energy demands.
    This kind of flies in the face of the things we discussed 
yesterday where we discussed an understanding that American 
energy needs at this point. We're using it all. I'm just 
interested, given that the estimated increases in energy demand 
and limitations of our transmission infrastructure and the need 
for power when the wind doesn't blow and the sun doesn't shine. 
Do you agree with Chairman Wellinghoff's statement or should we 
be taking energy generation options off the table at this 
point?
    Ms. Johnson. Thank you, Senator for that question. Thank 
you also for the time to meet yesterday. As we spoke we need to 
have a comprehensive, strategic energy plan.
    One of the first things, if confirmed, that I would like to 
work on with my colleagues and the Secretary is to come up with 
a technology energy road map that puts down what are the goals 
we're trying to accomplish which is securing our energy future, 
creating millions of jobs as we discussed and cutting 
greenhouse gases. Once we have that road map in place then we 
can look at the portfolio of energies that we have, coal, 
nuclear, renewables, etcetera and see how each one of those 
will contribute along with what I think is most important 
because it is the low hanging fruit is conservation and 
efficiency. I think there are a number of gains that can be 
made in the short term as we bring on carbon capture and 
sequestration with coal, as we restart the civilian commercial 
nuclear industry and some of these other areas that we'll be 
able to address the overall challenge of the three goals that I 
mentioned.
    Senator Barrasso. Thank you.
    Ms. Johnson. Thank you.
    Senator Barrasso. Ms. Tompkins, I wanted--and I have a 
couple, Mr. Chairman, questions to submit in writing.
    I just wanted to visit with Ms. Tompkins. Long before 
either you or I got here there was an issue of Washington owing 
Wyoming hundreds of millions of dollars from abandoned mine 
land funding. It's Wyoming's money. This has been collected and 
held in Washington for a long time.
    In 2006 after decades of bipartisan effort, an agreement 
was found and signed into law to guarantee that States, like 
Wyoming that were owed money, would finally be paid without 
strings attached. President Obama and Secretary Salazar both 
voted for the bill. It's been signed into law and they voted 
for it when they were in the Senate.
    The bill required certified states or Indian tribes to be 
paid back money owed in seven equal installments. I quote, this 
is the law. ``The Secretary shall make payments to states or 
Indian tribes for the amount due for the aggregate, 
unappropriated amount allocated to the state or Indian tribe 
under sub paragraph A or B.'' A section, and it goes through 
the section numbers of this title.
    It says, ``The payments shall be made in seven equal and 
annual installments beginning with Fiscal Year 2008.'' The 
Interior Solicitor before you came to a different conclusion 
stated that what Congress meant was that the funds must be paid 
back in the form of a grant and not in seven, equal 
installments. I'd like to know your understanding of seven 
equal installments as well as whether you agree or disagree 
with the fine votes cast by President Obama and Secretary 
Salazar prior to their new positions in government.
    Ms. Tompkins. Senator, thank you for this question. I have 
to say that I don't today, have an opinion on the issue. That 
it would be a new issue for me. I would have to look at it more 
closely before I could give you a definitive response. That's 
the best I can do today.
    Senator Barrasso. Thank you, Mr. Chairman. I'll submit some 
questions in writing. Hopefully you'll have a chance to take a 
look at this.
    But it seemed very clear to people on both sides of the 
aisle what this meant. But in a previous administration and a 
previous solicitor came up with an idea that really I don't 
think anybody in the Senate had anticipated. So I hope that you 
see it the same way that we do. Thank you very much. Thank you, 
Mr. Chairman.
    The Chairman. Thank you. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. I look forward 
to working with all the nominees here in their important 
capacity in both agencies. Ms. Triay, thank you for your visit 
to my office. We had a chance to talk about some of these 
issues and for your compelling personal story as well.
    First of all it's great to see so many women in the fields 
of math and science. I hope that you can help us in recruiting 
more into the fields. But obviously one of the most urgent 
needs is Hanford cleanup and the 53 million gallons of 
radioactive waste that is stored in underground storage tanks. 
Sixty-seven of which have been confirmed to be leaking and are 
reaching ground water plumes that are moving toward the 
Columbia River.
    We had a chance to talk about this. But the Department of 
Energy is obviously missing the milestones for the cleanup of 
Hanford in the tri party agreement. So getting into compliance 
is obviously a big part of the concerns that we have.
    So I have a couple of questions about that. First of all do 
you think that there is adequate storage space in the double 
shell tanks to safely retrieve the waste until the waste plant 
is fully operational?
    Ms. Triay. Senator Cantwell, thank you. First off, thank 
you for your leadership in the Hanford cleanup. We could not be 
where we are today and have a path forward without your 
leadership.
    With respect to the double shell tanks space, I feel 
strongly that we need a systems plan analysis on an annual 
basis to ensure that we make the decisions as to whether or not 
we need additional tank space, a systems plan that takes into 
account every cubic meter of the waste in those tanks. I have 
been working with the field office as well as the State. I 
assure you that part of that systems plan will be to address 
exactly that question, do we need further tank space.
    If we do, obviously we will press forward at fulfilling 
that need. Of course we would try to make every effort to 
prevent having to build more double shell tanks that then have 
to be cleaned up. But we assure you that that systems planning 
is going to be comprehensive. It's going to be done in a 
collaborative manner with the state that has excellent experts 
to assist us as well as the Environmental Protection Agency.
    Senator Cantwell. When would that be completed do you 
believe?
    Ms. Triay. We are intending to have our first systems plan 
within this year. But after that that systems plan needs to be 
updated. Those modeling efforts that take into account every 
single cubic meter of that tank waste has to be refreshed on an 
annual basis, at least.
    Senator Cantwell. I'm sorry what do you mean by that? I 
mean obviously the tanks are leaking. They're contaminating 
ground water and so the annual analysis isn't so much the issue 
as to have a concrete plan to remove the tank waste until a 
reprocessing plant is up and running which is not until, well 
hopefully it will be 2019. That's the goal, but.
    Ms. Triay. As you know we are aggressively pursuing 
removing the waste from the tanks as we speak. We are removing 
the waste from the single shell tanks and preparing them for 
when the waste treatment plant comes online. What I meant was 
that we can use evaporator technology to remove the liquid so 
that we actually increase the tank space available in the tank 
funds.
    We already are looking at the integrity of the tanks to 
make absolutely certain that we do not have leaks that are 
going to compromise the environment. What I meant by the 
systems plan is that every time that that calculation gets 
performed, that modeling exercise gets performed, we have to 
make the decision as to whether or not we need to press forward 
with further tank space or whether we have enough tank space 
given that we have evaporator technology that we have removal 
technologies in order to be able to complete the cleanup and 
have enough feed for the waste treatment plant when it comes 
online in 2019.
    Senator Cantwell. Will the 2 billion in added stimulus 
funds help expedite the goal of the ground water contamination?
    Ms. Triay. Absolutely, Senator.
    Senator Cantwell. If the goal was originally 2015 in 
cleaning up that plume, what would it be with $2 billion?
    Ms. Triay. We are, right now, as you know with this 
particular stimulus package, we have gone out of our way to 
consult with the regulators as well as our stakeholders. So 
right now we are looking at what is the amount of acceleration 
that that particular, in essentially in this particular case is 
$1.961 billion, you know, between the Office of Radioactive 
Protection in Hanford. That would accelerate the ground water.
    We understand that our goal is to have absolutely no 
contaminates reaching the Columbia River. So a significant part 
of that $2 billion is going to go toward that effort. In 
addition to that Secretary Chu has asked us to invest in 
technology development to also deal with the ground water, deal 
with barriers such as reactive barriers with minerals that can 
absorb the contaminants bioremediation.
    So I think that you're going to see dramatic effort in 
making sure that contaminants do not reach the Columbia River.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. Welcome to each 
of you and to your families. We thank you for your willingness 
to serve at a very challenging time. It is also a time where we 
can make great progress in the country if we work hard and are 
focused. I appreciate the President's visions in each of the 
areas that you are hoping to work in.
    I wanted specifically, Dr. Johnson, to thank you for the 
chance to have the opportunity to talk specifically about the 
loan programs and grants and how we move forward on technology 
and so on. I wondered if you might speak about the President's 
targets for getting us to electric vehicles. One that I support 
strongly is his goal of putting one million plug-in electric 
vehicles on the road by 2015.
    We've been working very hard on that. Our recovery plan, of 
course, has the $2 billion investment in grants. Working with 
the chairman and his leadership on the Finance Committee, we've 
been able to add manufacturing incentives. We're already in 
Michigan seeing the benefit of that by manufacturing facilities 
for batteries being announced and in just a few months we hope 
to see ground breakings on those which are very important.
    I wondered if you might share with the committee how you 
view delivering on the President's goal in terms of electric 
vehicles and the importance of having a domestic battery 
manufacturing presence in the United States.
    Ms. Johnson. Thank you very much, Senator. I too enjoyed 
our time to talk yesterday. So the President's goal is to have 
one million plug-in electrical vehicles on the road by 2015, I 
believe.
    This will require a tremendous investment in infrastructure 
and components. So, as you mentioned batteries. As part of the 
American Recovery and Reinvestment Act we are funding programs 
in that area and look at batteries to look at applications for 
storage in the infrastructures that we can power the vehicles.
    It is a complex problem. We have hundreds of millions of 
cars on the road today. We know how to build cars in this 
country.
    What we need to do, as we just talked, is leverage that 
expertise now to retool and be able to apply it toward 
electrifying the fleet. To that end, I just, I think 2 weeks 
ago we announced $40 million in grants as part of the American 
Recovery and Reinvestment Act toward different battery 
technologies, fuel cells that was matched by 70 million from 
industry. It is looking at programs that have been in Arkansas 
and in Michigan with I think, Delphi received a $2.8 million 
grant. Again to look at ways of leveraging what we have in 
place and to retool and to look at other manufacturers.
    So, I think, promoting that, continuing to work together 
integrating the basic and applied science toward 
commercialization and deployment is what we will be able to do. 
I do believe we will be successful.
    Senator Stabenow. Further on that point, as we had talked 
yesterday, I was pleased to have championed section 136 of the 
Energy Bill of 2007. At that time we focused on retooling, on 
getting the new technologies out and so on. There was a $25 
billion allocation set up for the fund.
    President Obama has spoken about a $50 billion commitment 
through that fund. I'm hoping that we can get to that point 
very soon. I wondering if you have any thoughts about raising 
that number to the President's expressed number as he talked 
about back in the fall.
    Then second looking at the section 136 and the other loan 
guarantees and loan programs and grant programs, if you have 
any comments about what we had talked about yesterday as well 
with the different silos of these grants and loans when it's so 
critical right now to get capital out to businesses. There are 
hundreds of businesses in Michigan that are ready to take that 
next step on commercialization or be able to scale up right in 
the middle of the global credit crisis. So these areas of 
creating capital become incredibly important, but it is 
complicated and confusing right now for businesses to which 
ones to apply to and how they fit together and how much of a 
loan and how much of a grant and so on.
    So, first about the number in terms of getting us up to the 
50 billion that the President talked about in section 136. But 
then second, just the ability to move forward in a coordinated 
way with the current loans and grants that are available.
    Ms. Johnson. Thank you. First of all the Loan Guarantee 
Program is critical toward moving new technologies forward. I 
believe that 2 or 3 weeks or most recently we had the first 
loan guarantee that went out to SOLYNDRA for about $500 million 
for advanced photovoltaic systems.
    So the process is working. I'm not familiar with the 
amounts. Haven't had a chance to be briefed on that, but I look 
forward to working with you and this committee to see what 
would be the best mechanism to continue that program. That 
would be, if confirmed, of course.
    Senator Stabenow. Of course. Great. Thank you, Mr. 
Chairman.
    The Chairman. Senator Bennett, did you have additional 
questions or Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. I wanted to ask 
Mr. Harris a few questions if I could. It's good to see you 
here in this capacity for your nomination.
    One of the big issues obviously has been Hanford and Rocky 
Flats lawsuits related to the cold war radiation legacy of our 
nuclear program. Obviously for those who have been impacted as 
in the downwind population, has been an ongoing case. In fact 
the Energy Department seems to have sent quite a bit of money, 
more than 125 million in just the contract or legal cost, that 
is the out sourced, legal dispute, I guess is the best way to 
characterize it.
    It has been going on for many years. In fact we had one 
Federal judge last March concluding that quote, The financial 
cost of litigation is very high. The court concludes that 
continuing to resolve the claims in this manner is not 
economical and is unacceptable. Sorry, that manner is not 
economical and is unacceptable.
    So what are your thoughts about how we get out of this just 
basically continuing to have, you know, law firms making tons 
of money off of the Department of Energy on cases that probably 
should be settled?
    Mr. Harris. When I was a young lawyer the senior partner I 
worked for and I admired the most, said to me, you know, an ok 
settlement is better than the greatest trial. That's my view of 
litigation in general. If solutions can be found that are 
acceptable to the parties.
    It is far better to do that and to attempt to do that than 
to waste years and enormous amounts of money on litigation. Not 
maybe the best thing for a litigator to say. But it's my view 
and has been for a long time.
    I'm aware of the Hanford litigation. But because precisely 
it is in litigation, it was impossible for me, as not being an 
employee of the Department to discuss it very much with people 
who were there because of the risk of learning confidential 
information at a time that would not be appropriate. But I can 
promise you that if I am confirmed I will indeed look at that 
litigation as one of the first things I do in the Department.
    Senator Cantwell. Can you send the committee a written 
summary of the findings and intentions regarding Hanford and 
Rocky Flat cases within 90 days?
    Mr. Harris. I would be pleased to do that.
    Senator Cantwell. Ok, thank you. Obviously you will be 
involved in the oversight and management of these cases?
    Mr. Harris. Absolutely.
    Senator Cantwell. I mean in the context of one of the 
concerns is that so much has been outsourced to an outside 
legal firm that they're calling the shots and making the 
decisions. Obviously if they can continue a case for now that's 
been more than a decade and continue to just make great fees 
off of the Department of Energy then why not continue that?
    Mr. Harris. I, having been in private practice as long as I 
have, I think I'm in a good position to review the practices of 
outside counsel.
    Senator Cantwell. Thank you. Thank you very much.
    Mr. Harris. Thank you.
    Senator Cantwell. Appreciate that. Ms. Triay, actually a 
question for you that, definitely far easier than tank waste 
and ground water contamination. The B reactor has finally been 
designated as a national historical monument. To, I don't know 
if it's to our surprise, I visited the B reactor and it's an 
incredible part of the history of our country.
    But we know that, you know, trying to make that more 
accessible to the public and do you have some suggestions on 
how to do that? I think the first set of tours that were 
supposed to now last for the next year sold out in less than 72 
hours. It's like the hottest--I mean Ticketmaster sales don't 
go as quickly as B reactor. So what else can we do given that 
it's on the Hanford reservation and that it's part of the 
complex?
    Ms. Triay. Thank you for that question, Senator. I really 
appreciate that question because we are very proud of the fact 
that part of our history is being so well embraced by the 
public. We are going to be spending $1.5 million, I believe, 
this year and about the same amount next year for safety and 
seismic upgrades to ensure that we can continue these tours and 
have the reactor well preserved.
    In addition to that we are going to be working very closely 
with the Richland Field Office to see what can we do to 
increase the ability of these tours that are so popular. That 
frankly we are so proud because they are such an integral part 
of our history.
    Senator Cantwell. I have one question too, for Ms. Johnson 
about the transfer of Hanford Reservation property too. 
Obviously people are interested in reducing the size of the 
Hanford footprint. So do you see any legal barriers to transfer 
or lease of land at Hanford to third parties to establish 
something like a clean energy park or develop large scale 
energy related facilities?
    Ms. Johnson. Senator, I'm not familiar in details with the 
matter of the legal aspects of it. But if confirmed I'd be 
happy to consult with my colleague at the far end of the table 
to understand the issue in more detail.
    Senator Cantwell. Or Ms. Triay? I know that the agency has 
some.
    Ms. Triay. We have done land transfers in other parts, like 
Oak Ridge, like in Savannah River. So we would be working 
again, with Mr. Harris if we're confirmed and his staff. I 
assure you that we will find a path forward so that we can 
fully utilize, you know, the benefits of this footprint 
reduction, you know, that the Recovery Act will gain us.
    Senator Cantwell. Thank you. I thank the Chairman. I don't 
think there could possibly be a more important group of 
nominees for the State of Washington, literally for the country 
given that Hanford is the largest nuclear cleanup site. I would 
say probably in the world.
    It just happens to be in Washington State. But our 
obligations there are immense. So I thank the chairman. I thank 
the nominees for their willingness to delve into these issues.
    The Chairman. Again, thank you all for being here. We will 
allow members until 5:00 p.m. tomorrow to submit any additional 
questions for the record.
    If any are submitted I hope you can respond quickly on 
those. If you can then we can try to take action here in the 
committee on your nominations next week. Thank you all very 
much. That will conclude our hearing.
    [Whereupon, at 3:20 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Scott Blake Harris to Questions From Senator Murkowski
                            loan guarantees
    Question 1a. The Loan Guarantee Program established by Title XVII 
of the Energy Policy Act of 2005 has an important role in fostering 
clean energy technology for the country, including nuclear and 
renewable energy resources. Although the issue of loan guarantees by 
the Department has been authorized for four years, we have only just 
recently seen the first loan guarantee issued. Many questions still 
remain on the part of applicants regarding the program rules and 
interpretations of the 2005 law by the Office of the General Counsel.
    Do you share the enthusiasm for this program that has been 
expressed by the Secretary of Energy?
    Answer. Yes. Moreover, if I am confirmed, my office will fully 
support the objectives of the Department and the priorities of the 
Secretary including the Title XVII Loan Guarantee program that fosters 
clean energy technology while protecting the American taxpayer.
    Question 1b. How will you work with industry to ensure that the 
program rules promote the greatest leveraging of the authorities 
granted by Congress to promote clean sustainable energy for the 21st 
century?
    Answer. If I am confirmed as General Counsel, I will examine the 
rules and regulations governing the Title XVII Loan Guarantee Program 
and ensure that the program rules promote the greatest leveraging of 
the authorities granted by Congress to promote clean sustainable energy 
for the 21st century.
                             cyber security
    Question 2. Does DOE require additional emergency authority to deal 
with imminent cyber security threats that could impair the nation's 
electrical grid? If so, how would the Department propose to work with 
the Federal Energy Regulatory Commission to deal with these cyber 
security threats?
    Answer. I understand that the Department has been working with the 
private sector for several years to enhance cyber security in the 
energy sector through the implementation of the Roadmap to Secure 
Control Systems in the Energy Sector. If confirmed, I will certainly 
work closely with the FERC and others to address cyber security 
threats, and to evaluate whether additional authorities are needed.
                                  res
    Question 3. How does DOE propose to implement a new federal 
Renewable Electricity Standard? Currently 29 states plus the District 
of Columbia have some form of an RES in place. Each program contains at 
least one resource not permitted under draft Federal RES legislation 
proposals now under consideration. How would DOE reconcile existing 
state programs with a new federal program?
    Answer. While I am not yet familiar with the details of the RES, I 
am keenly aware of the importance of an appropriate balance between 
state and federal authority. I understand that the proposed legislation 
would require the Department to promulgate rules for implementation, 
and as General Counsel, I would work to ensure that the rulemaking 
process allows for the consideration of the views and interests of 
states and other stakeholders, and proceeds promptly to an appropriate 
conclusion.
                                  eers
    Question 4. Is the Department capable of implementing and 
administering a federal EERS? Would your answer change if Congress also 
passed a stand-alone RES? What if both of those standards and climate 
change legislation all pass--is the Department ready to meet its 
responsibilities under all three of those measures?
    Answer. My view is that the Department is, and must be, capable of 
implementing any authority that Congress chooses to give it. If 
confirmed, I will work diligently to ensure that the Department meets 
all of its legal obligations.
                 renewable energy zones/administration
    Question 5. Can you comment on Secretary Salazar's recent 
``Secretarial Order'' calling for DOI to not only establish renewable 
energy zones on public lands, but also to handle the permitting and 
environmental review? Should a non-land management agency like DOE or 
FERC be given the coordinator role instead? Should Congress expedite 
environmental or judicial reviews?
    Answer. I believe that siting of power lines is an issue of 
national importance; exploitation of our country's plentiful renewable 
energy resources is certainly an important driver in this area. 
However, I am not familiar with the details of Secretary Salazar's 
proposal. If confirmed, I look forward to working with Secretary Chu, 
the Administration, and Congress to help determine a path forward that 
facilitates renewable energy production on public lands while allowing 
for full consideration of other interests.
                               smart grid
    Question 6. Title 13 of EISA 2007 and the American Recovery and 
Reinvestment 2008 provided authorization and funding, respectfully, for 
modernization of the electricity grid (Smart Grid). ARRA specifically 
provided funding to DOE to support the demonstration, research, and 
matching funds along with funds for the interoperability standards 
framework. Are there any statutory barriers that prevent DOE from 
accelerating the standards development activity needed to provide the 
underpinning for deployment of smart grid technologies and products? If 
so, what are they and what obstacles do they present? Can this 
Committee count on you in your capacity as general counsel to assist 
DOE in accelerating smart grid deployment?
    Answer. Given my background in telecommunications, it is perhaps 
not surprising that I believe smart grid deployment is extremely 
important. I am not aware of statutory barriers that prevent DOE from 
accelerating the standards development activity; however, I understand 
that progress--and the speed of that progress--does depend on 
cooperation from industry stakeholders through a consensus process. I 
understand that Secretary Chu has pushed to speed up the process, and 
if confirmed, I will assist him in any way that I am able.
                            interoperability
    Question 7. Title 13 of EISA 2007 lays out the need for 
``interoperability'' as an objective of the smart grid. This entails 
businesses working with electric power to exchange some fairly detailed 
operating information about their technologies and products. Given this 
fact, what role does DOE foresee in managing the demonstration and 
research work to ensure a pro-competitive environment involving 
competing technologies and systems? What role can Standards Developing 
Organizations play with respect to developing standards through the DOE 
activity?
    Answer. I am not familiar with the details of the interoperability 
issue, but I believe that my experience in telecommunications law will 
help me to get up to speed quickly. If confirmed, I will do so and to 
then work with Secretary Chu and the Department to push 
interoperability standards forward.
                        timeframe for standards
    Question 8. The DOE administers the Appliance Standards and Codes 
program authorized under EPCA, as amended. As you are aware, there have 
been significant delays by DOE in meeting statutory deadlines for 
issuing new or amended standards, if warranted. Some of these delays 
have been attributed to resource constraints within the legal review 
process in DOE according to the GAO. Can this Committee expect to see 
improved operational efficiencies in the processing and handling of DOE 
decision-making on appliance standards and code matters? Will you 
report back to the Committee on what steps you take within the General 
Counsel office to address the legal review processes?
    Answer. If confirmed I will do everything possible to ensure the 
legal review process operates efficiently and will be happy to report 
back to the Committee. Though I have not been briefed on all the 
details of this issue, I am aware that the Department of Energy (DOE) 
is required by a consent decree to issue appliance efficiency standards 
by a date certain for 22 consumer and commercial products. Furthermore, 
I understand that there are additional deadlines in statute, and that 
President Obama has identified appliance efficiency standards as an 
important focus of the Department. If confirmed, I will be fully 
committed to meeting these deadlines and working to improve this vital 
program.
   Responses of Scott Blake Harris to Questions From Senator Cantwell
    Question 1. In December, the Department of Energy's Office of 
Environmental Management released a white paper on its strategic 
planning efforts to identify ways to reduce the cleanup footprint and 
return its land to productive use while addressing our nation's energy 
crisis.
    One such use specifically studied was converting land within the 
nuclear cleanup footprint to clean energy parks. There has been a very 
favorable response to DOE's proposals to reduce the footprints of the 
major cleanup sites.
    The idea of combining the reduced footprints with making land 
available for Industrial Use for possible Energy Parks seems to have 
ignited a bonfire of creative ideas and proposals in these communities. 
Under DOE's proposal, designated tracts of land would be transferred to 
a third party for rapid development of large scale clean energy-related 
facilities.
    DOE's plan to facilitate this development includes:

          (1) initial evaluation of land that will be available
          (2) optimizing the value of the land in relation to 
        opportunity
          (3) enabling development by a third party; and
          (4) participation in achieving program goals.

    Do you see any legal barriers to rapidly transfer or lease 
contaminated land at Hanford to third parties to establish a Clean 
Energy Park and deploy large scale clean energy-related facilities?
    Answer. I am informed that DOE had broad property disposal 
authority pursuant to the Atomic Energy Act for some land that DOE 
owns, and that this authority could potentially be used in such cases. 
If confirmed, I will promptly and fully investigate how this authority 
can be utilized.
    Question 2. The Hanford and Rocky Flats lawsuits represent major 
unfinished elements of Cold War radiation legacy of the U.S. nuclear 
weapons program. These lawsuits were files in 1990 after previously 
secret information revealed that significant amounts of radioactive 
materials were released into the environment and had contaminated 
thousands of people and their property.
    In both cases liability has been established and has been affirmed 
by the United States Supreme Court. Regarding Hanford, after nearly 20 
years, with jury verdicts finding for two plaintiffs in bellwether 
trials and lengthy appeals, this litigation remains trapped in 
seemingly endless delays fueled at government expense. And DOE is 
allowing this to continue to proceed with no resolution in sight. 
Meanwhile thousands of people who lived on or worked at DOE nuclear 
facilities are being compensated under federal statutes, a compensation 
program that is unavailable to downwinders who were of very tender ages 
when exposed to these cancer and diseasing causing radioactive 
releases. The Energy Department seems to have spared no expense to 
fight these cases and had paid more than $125 million in contractor 
legal costs. On March 26, 2009, a Federal judge presiding over the 
Hanford litigation concluded that ``the financial cost of the 
litigation is very high. The Court concludes that continuing to resolve 
claims in this manner is not economical and is unacceptable.'' In 
addition, in the Rocky Flats litigation a jury has arrived at verdict 
against the federal government and its contractors and there is a $926 
million judgment pending.
    In light of DOE's determination to indemnify legal liability of its 
contractors in the Hanford and Rocky Flats litigation, will you commit 
to taking steps to explore resolution of these claims as required by 
the Price Anderson Act?
    Answer. Yes. If confirmed I will certainly explore the possibility 
of resolving these cases in a manner that promotes the public interest.
    Question 3. Given that DOE has paid at least $57.8 million in 
contractor legal fees for the Hanford litigation and $72 million for 
the Rocky Flats lawsuit it appears that the Office of General Counsel 
should be performing routine oversight of the status and validation of 
expenses for these cases and should be consulted by contractor 
attorneys, especially when settlement issues arise.
    Do you intend to provide oversight over the management of these and 
other cases?
    Can you send the Committee a written summary of its findings and 
intentions regarding the Hanford and Rocky Flats cases within ninety 
days of your confirmation?
    What will you do to establish control over DOE's ``spare no 
expense'' policy for contractor legal costs?
    Answer. If confirmed, I will oversee the management of all cases in 
which the Department has an interest. I am not sufficiently informed 
about the contractor legal costs issue you raise but I will certainly 
commit to investigating it. With respect to the particular cases 
mentioned, Hanford and Rocky Flats, if confirmed, I will provide the 
Committee with a written summary of my assessment and intentions within 
90 days.
                                 ______
                                 
  Responses of Kristina M. Johnson to Questions From Senator Murkowski
                             yucca mountain
    Question 1. In comments before this committee and elsewhere, the 
Secretary of Energy has stated that the Yucca Mountain waste repository 
is no longer an option for the permanent disposal of high level 
civilian and defense related nuclear waste.
    Given that the Nuclear Regulatory Commission has barely had a 
chance to begin its review of the Yucca Mountain license application 
how would you reconcile this decision to the administrations stated 
commitment to science based policy making?
    Answer. I do not consider myself an expert on the science related 
to Yucca Mountain. I do understand that President Obama and Secretary 
Chu believe that we need a better solution, and if confirmed, I look 
forward to working with Secretary Chu and this Committee on this 
matter.
                           spent nuclear fuel
    Question 2. A primary component of the Secretary of Energy's 
approach to the spent nuclear fuel policy debate is to establish a blue 
ribbon commission to examine the issue.
    a. How do you think the product of such a committee's deliberations 
will improve upon the many studies and reports on geologic disposal and 
nuclear waste management that have been conducted over the last half 
century?
    b. How do you believe that such a committee should be structured to 
insulate it from political influence, and what should the scope of the 
committee's deliberations be?
    Answer. Secretary Chu has stated that he intends to convene a Blue 
Ribbon Commission, composed of experts, to evaluate alternative 
approaches for meeting the Federal responsibility to manage and 
ultimately dispose of spent nuclear fuel and high-level radioactive 
waste. If confirmed, I will work with the Secretary to help structure 
the panel to provide recommendations that are based on science and 
insulated from political influence.
                      renewable energy priorities
    Question 3. Alaska has tremendous potential in tidal and wave 
energy, geothermal, biomass, wind, and other renewable resources. My 
question is how do you envision spreading your scarce resources among 
current and future prospective renewable energy technologies? Will you 
support funding for more than basic research, for not only 
demonstration, but also deployment grants until renewables become truly 
mature technologies? How do we avoid picking winners and losers, but at 
the same time funnel enough federal aid to get technologies 
economically off the ground?
    Answer. As I stated during the hearing, I believe that we need to 
do better across the entire pipeline--from basic research, to applied 
research to deployment. Improving technology development and deployment 
has been a key focus of my career, and I look forward to continuing 
work in this area at the Department if I am confirmed. One of the early 
tasks that I would like to undertake if confirmed is development of an 
energy technology roadmap that can help guide the investments of the 
scarce resources to accelerate applied R&D on the most promising 
approaches early on, while supporting truly basic research that will 
lead to the next breakthroughs in the way we use energy, thus 
transforming for the better our society.
                              fossil fuels
    Question 4. In all the talk about renewables, and perhaps because 
of last year's price spike for crude oil--prices that are a receding 
memory--aid to the fossil industry to get more conventional 
hydrocarbons out of the ground seems to have gone out of style. But 
given that in the best case scenario we are still going to be dependent 
on fossil fuels for decades, should we not continue research into how 
to better extract heavy oil, like the billions of barrels under Prudhoe 
Bay in northern Alaska? Should we not provide greater funding for 
research into production of methane hydrates--Alaska is forecast to 
contain 32,000 trillion cubic feet of hydrates--enough to power the 
nation for a millennium? Should we not aid the industry to find better 
environmentally sensitive ways to produce the trillions of barrels of 
oil shale in the West? What is your view about the need for continued 
federal research into improvements in fossil fuel production?
    Answer. I believe that oil and natural gas will continue to play a 
large role in energy supply for decades. While oil and gas companies 
have ample resources and a strong incentive to invest in research and 
development, I believe that there are areas where government investment 
is appropriate, including long-term, high-risk research and development 
on methane hydrates.
                           cash for clunkers
    Question 5. A proposal known as ``Cash for Clunkers'' is receiving 
much greater attention after the President endorsed it. ``Cash for 
Clunkers'' would provide owners of older cars with vouchers to purchase 
better performing vehicles, in exchange for scrapping their 
``clunkers,'' and it would by administered by the Department of Energy. 
In the past, many supporters have urged its passage as part of an 
effort to stave off bankruptcy for struggling automakers. Now that some 
form of bankruptcy appears increasingly likely, however, would you 
still support this proposal? Or do you believe it could simply trade 
billions of taxpayer dollars for little or no environmental benefit?
    Answer. While I am generally familiar with the ``Cash for 
Clunkers'' concept, I am not fully briefed on the Administration's 
plans in this regard. If confirmed, I will look into this matter and 
would be glad to report my findings to you.
                                biofuels
    Question 6. In consultation with the EPA, the Department of Energy 
is conducting research on the impact that higher blends of ethanol-
greater than 10 percent by volume--could have on existing vehicles, 
equipment, and infrastructure. There is significant concern that the 
EPA Administrator will approve Growth Energy's waiver petition before 
this testing is complete, and raise the blend cap to 12%, 13%, or even 
15%. If consulted as Under Secretary of Energy, will you commit to 
advising against any such increase until sufficient scientific data 
indicates there will be no adverse consequences?
    Answer. If confirmed, I will look into this matter and will provide 
advice to Secretary Chu and to the EPA after consideration of the 
relevant scientific information.
                                 nietc
    Question 7. What is your assessment of the National Interest 
Electric Transmission Corridor process established by Congress in the 
2005 Energy Policy Act?
    Answer. I am not yet familiar with the details of the National 
Interest Electric Transmission Corridor process established by Congress 
in the 2005 Energy Policy Act. However, I believe that addressing the 
transmission and distribution system has become a national issue. The 
system is aging and in need of investment and modernization. The key is 
to strike the right balance between local, state and federal 
authorities and interests, something I look forward to working on with 
you if I am confirmed.
                                 siting
    Question 8. Do you support an enhanced federal role for the siting 
of interstate power lines? Do you believe that any enhanced federal 
role should be limited to proposals that give preferential siting and 
permitting for ``green'' power lines? Is such a concept even consistent 
with the physical reality of how power flows through the grid?
    Answer. As noted above, I believe that siting of power lines is an 
issue of national importance; exploitation of our country's plentiful 
renewable energy resources is certainly an important driver in this 
area. The key is to strike the right balance between local, state and 
federal authorities and interests, something I look forward to working 
on with you if I am confirmed.
                                 hydro
    Question 9. Do you agree that hydroelectric pumped storage is an 
excellent means of providing zero emissions backup to intermittent wind 
and solar plants? Would you support allowing pumped storage to qualify 
for credits under a federal Renewable Electricity Standard?
    Answer. Pumped storage offers excellent capability to assist 
electric utilities with integrating wind and solar energy. For example, 
a Colorado utility has modified operation of an existing hydroelectric 
pumped storage facility in its system to enhance the utility's 
capability to integrate its rapidly growing levels of wind energy. 
While many operational and infrastructure changes are available to 
assist with wind and solar energy integration, hydroelectric pumped 
storage provides integration capability at a scale that warrants strong 
consideration for federal subsidy to increase its viability. I do not 
have a view at this point in time about whether inclusion in an RES is 
appropriate, but if confirmed, I will look into it and work closely 
with you and other members of the committee on it.
                                  msw
    Question 10. A number of Senators have called for the inclusion of 
Municipal Solid Waste as an eligible resource for purposes of meeting 
any federal Renewable Electricity Standard. What is your position? Are 
there additional resources Congress should consider?
    Answer. I have not had an opportunity to review the RES proposal in 
detail, but pledge to do so if confirmed.
                             cyber security
    Question 11. Does DOE require additional emergency authority to 
deal with imminent cyber security threats that could impair the 
nation's electrical grid? If so, how would the Department propose to 
work with the Federal Energy Regulatory Commission to deal with these 
cyber security threats?
    Answer. I understand that the Department has been working with the 
private sector for several years to enhance cyber security in the 
energy sector through the implementation of the Roadmap to Secure 
Control Systems in the Energy Sector. I do not have a view at this 
point about whether additional legislative authority is needed, but if 
confirmed, I will examine the issue closely.
                                nuclear
    Question 12. Do you agree that nuclear power must be part of our 
supply mix going forward?
    Answer. I do.
                                  coal
    Question 13. Do you agree that there is ``no such thing as clean 
coal''?
    Answer. I believe that we can and we must develop technology to 
enable us to continue to use coal while sharply reducing our greenhouse 
gas emissions. Developing carbon capture and storage technology will be 
a key priority for me if I am confirmed.
                                  wapa
    Question 14. The Stimulus bill provided brand new borrowing 
authority for the Western Area Power Administration (WAPA) in the 
amount of $3.25 billion, to plan and construct transmission lines for 
renewable energy projects. How is DOE moving forward with this new 
authority? What will such federal authority mean for private 
transmission efforts and existing regional grid planning?
    Answer. It is my understanding that WAPA published a proposal 
regarding the use of the ARRA authority in a March 4, 2009 Federal 
Register notice. That proposal provides for collaboration with public 
and private entities across the region, and coordination with existing 
planning efforts. If confirmed, I would be glad to look into this 
matter and provide you with additional information.
  Responses of Kristina M. Johnson to Questions From Senator Cantwell
    Question 1a. What is your position on the importance of ensuring 
the recruitment and retention of a highly skilled and knowledgeable 
workforce to carry out essential clean-up tasks at sites like Hanford?
    Answer. I think it is essential that we have a highly skilled and 
knowledgeable workforce at the Hanford Site in carrying out our cleanup 
program. If confirmed, I will look first to retaining these skilled 
workers and then recruit workers who have the required skills and 
knowledge to successfully perform work.
    Question 1b. Do you view these highly skilled workers as assets 
that DOE has already spent million of dollars in taxpayer funds to 
train?
    Answer. I do.
    Question 1c. Will you commit to providing sufficient funding to 
maintain the current workforce at Hanford and other sites while 
attracting candidates of equally high caliber when current workers 
choose to retire?
    Answer. It is my understanding that the funding for the ongoing 
base program as well as the accelerated cleanup funding provided under 
the American Recovery and Reinvestment Act will be sufficient to 
maintain the current Hanford Site workforce as well as provide new 
employment opportunities for skilled and qualified workers.
    Question 1d. Will you commit to ensure that contractors have prior 
experience in cleaning up legacy atomic sites and that they give 
priority to employing members of the current workforce with invaluable 
knowledge of the site itself?
    Answer. If confirmed, one of the principles that I will apply is 
that we will not perform EM cleanup work at the Hanford Site unless we 
are assured it can be conducted safely. Workers who perform EM cleanup 
work must be trained and qualified to perform their assigned tasks. In 
my view, prior experience as a former cleanup worker or as a current 
qualified worker is extremely beneficial and should be considered in 
employment decisions.
    Question 1e. Will you commit to make certain that current and 
future workers who perform equal work at these sites receive 
compensation in the form of equal wages and benefit?
    Answer. If confirmed, I commit to assuring equal wages and benefits 
to workers at the Hanford Site in accordance with the requirements of 
existing labor union agreements.
    Question 2. In January 2004, Energy Secretary Samuel Bodman 
introduced a plan to establish a two-tiered pension and medical 
benefits system whereby a successor contractor at Hanford or elsewhere 
would only be required to contribute to the workforce's current defined 
benefit pension plan for the first five years of the contract.
    After five years, all employees would be subject to a new 401(k) 
style plan. Due to my opposition and that of my other colleagues, 
Republicans and Democrats, in April 2006 Secretary Bodman modified the 
plan to allow incumbent workers to maintain a defined benefit pension 
plan (Ref. DOE Notice 351.1).
    The following month, the Senate and the House blocked funding to 
implement DOE Notice 351.1. As a result, in June 2006 Secretary Bodman 
suspended 351.1 to allow him to consult with Congress and other 
stakeholders.
    Despite this suspension, DOE continued with efforts to establish a 
two-tiered pension system through Request for Proposals and the recent 
awarding of three contracts at Hanford, including the Tank Operations 
Contract, Mission Support Contract and the Plateau Remediation 
Contract.
    Given that a bipartisan group of Senators, Members of the House, a 
number of Governors, labor unions and other stakeholders oppose such a 
two-tiered pension and medical system, what steps will you lake to 
remove any such existing contract requirements at DOE sites?
    Answer. If confirmed, I will review the existing contract 
requirements to ensure that they balance DOE's needs to mitigate cost 
growth and volatility of pension funds, and are fair to incumbent and 
future contractor employees.
    Question 3. Our new national energy priorities, such as increased 
renewable electricity generation accelerated adoption of hybrid 
electric vehicles, and ambitious goals for improving end-use 
efficiency, can only be addressed if we also transform our US 
electrical infrastructure. Accomplishing this transformation very 
quickly is key, and likely a focus of additional debate in the 111th 
Congress, beginning with the economic stimulus package. This 
transformation will benefit from the unique resources in the Pacific 
Northwest, including leadership at the Pacific Northwest National 
Laboratory (PNNL), BPA and utilities throughout the region.
    Transforming the grid requires incorporation of modern monitoring, 
communication, and computing technologies in our electrical 
transmission and distribution systems while continuing to deliver 
highly reliable and affordable electricity. This modernization will 
deliver new levels of efficiency, flexibility, security, and 
resiliency, serving the energy interests of the U.S. for decades. This 
transformation will also spark new economic activity analogous to 
markets created by the Internet and the nationwide efficiencies of the 
Interstate Highway System, resulting in major economic growth and both 
near-term and sustained job creation.
    PNNL has identified three key Federal actions that will provide a 
framework for massive private sector investments in new infrastructure 
and innovation to create new energy markets. Each of these actions can 
be completed or deliver material progress within the next four years. 
These actions include:

  <bullet> establishing the authority and resources for effective 
        national grid planning by 2010,
  <bullet> establishing a real-time, nationwide grid monitoring system 
        and
  <bullet> demonstrating the national benefits of grid intelligence 
        across transmission to distribution to customers by 2012.

    Our national energy priorities, such as increased renewable 
electricity generation, accelerated adoption of hybrid electric 
vehicles, and ambitious goals for improving end-use efficiency, can 
only be addressed if we also transform our electricity grid to make it 
more intelligent and flexible. Accomplishing this transformation very 
quickly is an important focus of my activities on this Committee, and 
its an issue where the Pacific Northwest is poised to help lead the 
nation, leveraging our institutions such as the Pacific Northwest 
National Lab, Bonneville Power Administration and other regional 
stakeholders.
    What is your plan to move the Department forward in this regard?
    More specifically, do you support the vision of and are you 
prepared to make critical R&D investments to realize the vision of a 
more transparent, flexible and intelligent grid?
    Answer. Through the American Recovery and Reinvestment Act, the 
Department is already taking steps to move in that direction. The 
Department allocated funds in the Recovery Act specifically targeted at 
building this national capability and demonstrating the national 
benefits of grid intelligence across the transmission and distribution 
system. DOE is also leveraging the funding to accelerate the 
facilitation of regional transmission analysis and planning by states 
and industry, which is needed to integrate diverse clean energy 
resources into the grid. As you point out, PNNL and BPA have important 
resources that can be brought to bear on this problem. If confirmed, I 
will continue to build on these efforts. I support this vision of a 
more intelligent, secure grid, and will support research efforts needed 
to achieve it.
    Question 4. It seems clear that working together, China and the US 
can do more to drive our world toward sustainable development than any 
other pair of nations in the world. Washington State has a special 
trade relationship with China (especially maritime) and, through very 
strong science and technology collaborative research relationships 
between the University of Washington and PNNL, the major Chinese 
universities and the Chinese Academy of Science (CAS). We have a unique 
and urgent opportunity to expand these activities by launching 
immediate, aggressive multi-track technology, policy and industrial 
initiatives across the buildings, transportation, utility and 
industrial sectors of our two economies. These efforts would be 
designed to help stabilize the global economy, create jobs and trade 
opportunities and sustainably transform the energy economies of both 
countries.
    The Under Secretary will have a key role in shaping DOE's approach 
to advancing partnerships with Chinese Science and Technology 
Institutions to accelerate progress on challenges such as decarbonizing 
our energy systems, advancing renewables and modernizing the electric 
infrastructure. PNNL, working with the Chinese Academy of Sciences, is 
making important progress on a Technology and Policy Roadmap designed 
to jump start this cooperation and progress.
    How do you see DOE's role in shaping and advancing partnerships 
with Chinese science and technology institutions to accelerate progress 
on shared energy challenges?
    Carbon dioxide and GHG emissions reduction in particular is a 
global problem for which a global solution is needed and for which 
there seems to be great opportunity for accelerating solutions with 
leveraged investments across these two nations. Would you support a 
significant partnership in this area?
    Answer. If confirmed I would indeed support partnership with China 
in this area. In fact, a former professor from my former institution, 
Johns Hopkins University, is dean of the newly formed engineering 
school at Beijing University. I have visited both Tsinghua and Beijing 
universities twice in the past year, and also the Chinese Academy of 
Science. These personal experiences and connections would help to 
inform my work at the Department. In that regard, I understand that the 
Department already plays an active role in working with China across a 
broad horizon of energy issues. I envision DOE continuing to play a 
critical role in advancing scientific cooperation between our two 
nations to address the many challenges we face in common. One of the 
most pressing common challenges is climate change, and the mitigation 
of carbon dioxide and greenhouse gas emissions. I look forward to 
greater cooperation with China in this critically important area.
    Question 5. What the Department of Energy's current efforts in 
supporting the development of biofuels for commercial and general 
aviation? In the event that there is created a Federal Aviation 
Administration Center of Excellence for the Development and Use of 
Biofuels for Commercial and General Aviation, would the Department of 
Energy be willing to partner with the selected Center of Excellence and 
support program elements that are outside the mission of the FAA but 
within the Department's mission?
    Answer. Development of biofuels for aviation is a key technology, 
and if confirmed, I will work within the Department and with external 
partners, such as the FAA Center you mention, to accelerate research 
and development in this area.
    Question 6. Dr. Johnson, as you may know, the previous 
Administration did not support R&D in ocean and tidal energy so 
Congress added funding each year to support this research. What will be 
your strategy for this program in Fiscal Year 2010 and beyond? The 
Department's only marine sciences laboratory is located in Sequim, 
Washington and I believe it can be a real asset to the Department in 
addressing marine energy R&D opportunities. Before our nation can fully 
realize the potential of water power as a carbon-free energy source, we 
must accurately assess our regional and national resources, and 
evaluate new technologies in marine environments to determine potential 
environmental impacts. Can I have your assurance that you will engage 
the Marine Sciences Laboratory as you move this program forward?
    Answer. I believe that we need to explore and utilize all of our 
renewable resources. Pacific Northwest National Laboratory's (PNNL's) 
Marine Sciences Laboratory (MSL) has valuable capabilities in physical 
oceanography and marine biology as they relate to the development of 
ocean energy. DOE currently employs the MSL, where researchers work 
collaboratively with DOE-supported ocean energy projects, including 
Snohomish Planned Unit Development of a tidal energy site in the 
Admiralty Inlet section of the Puget Sound and the Northwest National 
Marine Renewable Energy Center, a joint Oregon State University-
University of Washington program addressing wave and tidal energy R&D 
and testing. If confirmed I will build on this work and engage the MSL 
going forward.
  Responses of Kristina M. Johnson to Questions From Senator Barrasso
    Question 1. As we strive to make the United States more energy 
independent, do you think we need all U.S. energy resources to meet 
future energy demands?
    Answer. The United States should continue to make use of all its 
resources as part of a comprehensive energy mix that puts us on a path 
toward greater energy independence. It is particularly important to 
accelerate the development and deployment of energy technologies that 
enable the use of domestic energy resources in a manner that enables us 
to reduce greenhouse gas emissions. If confirmed, I will work to 
improve the Department's efforts to develop and deploy such clean 
energy technologies, including carbon capture and storage.
    Question 2. Do you believe the U.S. has the responsibility to take 
the lead in developing clean coal technology?
    Answer. I believe the United States should continue its leadership 
role in developing clean coal technologies. The development of clean 
coal technology represents not just a responsibility, but also a 
significant opportunity. We are one of the most prolific producers of 
coal and also one of the chief consumers of coal. The United States has 
demonstrated a significant track record in developing clean coal 
technologies, and if confirmed, I will endeavor to accelerate this 
work.
    Question 3. How would you move forward with respect to carbon 
sequestration R&D and eventual deployment?
    Answer. I believe that we need to pursue a range of promising CCS 
technologies. It is my understanding that the Department's Carbon 
Sequestration Program is pursuing such an approach, developing a 
portfolio of technologies with potential to reduce greenhouse gas 
emissions and ultimately move those technologies to commercial 
readiness for deployment. In addition to demonstration projects, large-
scale development projects are also underway. If confirmed, I will make 
management of this CCS portfolio one of my highest priorities.
    Question 4. The Rocky Mountain Oilfield Testing Center is a 10,000-
acre facility located within the Naval Petroleum Reserve No. 3 (NPR-3) 
also known as Teapot Dome Oil Field. It provides a venue for service 
companies and equipment manufacturers to test new ideas and products 
leading to increased recovery or reduced operating costs--combining all 
technologies to strengthen integrated energy development. The Center is 
also a tremendous resource for students to learn and research. Its 
partners include academia, inventors, small and large businesses, and 
government entities, including national labs. If confirmed, what would 
you propose for as the long-term plan to extend the operation and 
production of the Rocky Mountain Oilfield Testing Center and ensure its 
continued success as a research and education resource?
    Answer. I am not familiar with all of the details about this 
matter, but I understand that production is currently authorized until 
April 2012. If confirmed I will look into options for the RMOTC and 
would be glad to discuss the long-term plans that you mention.
    Response of Kristina M. Johnson to Question From Senator Bunning
                             cap and trade
    Question 1. Dr. Johnson, it's good to see you again. In our meeting 
we discussed the issue of cap and trade. As you know, I have concerns 
about mandating a system that would not only punish American consumers 
and producers but would restrict domestic economic growth. You 
indicated in our meeting that through implementing a cap and trade 
system America can take a global leadership position on climate change. 
You argued that developing nations will ``follow, not lead'' on the 
issue of climate change and that mandatory agreements with these 
nations would not be necessary as they will voluntarily adopt emissions 
standards in the future. Is this correct? Follow up: Cap and trade 
advocates have argued that without mandates, the marketplace will not 
make the adjustments to advocate a ``follow, not lead'' voluntary 
approach with developing nations while dismissing the same approach in 
America?
    Answer. I believe that the United States should provide leadership 
by moving forward with a program to reduce greenhouse gas emissions. At 
the same time, I recognize that climate change is a global problem that 
will require a global solution. I also realize the importance of 
American competitiveness; this applies not only to energy and trade 
intensive industries, but also to positioning the United States as a 
leader in development of clean energy technologies. The challenge is to 
develop a policy that addresses all of these issues, something I pledge 
to help do if confirmed.
                                 ______
                                 
 Responses of Steven Elliot Koonin to Questions From Senator Murkowski
                             national labs
    Question 1. During the Cold War the national laboratories were an 
important part of a national innovation engine that was the envy of the 
world. This engine included basic research at universities, applied 
research at the national laboratories, and commercialization by private 
industry. Many would say that the energy and climate change challenges 
our nation faces are at least as compelling as the challenges of the 
Cold War.
    As Under Secretary for Science, what steps would you take to 
promote this type of collaboration between the universities, the 
laboratories, and industry in meeting the challenges our nation faces 
in the 21st Century?
    Answer. I think that the kind of collaboration that you describe is 
critical to meeting our energy challenges in the 21st century. I have 
had initial discussions with Secretary Chu about better integration of 
research efforts across institutions, and I know that he also believes 
this is an important priority. I understand that the DOE Office of 
Science has taken several steps in this direction in recent years. One 
example is the scientific workshops. Over 25 workshops led by the 
Office of Science over the past 8 years have brought together 
scientific and technical experts from academia, the national 
laboratories, the private sector, and government, including program 
managers from the DOE applied technology programs, to identify the 
scientific and technical challenges our nation must overcome to develop 
new and advanced energy technologies and to address environmental 
concerns. These workshops bring the communities together from the very 
beginning to identify scientific priorities, and in the process 
encourage the building of partnerships.
    If confirmed, I will build on this and other ongoing work to 
promote ideas that will result in more beneficial collaborations.
    Question 2. The Office of Science is responsible for 10 national 
laboratories and the largest share of the Department's national 
laboratory budget after the NNSA. This Committee recently approved 
legislation that would double the funding authorization for the Office 
of Science over the next 6 to 7 years. Even this funding may not be 
sufficient to address the diverse mission of the Office of Science.
    How do you plan to coordinate the missions of the Office of Science 
laboratories so that they can collaborate rather than compete for 
scarce funding?
    Answer. While competition is important to spur new ideas and new 
discoveries, and continue to push the frontiers of science and 
technology, it is also important that we encourage collaboration 
between the laboratories, particularly when resources are scarce. I 
understand that the Office of Science (SC) has in place several 
mechanisms to encourage collaboration. For example, through the annual 
laboratory planning process, SC coordinates discussions on the 
laboratories' core competencies to enable an understanding of where the 
laboratories' priorities for future investments are and better position 
SC to facilitate coordination between the laboratories where it is most 
beneficial. If confirmed, I will build on this and other efforts to 
improve coordination across the SC labs.
                                biofuels
    Question 3a. I noticed some of your former comments where I believe 
you have somewhat the same view as I do, that com-based ethanol is not 
the best answer to our need for biofuels to ethanol and related fuels. 
In Alaska right now, for example, there is a test underway that shows 
that sugar beets are growing much better in cool temperatures than 
anyone predicted, the beets containing 16% to 22% more sucrose than the 
average sugar beet. That sucrose can then be utilized to manufacture 
Dimethyifuran (DMF) that initial tests show requires 40% less refining 
costs than ethanol to become a finished fuel.
    What is your view on whether we should be concentrating more of our 
research dollars and subsidies to perhaps speed cellulosic ethanol 
development, compared to the 15 billion gallons of com-based ethanol 
mandated by the Energy Independence and Security Act of 2007?
    Answer. It is my understanding that nearly all the research dollars 
that the Department of Energy (DOE) is devoting to biofuels are aimed 
at developing cost-effective means of producing cellulosic biofuels on 
a commercial scale--and not just cellulosic ethanol, but cellulosic 
hydrocarbon fuels, including green gasoline, diesel, and perhaps even 
jet fuel. We are beginning to understand how these latter fuels, which 
would be fungible replacements for our current petroleum-based fuels, 
can be produced by both microbial and chemical catalytic means. 
Cellulosic biofuels--biofuels from nonfood plant fiber--really hold the 
key to a new biofuels economy. But we will need transformational 
breakthroughs in basic science to develop cost-effective methods of 
producing them, and that is the focus of DOE research.
    Question 3b. As a former BP official, where in your view should the 
biofuel industry be headed?
    Answer. There is a growing understanding among most energy 
companies that we need to transition to alternative energy. We have 
concerns about the security of our energy supplies, especially 
petroleum. We have major concerns about the climate if we continue 
reliance on fossil fuels. In the area of liquid transportation fuels, I 
think the real future lies in cellulosic biofuels, for the reasons 
discussed above.
    Question 3c. Do you support the addition of promising new 
feedstocks, such as algae, into the Renewable Fuel Standard?
    Answer. I do not have a view at this point about the inclusion of 
additional feedstocks into the RFS. However, I do believe that our 
choice of feedstocks should be determined by the results of our 
research, and that we should be careful not to prematurely close off 
any promising technological pathways.
                   ocean-geothermal renewable energy
    Question 4. In the past, you have also talked about the need to 
improve our focus on new energy technologies given our nation's finite 
resources. I am almost scared to ask this question coming from a state 
with 34,000 miles of coast line and thousands of miles of rivers that 
make ocean hydrokinetic power: wave, tidal and current projects, all 
irresistibly attractive, and coming from a state where nearly 50% is 
located above potential geothermal hydrovent hotspots that might make 
geothermal an attractive baseload power source, compared to the 65 
cents per kilowatt that diesel-fired generation is currently costing on 
average in rural Alaska. But the question is, where should we be 
placing our research dollars to gain the most energy in the future at 
the lowest capital and fuel costs? Could you rank the order on which 
prospective technologies we should be spending our dollars for 
promotion of renewable energy in the future?
    Answer. As you point out in your question, the attractiveness of 
energy resources varies greatly by region. Therefore, I think it is 
important for DOE to invest in a range of technologies, including the 
hydrokinetic and geothermal technologies that you have identified.
                                biofuels
    Question 5. In consultation with the EPA, the Department of Energy 
is conducting research on the impact that higher blends of ethanol-
greater than 10 percent by volume--could have on existing vehicles, 
equipment, and infrastructure. There is significant concern that the 
EPA Administrator will approve Growth Energy's waiver petition before 
this testing is complete, and raise the blend cap to 12%, 13%, or even 
15%. If consulted as Under Secretary of Science, will you commit to 
advising against any such increase until sufficient scientific data 
indicates there will be no adverse consequences?
    Answer. Should I be confirmed, I will review the relevant 
scientific data and provide my best judgment on the matter.
                                gas tax
    Question 6. Last July, during a speech you gave at the University 
of California-San Diego, you indicated that you believe the United 
States should establish a floor for the price of gasoline. If 
confirmed, will you urge the Secretary and the President to seek such a 
policy? At what price per gallon would you suggest setting a floor?
    Answer. It is my understanding that President Obama has ruled out a 
gas tax such as I described. If confirmed, I would work to implement 
the President's policies and to advise Secretary Chu and President 
Obama in the development of new policies.
  Responses of Steven Elliot Koonin to Questions From Senator Cantwell
    Question 1a. Now, more than ever, the ability to quickly and 
efficiently leverage U.S. science and technology to solve our nation's 
challenges is critical. Nowhere is that more evident than in the sphere 
of energy innovation, where national lab assets playa unique role in 
defining the of DOE research and development and lab-derived energy 
discoveries, the national laboratories must have the tools to 
effectively and efficiently collaborate with industry to turn these 
discoveries into commercial innovations.
    For many years, the national laboratories have commercialized 
innovative technologies through licensing agreements with industry, and 
by opening specialized lab resources for collaboration through 
mechanisms like the Cooperative Research and Development.
    While these agreements have been used effectively, they have their 
limits. Certain features constrain DOE's ability to collaborate and 
leverage the results of that collaboration to deliver complex 
innovation at the scale and speed required by current national energy 
policy objectives.
    Most importantly, the Department's current organization results in 
a system where commercialization is a secondary priority rather than a 
central consideration when it comes to the effective deployment of 
technology. In addition, outdated contract and intellectual property 
terms can discourage industry engagement, as can varying implementation 
at each laboratory and field office. At the same time, Management and 
Operations (M&O) contractors are limited in their ability to bridge the 
``Valley of Death'' between basic research and technology development 
by making investments and taking risks that could facilitate 
commercialization and speed.
    In Title X of the Energy Policy Act (EPACT) of 2005, Congress 
attempted to empower DOE to address issues related to commercialization 
by directing the Secretary to create a technology transfer coordinator 
within the Department responsible for advising the Secretary ``on all 
matters relating to technology transfer and commercialization.'' 
Congress also created a Technology Transfer Working Group--consisting 
of representatives from each or the DOE national laboratories--to 
coordinate tech transfer activities, exchange information on best 
practices and resolve disputes over intellectual property rights.
    Almost two years after the enactment of EPACT, the Bush 
Administration finally assigned the Under Secretary of Science, Dr. 
Raymond Orbach, the role of tech transfer coordinator, which he assumed 
in addition to overseeing the day-to-day operations of the Office of 
Science and serving as chief policy advisor to the Secretary on 
Department-wide science and technology issues.
    The Bush Administration also created a Technology Transfer Policy 
Board to assist in coordinating and implementing DOE's tech transfer 
policies and activities. In November 2008, the DOE Office of Science 
posted a notice of inquiry in the Federal Register inviting comments on 
a series of questions concerning tech transfer practices at DOE 
laboratories, not moving aggressively in this area, and, as a whole, 
has done little else to improve technology transfer at its national 
laboratories.
    While the Secretary has yet to select a tech transfer coordinator, 
and has not indicated whether he will create a stand-alone tech 
transfer coordinator or assign the responsibility to an existing 
individual, entity, or office, one thing is clear--the Department's 
commercialization policies and mechanisms will dictate how quickly and 
efficiently the nation can leverage our federal investment in science 
and technology to address energy security and climate change, among 
other pressing issues. The previous Administration assigned the Under 
Secretary for Science the role of Technology Transfer Coordinator. Do 
you aim for that to be your responsibility as well?
    Answer. I understand that the Secretary is personally engaged in 
considering how the function should be organized. Regardless of the 
outcome, I can commit to you that if confirmed, one of my top 
priorities will be to better focus DOE research to deliver solutions to 
our energy and climate challenges.
    Question 1b. The National Academy Report, ``Rising Above the 
Gathering Storm'' as well as GAO and other industry reports conclude 
that industry remains frustrated in engaging the national laboratories. 
How do you intend to improve those interactions?
    What will you do to facilitate partnerships among national 
laboratories, universities, and industry, and improve technology 
transfer and commercialization within the Department and at the 
national laboratories?
    Do you recognize that there are impediments to national laboratory 
collaboration with industry, universities, not-for-profit organizations 
and other national laboratories?
    Answer. As a result of my time at BP and my efforts to work with 
Secretary Chu when he was the Lawrence Berkeley Lab Director, I 
understand first-hand the frustrations that industry encounters in 
dealing with the Department and its national laboratories. I know that 
barriers also exist to better collaboration with universities and other 
labs as well. If confirmed, I pledge to work to remove these barriers 
and to improve partnerships between DOE labs and other entities. Doing 
so will help to realize the potential that Department of Energy and its 
laboratories have to be a major driving force for addressing many of 
the technological, environmental, ecological and economic challenges 
our Nation now faces.
    Question 1c. Will you be open to new and innovative mechanisms to 
accomplish these objectives?
    Answer. Absolutely. As Chief Scientist of BP working with Berkeley 
Laboratory I had first hand experience of these barriers, and I am 
committed, and know that the Secretary is absolutely committed, to 
soliciting and implementing new and innovative mechanisms to 
facilitating interaction with industry, not-for-profit organizations, 
and academia.
    Question 2. The Department has many elements that are a part of the 
climate change agenda, such as Fossil Energy, Nuclear Energy, Energy 
Efficiency, Policy, and Office of Science.
    What is your role in the climate change agenda within the 
Department of Energy?
    Who is the principal point of contact for climate change issues 
within the Department, other than the Secretary?
    As Chairman Bingaman indicated in the last Congress, the need for 
accurate modeling is essential if we are to design legislation around 
long-term emissions mitigation targets. It is particularly important 
that these tools provide timely assessments at scales useful for 
decision making--e.g., assessments of climate change impact at the 
regional vs. global scale, and within the next decade.
    Given that DOE is the principal federal funder of this research, 
would you support increased investment for integrated assessment tools 
for research and analysis?
    Answer. As the Under Secretary for Science my primary role with 
respect to climate change will be to oversee and coordinate related 
research and development activities across the Department, and to serve 
as the principal science advisor to the Secretary, which includes 
ensuring that we make sound, science-based decisions with respect to 
the Department's investments in advanced energy technologies that will 
mitigate current and future CO<INF>2</INF> emissions.
    With respect to modeling, I agree that we must have effective tools 
that provide timely assessments of climate change impacts at scales 
useful for decision making. DOE has significant work underway in this 
area, and if confirmed, I will look for opportunities to build on this 
work.
    Response of Steven Elliot Koonin to Question From Senator Corker
    Question 1. After falling behind for a number of years, today the 
U.S. has regained world leadership in high performance computing and 
computational sciences, as recognized by the Gordon Bell Prize for the 
scientists at the Leadership Computing Facility at the Oak Ridge 
National Laboratory, where they built DOE's petaflop machine on time 
and ahead of schedule.
    Dr. Koonin, what is your plan to sustain and expand U.S. leadership 
in computing and computational sciences, especially in energy, climate 
and environment by accelerating the development and deployment of 
leadership computers through Exascale and beyond? As the Office of 
Science funding doubles over the next few years, do you expect the 
budget for computing also to double so that the U.S. can maintain its 
leadership?
    Answer. As you point out, high performance computing and 
computational sciences are an important area of investment. I am not in 
a position to make judgments about future budgets at this time, but if 
confirmed, I will work closely with you on this matter.
                                 ______
                                 
     Responses of Ines R. Triay to Questions From Senator Murkowski
                            defense cleanup
    Question 1. The American Recovery and Reinvestment Act provided 
more than $5 billion dollars for defense environmental cleanup. My 
recollection is that these funds would be used largely to finish 
smaller projects in the hope that the overall footprint of the defense 
cleanup effort could be decreased.
    Is this still the plan for using these funds and can you comment on 
how well the additional funding is being incorporated into the overall 
cleanup effort?
    Answer. Over the past year and a half, the Environmental Management 
(EM) program has conducted strategic planning analysis, which indicates 
that substantial benefit in terms of life-cycle cost savings and 
cleanup completion can be achieved with additional investments in the 
areas of decontamination and decommissioning of facilities, remediation 
of contaminated soils and groundwater, and disposition of solid waste 
(low-level and transuranic) to achieve footprint reduction. These 
results were discussed in the EM progress report mandated in the Fiscal 
Year 2008 National Defense Authorization Act and submitted to Congress 
in January 2009.
    EM is well poised to effectively implement efforts for the $6 
billion in Recovery Act funding because the proposed cleanup is 
associated with projects that have a well-defined scope, cost and 
schedule and are ready to be implemented; technologies that are proven 
and with which EM has a successful record; the regulatory framework is 
established; the contract vehicles are in place which allows quick 
expansion of the environmental cleanup workforce; and the project 
management structure is in place which provides the ability to track 
and measure performance.
    The American Recovery and Reinvestment Act (Recovery Act) funding 
for EM will be applied towards the implementation of the footprint 
reduction initiative. Our strategic planning analysis was based on EM's 
achieving a 90 percent footprint reduction by 2015. The Recovery Act 
funding will allow a 40-50 percent footprint reduction by 2011, and 
will go a long way toward achieving the 2015 goal.
    Question 2. You may not be the best person to ask this question 
since the Energy Employees Occupational Injury Compensation Program Act 
for nuclear workers health assistance was largely taken from DOE and 
given to the Department of Labor for implementation in 2004. But you 
are here, and in my home state there were nuclear tests conducted 
between 1965 and 1971 at the direction of DOE on Amchitka Island. At 
the time people who worked on the tests were paid under contracts, some 
from DOE's predecessor, the Atomic Energy Agency, and others under 
military contracts to private contractors paid by the Department of 
Defense. Under EEOICPA, however, only the DOE-paid workers are 
receiving compensation, while the workers whose contracts were paid by 
DOD--even though they often did nearly the same jobs in digging of the 
underground tunnels on the island and faced the same radiation 
hazards--are getting no special assistance, not even health care under 
the Veterans Administration. I have been seeking to once again reopen 
this act and to include DOD contract employees in the compensation 
scheme. As the person that will be in charge of defense nuclear cleanup 
dollars, what would be your view, when DOE is asked, about such a 
change in the law?
    Answer. The Department of Energy supports the Energy Employees 
Occupational Illness Compensation Program Act (EEOICPA). Since 2004, 
the Department's role in the program has been limited to verifying 
employment records and providing exposure information to the Department 
of Labor (DOL) and the National Institute for Occupational Safety and 
Health (NIOSH); the Department's Office of Health, Safety and Security 
(HSS) has the primary role in providing that information. We want to 
assure you that DOE is committed to the safety and health of our 
workforce and to ensuring continued availability of records that could 
be critical for the EEOICPA. If I am confirmed, I will work with HSS as 
well DOL, NIOSH, and others in the Administration to assure that we 
promote the safety and health of our workforce and fulfill our 
commitments to former workers.
    Question 3. In December, the Department of Energy's Office of 
Environmental Management released a white paper on its strategic 
planning efforts to identify ways to reduce the cleanup footprint and 
return its land to productive use while addressing our nation's energy 
crisis. One such use specifically studied was converting land within 
the nuclear cleanup footprint to clean energy parks. There has been a 
very favorable response to DOE's proposal to reduce the footprints of 
the major cleanup sites.
    The idea of combining the reduced footprints with making land 
available for Industrial Use for possible Energy Parks seems to have 
ignited a bonfire of creative ideas and proposals in these communities. 
Under DOE's proposal, designated tracts of land would be transferred to 
a third party for rapid development of large scale clean energy-related 
facilities. DOE's plan to facilitate this development includes:

          (5) initial evaluation of land that will be available
          (6) optimizing the value of the land in relation to 
        opportunity
          (7) enabling development by a third party; and
          (8) participation in achieving program goals.

    What is your plan to more quickly reduce the Hanford cleanup 
footprint and transfer the land and local economy to clean energy 
development?
    Answer. At Hanford, the Office of Environmental Management (EM) has 
estimated there would be approximately a 50 percent site footprint 
reduction by 2011, leading to a 90 percent reduction by 2015. 
Investment in the 100 Area cleanup, including the River Corridor 
project, will result in the decommissioning and demolition of nuclear, 
radiological and industrial facilities and structures along the 
Columbia River, thereby eliminating any risk of additional 
contamination of this key water resource. Specifically, the Plutonium 
Finishing Plant (a large nuclear processing facility) and over 40 
plutonium-contaminated support facilities will be decommissioned and 
demolished by 2011. Achieving these objectives will go a long way 
toward restoring the River Corridor and protecting the Columbia River.
    Footprint reduction makes large tracts of EM land and 
infrastructure available to support new beneficial site missions, such 
as the establishment of Energy Parks that will sustain local and 
regional economies and increase the supply of green energy to enhance 
environmental quality and reduce emissions associated with global 
climate change.
    Question 4. I understand that the Department of Energy may be 
considering utilizing diesel generators to secure the tremendous amount 
of power needed to run Hanford Waste Treatment Plant once it is up and 
running. However, with the Department's 2015 plan for reducing the 
legacy waste footprint at cleanup sites like Hanford and transition 
these areas to Clean Energy Parks it seems be an ideal opportunity to 
secure the tremendous amount of clean power to run the Hanford Waste 
Treatment Plant once it is up and running.
    What, if any, barriers are there to securing tremendous amount of 
power to run the Hanford Waste Treatment Plant once it is up and 
running from future Clean Energy Parks on cleanup sites?
    Answer. If confirmed, I commit to look across the full spectrum of 
energy sources to supply the future power needs of the Hanford Waste 
Treatment Plant and other facilities cost-effectively. This includes 
negotiating favorable rates from Bonneville Power Administration, on-
site generation and possible green sources like solar. Some of these 
options could be implemented through the Energy Parks concept.
    Under the Energy Parks concept, land would be returned to 
productive use for clean energy development using current authorities. 
The Department has authority under the Atomic Energy Act, for example, 
to transfer and lease some of its property. If confirmed, I pledge to 
work to review and where appropriate transfer or lease cleaned up land 
in response to requests by third parties at Hanford, and after all 
appropriate consultations.
    Question 5. The Environmental Management (clean-up) budget for 
Technology Development and Deployment is $32 million, to support a $5-6 
billion investment of federal resources. A recent National Academy of 
Sciences (NAS) report evaluated the DOE-EM Science and Technology 
Roadmap and made the following findings:

  <bullet> the challenges in the EM scope are technically challenging 
        and long term
  <bullet> the national labs, particularly those visited as part of the 
        NAS study (INL, ORNL, PNNL and SRNL), have unique site 
        technical knowledge and capabilities that should be brought to 
        bear on the EM challenges
  <bullet> the Roadmap is directionally correct but more work needs to 
        be done to define insertion points for the technology and 
        knowledge
  <bullet> the technical complexity and the life-cycle costs of the EM 
        program justify a larger investment in science and technology.

    PNNL is the leading technical authority for Hanford tank waste 
issues including waste processing and is also the technical authority 
for subsurface contamination including the fate and transport of 
contaminants impacting the Columbia River (see attachment l for 
distinguishing capabilities, distinguishing performance and mission 
relevance). As pointed out in the NAS report, PNNL's unique 
capabilities and facilities are critically important to the success of 
the EM cleanup mission, and these core competencies must be retained 
and refreshed. Under Jim Rispoli's leadership, there was a trend 
towards expanded utilization of the laboratories with the site-specific 
technical knowledge at the most complex DOE cleanup sites (Hanford, Oak 
Ridge, Idaho, and Savannah River). With the change of administration it 
is essential that there be a continued investment focus in the core 
competencies at these laboratories to ensure that the technical 
resources are available to reduce technical uncertainties, lead 
transformational approaches to the EM mission challenges, and provide 
the technical basis for protecting human health and the environment.
    Consistent with the needs and recommended scope in the DOE-EM 
Roadmap, the department has increased the Office of Engineering and 
Technology (OET) (EM-20) budget for FY-09 from $22 million to $32 
million. However, recent funding allocations of OET funds reflect a 
trend away from the NAS recommendation to rely on the laboratories with 
site-specific domain knowledge, such as PNNL, to address their cleanup 
challenges.
    A recently issued National Academy study acknowledges that while 
much has been done towards cleanup, DOE's remaining cleanup sites 
present the greatest challenges. The study presents a list of 
significant uncertainties that, if unresolved, can delay the schedule 
and increase the cost of cleanup. The study also notes that DOE's 
national laboratories have unique site knowledge and technical 
expertise that can be usefully brought to bear on reducing those 
uncertainties. What is your position on the role that science and 
technology, and the National Laboratories, can play in reducing the 
risks associated with cleanup?
    Current understanding of the fate and transport of contamination in 
the subsurface will in large part define the options and schedule for 
ultimate site closures.
    Can you articulate EM's plans to further define the issues and 
risks relative to long term contamination in the subsurface and 
protection of the Columbia River?
    Answer. I believe that science and technology is the key to 
reducing risks associated with the Environmental Management (EM) 
program in such high risk areas as radioactive tank waste 
stabilization, treatment, and disposal and groundwater remediation. EM 
will invest in technology development and deployment to address high 
risk areas at Hanford as well as other EM sites.
    The EM Program seeks to become a world-class technical 
organization--fully credible to and trusted by its customers and 
stakeholders--to reduce the technical risks and uncertainties of DOE's 
cleanup programs and projects. The Technology Development and 
Deployment Program invests in mid-and long-term range research and 
development projects focused on high priority cleanup issues. EM plans 
to expand its efforts in working with scientists and engineers from 
DOE's National Laboratories, including Pacific Northwest National 
Laboratory (PNNL) and Savannah River National Laboratory which are co-
located at our two largest clean-up sites, as well as with those in 
private industry and academia to exchange information and develop and 
demonstrate innovative technologies.
    Under my leadership, EM has added several world-class scientists to 
its staff through the Intergovernmental Personnel Act (IPA) from the 
National Laboratories, including experts from PNNL, Oak Ridge National 
Laboratory, Argonne National Laboratory, Idaho National Laboratory; 
additional IPAs from other National Laboratories are in process. The 
two PNNL scientists are experts in tank waste processing and subsurface 
science. In addition, we are planning to work more closely with other 
parts of DOE to leverage and apply their research and expertise.
    Currently, EM is working with stakeholders in the Richland area to 
further define the issues and risks of concern to the community, 
including tribal concerns. The collaborative process will then allow EM 
to develop appropriate scientific approaches to reduce contamination 
and mitigate risks from the long-term contamination of the site. A new 
initiative underway will support applied research in computational 
modeling to improve the predictive capabilities of the subsurface 
models. The initiative will also leverage investments in basic 
computational research in the Office of Science, especially at PNNL.
    The EM Engineering and Technology Roadmap developed in March 2008 
will continue to provide a guide to develop strategies to address the 
technology gaps.
    In an effort to realize this vision, EM will:

  <bullet> Invest in new technologies to reduce project costs, reduce 
        the time to project completion, and provide enhanced health, 
        safety, and technical performance capabilities;
  <bullet> Ensure the technology readiness of EM cleanup technologies;
  <bullet> Utilize state-of-the-art modeling and simulation tools; and
  <bullet> Assure current technologies are meeting or exceeding safety, 
        cost, schedule, and technical objectives.

    Currently, eight innovative approaches are being implemented to 
address hexavalent chromium, strontium-90, and carbon tetrachloride at 
Hanford.
    These are:

  <bullet> Injected micron-sized iron into deteriorating portions of 
        the existing In-Situ Redox Manipulation (ISRM) Barrier to 
        determine if the deteriorating portions of the chromium barrier 
        in the 100-D and 100-K areas of Hanford can be mended.
  <bullet> Investigated in-situ biostimulation amendments for reducing 
        hexavalent chromium to the less mobile and less toxic trivalent 
        chromium at the Hanford Site.
  <bullet> Conducted vadose zone characterization and geochemistry 
        studies to better understand the fate, transport, and reduction 
        of chromium at Hanford.
  <bullet> Refined the location of chromium sources using innovative 
        drilling and sampling technologies at the Hanford 100-D Area to 
        identify areas for directed remediation.
  <bullet> Completed field test of phytoremediation along the 100-N 
        Columbia River riparian zone to extract or isolate strontium-90 
        from the soil and incorporate it into above ground biomass.
  <bullet> Completed the testing of in-situ sequestration of strontium 
        by surface infiltration of an apatite solution in the 100-N 
        area.
  <bullet> Continued 300 Area Uranium Plume Treatability Demonstration 
        project that will evaluate uranium stabilization through 
        polyphosphate injection.
  <bullet> Continued carbon tetrachloride and chloroform attenuation 
        parameter studies for heterogeneous hydrolytic reaction.

    In addition, funds under the American Recovery and Reinvestment Act 
will be used at Richland to accelerate cleanup of facilities, waste 
sites, and groundwater along the Columbia River. This accelerated 
cleanup at the 586-square-mile Hanford Site is expected to shrink the 
remaining cleanup work to 75 square miles or less by 2015. At the 
Office of River Protection, Recovery Act funds will be used to upgrade 
infrastructure and systems to transfer radioactive liquid waste from 
aging underground tanks to a waste treatment facility for 
immobilization and disposal to meet the 2019 startup date. All of these 
efforts will help to mitigate the risks associated with site 
contamination and will result in improved protection of the Columbia 
River.
       Response of Ines R. Triay to Question From Senator Bunning
                            paducah cleanup
    Question 1. Dr. Triay, as you know, Paducah is home to the last 
operating uranium enrichment plant in the United States. This plant, 
along with two others--one in Tennessee and one in Ohio--allowed 
America to make rapid advancement in nuclear energy and weapon 
technology in the last century. These plants pushed the envelope, often 
without realizing the environmental and safety consequences. It has 
been 17 years since the 1992 agreement on decontamination and 
decommissioning of these plants. I have worked to ensure that the 
cleanup of these plants stays on track and that D.O.E meets their 
target deadline for completion. It has recently been brought to my 
attention that D.O.E.--through problems in budgeting outlays--may have 
not have budgeted enough money to meet the 2019 cleanup for Paducah. Is 
this the case? If confirmed can you assure me that D.O.E. will meet 
this completion date at Paducah and will allocate enough funding to do 
so?
    Answer. In a memorandum from April 2009, I advised the Manager of 
the Portsmouth & Paducah Project Office that it is my direction and 
expectation that the Department will meet its commitment to complete 
the environmental cleanup at the Paducah Site by 2019. I am committed 
to ensuring that funding levels and targets will support and be 
consistent with the Paducah Site life-cycle baseline for each fiscal 
year through 2019, which is consistent with the 2003 Agreed Order, and 
subsequently approved Tri-Party Site Management Plan. The Department 
remains committed to the Paducah completion date of 2019 as reflected 
in the site's regulatory compliance agreements and in the current 
certified life-cycle baseline.
       Responses of Ines R. Triay to Questions From Senator Wyden
    Question 1. You spoke about all the positive measures you are now 
taking at the Hanford site. Yet I note that (a) the clean-up of Hanford 
is over budget and behind schedule. (b) safety problems with the high-
level waste vitrification plant and the high-level waste tanks continue 
to occur, (c) every year the DOE Inspector General puts the DOE clean-
up program on its -Management Challenges'' list, and (d) you have been 
at DOE's headquarters in senior positions overseeing this program since 
January, 2004. Please explain why it has taken you so long to start 
cracking down on the contractors, given your involvement in this 
troubled program for the past five years.
    Answer. The cleanup of the Hanford site and the protection of the 
Columbia River and the people of the Pacific Northwest is one of the 
Department's highest priorities. If confirmed, I will work closely with 
your office and Congress to ensure the completion of cleanup projects 
at Hanford on schedule and within budget, with an emphasis on the Waste 
Treatment Plant, a first-of-a-kind construction project to address 
radioactive waste in underground tanks. The safety of our workers is 
and will continue to be EM's top priority. In fact, the Waste Treatment 
Plant was just awarded the Department's Voluntary Protection Program 
(VPP) MERIT status for safety excellence and leadership, and has 
committed to achieving VPP STAR status within the next five years.
    With regard to procurement and project management, aggressive 
efforts are underway in EM to identify and implement improvements in 
personnel capabilities and systems to transform EM into a ``best-in-
class'' project management organization. EM is also developing and 
implementing processes and procedures for quality assurance and for 
identifying and managing project risks.
    If confirmed, under my leadership, EM will identify and minimize 
the programmatic risks associated with start of construction during the 
early stages of the design phase. In addition, if confirmed, I intend 
to look within the Department to the Office of Science, which has had 
an excellent record of completing their construction projects on time 
and within cost. The Secretary has made their lead project management 
expert available to advise us, and we have developed a review process 
modeled after the DOE Office of Science project reviews, tailored for 
the EM projects. These construction project reviews determine if 
project performance is consistent with agreed upon mission and project 
requirements; has reached the appropriate level of maturity; and can be 
completed successfully as planned, budgeted and scheduled.
    While the Government Accountability Office (GAO) continues to 
include DOE contract and project management on its list of government 
programs at high risk, the GAO believes ``that DOE as a whole has met 
three of the five criteria necessary for removal from the high risk 
list.'' The two criteria that remain before DOE can be removed entirely 
from the list are having the capacity (people and resources) to resolve 
the problems, as well as the capacity to monitor and independently 
validate the effectiveness and sustainability of corrective measures. I 
am committed to completing the actions in DOE's Corrective Action Plan, 
which will address these two criteria.
    If I am confirmed, my personal goal will be to see that we are 
removed from the GAO high-risk list during my tenure.
    Question 2. Even though you are now increasing your oversight of 
the contractors, we seem to have gone through several years of missed 
opportunities. How can I be sure that we will not miss other 
opportunities in the future to accelerate the cleanup?
    Answer. Under my leadership, the Office of Environmental Management 
(EM) has taken a number of specific steps recently to ensure improved 
project performance:

  <bullet> Initiated a thorough review of the contract type and fee 
        structure for all construction projects in order to ensure that 
        the contract type and fee structure will result in maximizing 
        improved performance in the EM projects.
  <bullet> Required the parent companies carrying out the major EM 
        projects (including all construction projects) to justify and 
        improve the composition of the contractor management teams in 
        charge of executing the EM projects.
  <bullet> Increased the EM on-board count during the past two years by 
        approximately 300 federal employees (from 1370 to 1680) in the 
        areas of project and contract management, safety, engineering, 
        and quality assurance. The Office of River Protection alone has 
        increased its federal staff from 95 to 145 employees 
        specifically targeted for oversight of the Waste Treatment 
        Plant and the cleanup of highly radioactive waste in the 
        Hanford underground tanks. The EM program is poised to increase 
        its federal staff to approximately 1800 to further strengthen 
        our oversight capability. While EM hires federal personnel, 
        continued use of staff augmentation through the U.S. Army Corps 
        of Engineers will be employed to fill the gaps.
  <bullet> Established an Office of Quality Assurance at Headquarters, 
        and required federal and contractor quality assurance 
        professionals at every field site. This is needed to assure 
        quality is incorporated into EM projects, thus avoiding cost 
        increases and schedule delays. Federal quality assurance 
        resources now account for almost six percent of the total 
        number of EM employees, which is within the industry range of 
        four to seven percent.
  <bullet> Continued training sessions and supplier workshops attended 
        by hundreds of large and small businesses alike, in order to 
        increase the cadre of suppliers qualified to the high standards 
        of nuclear quality assurance.
  <bullet> Implemented the Department of Defense and National 
        Aeronautics and Space Administration Technology Readiness 
        Levels to judge the relative maturity of new technologies prior 
        to approving full-scale development.
  <bullet> Established a cost-estimating group at the EM Consolidated 
        Business Center, in order to improve the quality of the EM 
        program's independent government estimates for construction and 
        cleanup projects.
  <bullet> Initiated the process of implementing a project management 
        software tool to further increase transparency of the health of 
        EM projects not only to EM management but also to the DOE's 
        Office of Engineering and Construction Management.
  <bullet> Increased the frequency of the EM headquarters and field 
        project management reviews from quarterly to monthly to 
        increase management attention and accountability at all levels. 
        These reviews are attended regularly by DOE's Office of 
        Engineering and Construction Management and often times by the 
        Office of Management and Budget.

    If confirmed, I will address high EM life-cycle costs by further 
focusing on strategic planning efforts to identify and evaluate 
alternative approaches for radioactive waste in tanks, spent nuclear 
fuel, and special nuclear materials. Strategic planning efforts are 
underway in these areas which have the highest overall life-cycle costs 
of the program.
    Coincident with these planning efforts, we are also proposing to 
focus additional resources towards technology development, particularly 
for tank waste and groundwater remediation. We are looking to make 
investments in new technologies and computer modeling.
    In summary, if confirmed, I will assure that EM uses science and 
technology, robust project management, and our intergovernmental 
partnerships to ensure that we are taking advantage of every 
opportunity to complete the cleanup of Hanford safely, on schedule and 
within budget.
    Question 3. As the acting Assistant Secretary with day-to-day 
responsibility for Hanford, where do you stand on the DOE proposals to 
bring more waste to Hanford? Please address (a) bringing highly 
radioactive commercial spent fuel and low-level radioactive waste to 
Hanford for waste disposal and (b) bringing waste from other DOE sites 
to Hanford for disposal.
    Answer. Regarding commercial spent fuel, the Department has no 
plans to ship commercial spent nuclear fuel to the Hanford facility.
    As for low level radioactive waste, the Department entered into a 
settlement agreement with the State of Washington in 2006, in which the 
Department agreed to suspend importation of low-level, mixed low-level 
and transuranic wastes from other DOE sites to Hanford until a new 
Environmental Impact Statement (EIS) and Record of Decision are issued. 
This EIS evaluates the impacts of disposal of wastes from other DOE 
sites at Hanford. The State of Washington is a cooperating agency in 
this EIS, which will provide the basis for decisions on future disposal 
of other sites' wastes at Hanford. In fact, the EM program has 
published waste disposition paths for all of its wastes that do not 
involve waste disposal at Hanford. If confirmed, I assure you that I 
will consult with you, other members of Congress, the tribal nations, 
the States of Washington and Oregon, the regulators, and other 
stakeholders to ensure a path forward that is mutually agreeable.
    Question 4. What will you do specifically to prevent any more waste 
from going to Hanford?
    Answer. As stated above, the Hanford Tank Closure and Waste 
Management EIS will provide the basis for decisions regarding waste 
disposition at Hanford. I have and will continue to ensure that this 
EIS presents a highly credible and unbiased scientific evaluation of 
the impacts of such activities. I will also ensure that the public has 
adequate time to review and provide comment on this important document. 
Under my leadership, the EM program has published waste disposition 
paths for all of its waste that do not involve waste disposal at 
Hanford. If confirmed, I assure you that I will consult with you, other 
members of Congress, the tribal nations, the States of Washington and 
Oregon, the regulators, and other stakeholders to ensure a path forward 
that is mutually agreeable.
    Question 5. What will you do to make sure that Oregon has a seat at 
the table when decisions are made about Hanford? I am not expecting 
that Oregon will become a site regulator, like the State of Washington, 
but I am expecting that there will be more consultation with the 
Governor, and Oregon energy and environmental agencies, and the 
Congressional delegation.
    Answer. If confirmed, you will have my commitment to meet on a 
regular basis with your staff, other members of the Oregon 
Congressional delegation, and other interested parties from the State 
of Oregon. The State of Oregon currently provides advice and 
recommendations to the Environmental Management program as a current 
member of the Hanford Advisory Board, the National Governors 
Association's Federal Facilities Task Force and the State and Tribal 
Government Working Group. I value the advice of these and other 
stakeholder groups that the EM program supports and regularly interacts 
with and I will continue my outreach efforts to all these advisory 
bodies. If confirmed, I will redouble my efforts to meet and reach out 
to the Governor and Congressional delegations, and plan to do so 
specifically on the Hanford Tank Closure and Waste Management 
Environmental Impact Statement, waste disposition, groundwater issues 
and any other matters of interest to the State of Oregon.
                               contracts
    Question 6. DOE at Hanford is currently in the midst of trying to 
award the mission support contract. This was undertaken in 2006. It has 
not been awarded.
    The proposals were evaluated and scored, so why has it taken so 
long to award the mission support contract?
    Answer. The competitive procurement process for the award of the 
mission support contract followed the procedures established by federal 
acquisition regulations. This competitive process is thorough and 
extensive. The Mission Support Contract was one of the three integrated 
contracts for the Hanford site and was based on a significantly new 
contract strategy aimed at improving the delivery of the mission. Prior 
to release of the final solicitation, DOE conducted extensive market 
research and communications with industry and other stakeholders to 
ensure that competition for this extremely complex and challenging work 
scope would be optimized. On September 3, 2008, contract award was made 
to Mission Support Alliance, LLC in which it was determined the offeror 
provided the best value to the Government.
    An unsuccessful offeror, Hanford Mission Support Company, LLC filed 
an initial protest with the Government Accountability Office (GAO) on 
September 22, 2008 and a supplemental protest to the GAO on October 16, 
2008 challenging the basis of the award. Following a meeting with the 
GAO, DOE notified GAO on December 23, 2008 that it intended to 
implement corrective action by re-evaluating the existing procurement 
record, and if necessary, amend the solicitation and/or soliciting 
proposal revisions from the offerors. Based on this corrective action, 
the GAO dismissed the protests as academic on December 29, 2008.
    Following the dismissal of the protest, DOE implemented a 
corrective action process whereby the existing procurement record was 
re-evaluated, including the technical evaluation of the offerors' cost 
proposals. DOE completed the corrective action and awarded the mission 
support contract to Mission Support Alliance, LLC on April 28, 2009 
formed by Lockheed Martin Integrated Technology, LLC, Jacobs 
Engineering Group, Inc., and Wackenhut Services, Inc.
    If confirmed, I commit to reducing acquisition lead times 
(currently upward of two years), achieving sustainable process 
improvement, and recruiting and developing a highly qualified 
acquisition staff. As EM continues to move away from the management and 
operations contract model to discrete performance-based contracts, both 
the number of planned acquisitions and the associated complexity will 
continue to increase. EM forecasts approximately 15 to 20 major 
procurement actions over the next three years, more than double the 
number in 2002, and anticipates the same level through Fiscal Year 
2018. If confirmed, I commit to use the newly established EM 
Acquisition Center, continuous process improvement, particularly from 
lessons learned, and continued recruitment and training, to address 
these challenges as EM moves towards implementing a centralized, 
standardized, and streamlined acquisition process that reduces the time 
that it takes from request to award.
                             uranium plumes
    Question 7. The CTUIR analyzed the extent and nature of the 
subsurface contamination under the B-BX-BY tank farms and sent you a 
report (Interpreted Extent of Subsurface Contamination Resulting from 
the 241-BX-102 Tank Leak 200 East Area, Hanford Site, Washington, 
November 2004). The Initial SST Performance Assessment (DOE/ORP-2005-
01) predicted that the groundwater contamination from tank wastes would 
arrive in 12,000 years. In the March 30, 2009 response letter to 
Gabriel Bohnee, Director NPT ERWM, the DOE ORP noted in the RCRA 
Facility Investigation RFI Report for Single shell Tank (SST) Waste 
Management Areas (WMA), DOE/ORP-2008-01, Rev 0, that BX 102 has 
contaminated the groundwater and that the identification and 
implementation of corrective measures is an important priority. The 
conclusions and plans will be released later as part of the WMA C phase 
2 activities as explained in Appendix 1 of the Hanford Federal Facility 
Agreement and Consent Order and through BP-5 OU follow on activities.
    Can the CTUIR be assured that the analysts developing the 
characterization and modeling for WMA C report have higher standards 
than the authors that developed the wrong conclusions (wrong by 11,996 
years too early) for the BX-102 report?
    Answer. The Initial SST Performance Assessment (DOE/ORP-2005-01) 
used available data and simplified modeling methods to evaluate the 
future impacts of tank waste and historic leaks on the environment. 
This assessment was performed in recognition that significant 
additional data collection would occur prior to making final decisions 
regarding tank farm clean-up and closure. The performance assessment 
provided insights by identifying that contamination already in the soil 
from historic leaks or overfill events will have a greater future 
impact on the environment than residual wastes remaining in tanks after 
retrieval. These insights have helped define the necessary Phase 2 
activities, which include extensive additional soil characterization, 
followed by additional risk assessment.
    Phase 2 soil investigations and remediation have been initiated for 
Waste Management Area C. The soil characterization activities for that 
waste management area are being performed to comply with data quality 
objectives developed with the Washington State Department of Ecology in 
collaboration with the U.S. Environmental Protection Agency (EPA). 
Prior to initiating the Phase 2 risk assessment, a series of working 
sessions have been planned that will include both DOE Hanford Offices, 
Ecology, the EPA, and the U.S. Nuclear Regulatory Commission. Tribal 
Nations, such as the CTUIR, and organizations representing public 
interests have been invited to participate in these working sessions to 
ensure that the risk assessment input data, assumptions, modeling 
parameters and methods reflect the state of the art and address the key 
issues.
    Future activities to address waste management area B-BX-BY will 
follow the same pattern. Extensive additional data collection will 
occur with input from regulators and stakeholders. Risk assessment 
modeling will incorporate the input of regulators and stakeholders. As 
new information becomes available, it will be used to revise and update 
risk assessments to allow selection of the most effective remediation 
and closure approaches. If confirmed, I assure you that state-of-the-
art modeling will be performed for risk assessment in order to gain the 
highest degree of credibility in our findings in consultation with the 
tribal nations, the States of Washington and Oregon, the regulators, 
and other stakeholders.
                   tank closure waste management eis
    Question 8. After several years and millions of dollars, DOE is 
going to release the Tank Closure Waste Management Environmental Impact 
Statement (TCWM EIS) on May 15, 2009. The public and stakeholders and 
Natural resources trustees have not had the opportunity to review this 
document. Requests for an extended review period are needed. DOE has 
recently extended it from 90 days to 140 days.
    This may not be enough time for the CTUIR to meaningfully review 
the document and develop comments, considering the enormous amount of 
accelerated work due to the ARRA investment in DOE efforts?
    Answer. If confirmed, I assure you that EM will work with the 
tribal nations, the States of Washington and Oregon, the regulators and 
other stakeholders to ensure that enough time is provided for the full 
review of this important document. I also commit, if confirmed, that EM 
will conduct workshops and provide detailed briefings to the CTUIR and 
the other tribal nations before issuance and during the comment period 
of the draft EIS in order to facilitate review of the document.
    Question 9. Is DOE truly seeking a technically feasible clean up, 
or a legally defensible approach to tank closure and waste management?
    Answer. Both. The draft Tank Closure and Waste Management EIS 
covers three programmatic areas: tank waste treatment and closure of 
single shell tanks, closure of the Fast Flux Test Facility, and related 
waste management activities. There are seventeen alternatives being 
evaluated which, in accordance with National Environmental Policy Act 
(NEPA) regulations, cover the full range of reasonable actions the 
agency is to consider. I completely understand that the tribal nations, 
the States of Washington and Oregon, the regulators, and other 
stakeholders are all important in defining and selecting the path 
forward for the Hanford cleanup. If confirmed, I assure you that EM 
will engage in ample consultation with the tribal nations, the States 
of Washington and Oregon, the regulators, and other stakeholders as we 
move forward with the cleanup.
    Question 10. If trustees and stakeholders identify major scientific 
and technical concerns about the TCWM EIS, will review time be extended 
and will new alternatives with CTUIR participation be developed?
    Answer. If confirmed, I assure you that EM will work with the 
tribal nations, the States of Washington and Oregon, the regulators and 
other stakeholders to ensure that enough time is provided for the full 
review of this important document. I also commit, if confirmed, that EM 
will conduct workshops and provide detailed briefings to the CTUIR and 
the other tribal nations before issuance and during the comment period 
of the draft EIS in order to facilitate review of the document. All 
comments received will be addressed in a comment response document 
which will be published as part of the final EIS. Changes will also be 
made in the final EIS based on issues raised during the public comment 
process, as appropriate. I completely understand that the tribal 
nations, the States of Washington and Oregon, the regulators, and other 
stakeholders are all important in defining and selecting the path 
forward for the Hanford cleanup. If confirmed, I assure you that EM 
will engage in ample consultation with the tribal nations, the States 
of Washington and Oregon, the regulators, and other stakeholders as we 
move forward with the cleanup.
                   greater than class c nuclear waste
    Question 11. DOE by congressional request is currently preparing an 
Environmental Impact Statement for the disposition of Greater than 
Class C Nuclear Waste (GTCC EIS).
    Answer. With extensive groundwater and soil contamination at 
Hanford without a comprehensive site-wide baseline characterization and 
risk assessment, why is DOE considering adding additional sources of 
contamination to Hanford including commercial Greater than Class C 
Waste?
    Answer. The National Environmental Policy Act (NEPA) requires the 
Department of Energy (DOE) to consider a range of alternatives in 
preparing an environmental impact statement (EIS) for the disposal of 
greater-than-class C (GTCC) low-level radioactive waste (LLW). Hanford 
is one of nine such alternatives that were identified by DOE in its 
July 23, 2007, Notice of Intent to prepare an EIS for the disposal of 
GTCC LLW. The Department is currently preparing the Draft GTCC EIS, 
which will identify and evaluate the potential environmental 
consequences for each disposal alternative. I fully agree with you that 
a site-wide baseline characterization and risk assessment is required 
in order to evaluate the impacts of GTCC LLW disposal at Hanford as one 
of many alternatives being considered. Decisions on a disposal 
alternative or alternatives will be made only after DOE consults with 
Congress as directed in the Energy Policy Act of 2005. If confirmed, I 
assure you that DOE will consult with members of Congress, the tribal 
nations, affected States, including Washington and Oregon, regulators, 
and other stakeholders to ensure an acceptable path forward for GTCC 
LLW.
       Response of Ines R. Triay to Question From Senator Corker
    Question 1. Dr. Triay, it is my understanding that almost every 
Environmental Management project is behind schedule and over-budget, 
and that the primary reason blamed for this is a flawed EM management 
model. I am particularly concerned about EM project delays in light of 
the recent stimulus funds that have been provided. Do you believe that 
the current model that gives management authority to DOE headquarters 
in Washington, DC, is causing unnecessary delays in completing EM 
projects? Do you think that shilling the management authority to the 
environmental staff of the regional DOE offices is a good idea? Would 
you support this type of reform to the EM program? Are you confident 
that under the current model projects funded by the stimulus will be 
completed on time?
    Answer. Within the current model, the field managers, and the field 
staff have the authority to manage the contracts and oversee the 
contractors' performance with respect to delivering EM projects on time 
and within cost. However, I do believe that it is important to delegate 
as much authority as possible and appropriate to the field offices and 
their managers. If the field managers had more authority than they do 
now, the EM program, in my opinion, would be more efficient. However, 
the additional authority would come with the responsibility to deliver 
excellent performance. Performance is measured by the results obtained, 
and the manner in which they are obtained. Therefore, if confirmed, I 
will support a reform to the EM Program to align authority with 
performance at each site to deliver projects on time and within cost.
    EM has a high degree of confidence that the projects funded by the 
stimulus will be completed on time and on budget. EM's confidence is 
centered on the following key point: the projects funded by stimulus 
contain a mix of clean-up projects from EM's Portfolio of 
Decontamination and Decommissioning and Environmental Remediation 
Projects. These types of projects were specifically chosen because of 
EM's track record of completing the scope on time and within cost, the 
required technologies are proven, there is agreement on the regulatory 
framework, the contract vehicles are available, and the project 
management structure is in place providing the ability to track and 
measure performance. Table 1* compares the approved project cost and 
project schedule to the actual completion cost and schedule for 
Environmental Management cleanup projects completed since 2005. These 
19 projects were projected to cost over $12 billion dollars. Sixteen of 
the projects completed within 10% of the projected budget, 18 of these 
projects were completed on schedule, and each of these projects 
completed all remediation and disposition of waste required by 
regulatory compliance agreements.
---------------------------------------------------------------------------
    * Table has been retained in committee files.
---------------------------------------------------------------------------
                                 ______
                                 
        Responses of Hilary Chandler Tompkins to Questions From 
                           Senator Murkowski
    Question 1a. I know you understand there is a great debate about 
climate change that is ongoing and on renewable energy as well. Several 
of the proposals on renewable energy would put federal lands off limits 
in terms of renewable biomass that can be used in a Renewable Fuel or 
Electricity standard. Given the hundreds of thousands of acres of dead 
material in the Intermountain States (CO, NM, AZ, UT, WY, MT, and ID) 
does it make any sense to you to restrict the use of woody biomass from 
federal land?
    Answer. I know that the Department of the Interior has programs in 
its bureaus, particularly in the Bureau of Land Management, that supply 
woody biomass for energy production and other uses.If confirmed as 
Solicitor, I will provide the Secretary and the relevant bureaus with 
the legal advice they need to appropriately carry out this program.
    Question 1b. In advising the Secretary of the Interior on this 
issue will you recommend a federal lands moratorium when it comes to 
biomass use, or will you advocate for a policy that facilitates the 
treatment and removal from these lands to protect the soil, water, and 
wildlife?
    Answer. I am advised that the BLM has an existing biomass 
utilization program and neither the BLM nor the Department of the 
Interior is considering a moratorium on biomass use. If confirmed as 
Solicitor, any legal recommendations I would provide to the Secretary 
or the Department's bureaus would be informed by the proposals of the 
relevant policy makers and my review of the legal underpinnings of such 
proposals.
    Question 2a. A significant number of acres of DOI lands have burned 
in the last decade which is causing tremendous impacts on sensitive, 
threatened, and endangered species. As solicitor would you be willing 
to advise the Secretary and the U.S. Fish and Wildlife Service that the 
impact of these fires may be causing more harm to endangered species 
than many of the other activities the Department has been restricting?
    Answer. If confirmed as Solicitor, I will work with all of the 
agencies within the Department of the Interior to advise the Secretary 
about the legal issues that he must consider regarding managing fires 
when threatened and endangered species are present.
    Question 2b. If not, are you willing to ask the agencies to assess 
ALL natural and man-made disturbances when considering a listing 
request or developing a habitat management plan?
    Answer. The Endangered Species Act requires consideration of a 
number of factors when making a decision to list a particular species 
and determining critical habitat. If confirmed, I will advise the 
Department to consider all appropriate factors and associated 
information when making these kinds of determinations.
    Question 2c. Do you agree that it may be penny wise and pound 
foolish to put lands off limits to management activities such as 
thinning and hazardous fuel removal if the lands are at high risk for 
catastrophic fires when those fires could otherwise destroy critical 
habitat for threatened, sensitive, or endangered species?
    Answer. If confirmed as Solicitor, my role will be to advise the 
Secretary and other decision-makers within the Department of the 
Interior of their management options under the law.
    Question 3a. With regard to the recent DC Circuit decision on the 5 
year OCS program, what will be the Department's approach to handle the 
leases currently ongoing, as well as royalty payments already 
negotiated with states?
    Answer. To date I have not been involved in those deliberations, 
but I have been informed by the Minerals Management Service that this 
is a significant issue. According to MMS, there arc 1872 leases issued 
in the Gulf of Mexico (GUM) under the 2007-2012 program and 487 in the 
Alaska Region (from Chukchi Sea Sale 193). No exploration or production 
plans have been submitted for the Chukchi Sea, however, there are 95 
approved exploration plans in the GOM, 21 previously approved 
development plans, 4 leases under production, and numerous approvals 
and pending approvals for action on those GOM leases. If confirmed, I 
look forward to working with the Secretary on this issue.
    Question 3b. What will be the remedy with regard to the Court's 
reference to ranking leases according to environmental sensitivity?
    Answer. I am aware of the significance of this decision and the 
fact that it was just recently issued and is still under review in the 
Department. If confirmed, I will work with the Minerals Management 
Service and the Department of Justice to determine how best to respond 
to the court's remand.
    Question 4. With regard to the 5 year lease program, are you 
committed to ensuring that the United States will continue to develop 
more of its oil and gas domestically?
    Answer. I blow that the Secretary has recently conducted a number 
of meetings around the country to inform his decision as to where 
development on the Outer Continental Shelf will be pursued during the 
next 5 year leasing program. The OCS appears to be a significant part 
of the solution to dependence on foreign sources of oil and gas. If 
confirmed, I will provide the Secretary with the necessary legal advice 
to implement the President's program to achieve energy independence.
    Question 5. What does the Department of Interior think about 
private verses public funding for a seismic inventory of the OCS? Would 
the Department move forward on such a process as expeditiously as 
possible?
    Answer. While I am not familiar with the process for funding 
seismic surveys on the OCS, if the Secretary determines to implement a 
new policy for funding such an inventory, I commit to providing the 
Secretary and any DOI bureaus with all relevant legal options for 
gathering this information.
    Question 6. Do you consider the Endangered Species Act to be the 
proper statute for regulating greenhouse gas emissions through 
protections of the polar bear and other Arctic species?
    Answer. I agree with the other Departmental nominees that have come 
before this Committee that the Endangered Species Act is not 
particularly well suited for regulating greenhouse gas emissions.
    Question 7. Recently the Department found justification for the 
listing of the yellow billed loon. How will legal challenges to 
Interior's scheduled lease sales that overlap or abut the related 
species range and critical habitat to be handled?
    Answer. My understanding in this case is that the U.S. Fish and 
Wildlife Service determined that listing the yellow-billed loon range 
wide under the Act is warranted but precluded by other higher priority 
listing actions. As a result, the species is not presently listed nor 
has a proposed listing or critical habitat rule been issued, and 
neither the consultation nor conferencing provisions of Section 7 
apply.
    Question 8. When the government has entered into a valid, binding 
contract, do you believe it is important for the government to honor 
the contract as a means of demonstrating respect for the law and 
setting an example for the business world? When, if ever, would there 
be a basis for the government to fail to honor a valid binding 
contract?
    Answer. As a general proposition, I believe that it is very 
important for the Government to honor its contractual obligations for 
many reasons, including those that your question suggests. With that 
said, government contracts are administered under an elaborate--series 
of laws and regulations. Many of these laws and regulations, such as 
those governing acquisition of goods and services for the government, 
are specifically geared towards assuring fair and open competition in 
the selection of contractors, regularity and transparency in contract 
administration, obtaining the best value for the taxpayer, and 
protection of government funds, property, and resources. These legal 
requirements--all of which are designed ultimately to protect the 
taxpayer--distinguish government from private sector contracting and 
they may necessitate in some circumstances the cessation of a 
contractual relationship in order to protect the public interest. 
Ultimately, properly drawn contracts, under any statutory or 
programmatic setting, should contain provisions that define the 
parties' mutual understanding of how the contract may be terminated.
    Question 9. Secretary Salazar recently issued a Secretarial Order 
calling for the identification of renewable energy zones on public 
lands. How will DOI identify and define these renewable energy zones? 
Is the Interior Department also seeking to handle the siting for 
renewable energy projects and needed transmission?
    Answer. I am advised that the Department is working with 
stakeholders, including the Western Governors' Association (WGA) as 
well as other agencies, on energy zone evaluation, specific corridor 
planning, and siting. I further understand that the BLM is preparing a 
programmatic solar EIS, has completed wind and geothermal programmatic 
EIS s, and is working with project proponents on specific renewable 
energy proposals. I am informed that the BLM will continue to authorize 
and site solar, wind, and renewable energy transmission projects on the 
public lands under its right-of-way program, pursuant to the provisions 
of the Federal Land Policy and Management Act and other applicable 
laws. If confirmed, I look forward to engaging on the legal aspects of 
this important energy issues.
    Question 10. Section 368 of the 2005 Energy Policy Act directed the 
Energy Department and the land management agencies to designate Rights-
of-Way Corridors on Federal western lands for oil, gas, and hydrogen 
pipelines, as well as for electricity transmission lines. How does 
DOI's Secretarial Order comport with the Rights-of-Way work the 
Department recently completed?
    Answer. It is my understanding that the Secretary's energy task 
force will look at a variety of issues, including rights-of-way 
corridors on federal lands. It would be premature to determine how the 
work of the task force relates to the Department's efforts under 
section 368 of the Energy Policy Act. If confirmed, I will support the 
Secretary in his efforts to develop a balanced energy portfolio that 
places a high priority on renewable energy.
    Question 11a. Over the years Congress has passed a significant 
number of land exchanges and land conveyance laws because they involve 
both the Department of Agriculture national forest lands and Department 
of the Interior lands. In some of those exchanges Congress has exempt 
[sic] the exchange from FLPMA and NEPA; in some they provide the agency 
direction to complete those processes in a compressed time frame; and 
in some they require not only a FLPMA process, but an Environmental 
impact Statement followed by a finding by the Secretary of net public 
benefit. Some in Congress believe that Congress has the right to exempt 
land exchanges from these processes, and some do not. a. Where do you 
come down on this issue? Will you oppose legislation that exempts land 
exchanges from FLPMA and or NEPA?
    Answer. Congress has the ability to enact legislation that exempts 
land conveyances and exchanges from the processes that are laid out in 
FLPMA and NEPA. I cannot make a blanket statement regarding whether I 
would recommend that the Department support or oppose legislation that 
would make these exemptions without knowing the context for the 
proposed exemptions. The FLPMA and NEPA procedures provide assurance to 
the public and to Congress that a proposed conveyance or exchange is 
consistent with Federal goals and good policy, and that the effects, 
costs, and benefits of the proposed exchange have been fully examined. 
I would individually examine proposed legislative land exchanges or 
land conveyances before giving advice to the Secretary.
    Question 11b. If you believe that land exchanges and land 
conveyances should be subject to FLPMA and NEPA do you believe that 
other Congressional actions, such as the designation of Wilderness 
should also be subject to FLPMA and NEPA? If not, why not?
    Answer. Again, it is my view that any such proposed or enacted 
legislation, including legislation to designate wilderness, would have 
to be examined on a case-by-case basis. Only Congress can designate 
wilderness. The legislative process does generally provide an 
opportunity for public involvement and oversight through the 
Congressional hearing process. As I stated in my answer above, FLPMA 
and NEPA procedures can provide policy-relevant information. But 
overall, I believe this is an area where there are not onesize-fits-all 
policies and all proposals must be evaluated individually.
    Question 12. In reviewing your paperwork I am struck by how little 
it revealed concerning your past participation or experience with the 
natural resources issues that you will be expected to deal with as 
Solicitor, should you he confirmed. And I do not feel that your oral 
testimony provided additional enlightenment.
    Could you provide the Committee with a detailed list of the cases 
you participated in while working at the Department of Justice and what 
federal land issues you had personal involvement in while working for 
Governor Richardson?
    Answer. While working for the U.S. Department of Justice, I brought 
civil prosecutions against defendants for violations of various 
environmental statutes such as the Clean Air Act, the Clean Water Act, 
the Resource Conservation and Recovery Act (``RCRA''), and CERCLAI 
Superfund. The geographical regions for which I was primarily 
responsible were the Midwest and the Pacific Northwest. I handled a 
wide variety of cases. For instance, I worked on a significant and 
complex CERCLA case in the Coeur d'Alene Basin in Idaho filed against a 
number of mining companies, including Asarco and Hecla Mining (referred 
to as the ``Bunker Hill case''). A large component of this case was the 
natural resource damage claims under CERCLA. Another case I worked on 
was a Clean Water Act case filed against Texaco and Mobil for 
violations of the Clean Water Act due to their oil and gas operations 
in southern Utah. A central issue in that case was whether the 
intermittent arroyos in the desert were ``navigable waters of the 
United States'' under the Clean Water Act.
    In my position as legal counsel to Governor Richardson, I worked on 
the Otero Mesa litigation, which was a NEPA, APA, and FLPMA challenge 
to a resource management plan issued by the Bureau of Land Management. 
As you are aware, I have submitted a written recusal to the Committee 
on this matter.
    I also handled a number of other natural resources and 
environmental issues that did not involve federal lands under the 
jurisdiction of the Department of the Interior but that are worth 
mentioning to demonstrate my level of experience in this area.
    I co-authored an amicus brief with the New Mexico Attorney 
General's Office in the recent Tenth Circuit decision in HRI, Inc. v. 
EPA, 2009 WL 1027184 (April, 2009) regarding the question of whether 
land in close proximity to a Navajo chapter was -Indian Country'' for 
the purposes of the Safe Drinking Water Act. The Environmental 
Protection Agency argued that the land was Indian Country and HRI, 
Inc., argued that it was not. The Navajo Nation was an intervenor in 
the case. The State of New Mexico appeared as amicus curiae in a 
neutral capacity.
    I have assisted the New Mexico Environment Department and the New 
Mexico Energy and Natural Resources Department in negotiations with 
regulated entities that were conducting activity subject to various 
environmental and natural resources laws. For instance, I assisted in 
negotiations with a prominent mining company regarding its mining 
activity and financial assurance components of an agreement.
    I provided assistance to the Natural Resources Trustee of the State 
of New Mexico and the New Mexico Attorney General on the natural 
resources component of Superfund cases, such as the South Valley 
litigation that was filed against the DOE, DOD, USAF and various 
private companies. In that case a settlement was reached in 2006 and 
the Natural Resources Trustee adopted a Restoration Plan in 2007.
    I participated with the New Mexico Environment Department in its 
negotiations with Louisiana Energy Services, a company that was seeking 
to locate a uranium enrichment facility in Eunice, New Mexico. The 
agreement with the State contained requirements that were in addition 
to requirements imposed by the Nuclear Regulatory Commission.
    I worked on the State of New Mexico's approach to responding to a 
decision by the U.S. Forest Service in 2005 to change the 2001 Roadless 
Area Conservation Rule and adopt a new rule authorizing Governors on a 
state-by-state basis to determine which areas would remain roadless in 
their respective states.
    I received briefings from the general counsel of the State 
Engineer's Office and Interstate Stream Commission regarding pending 
adjudications, water management and delivery issues, and 
administrative, rulemaking issues.
    I drafted Executive Orders on behalf of the Governor regarding 
renewable energy, clean energy, renewable fuels, energy efficient 
building standards, energy efficiency, climate change and greenhouse 
gas reduction initiatives. I also drafted Executive Orders regarding 
emergency funding for the prevention and suppression of wildfires, 
disaster assistance, drought declarations, drought plans, establishment 
of a drought task force, water infrastructure development, 
establishment of a water cabinet, establishment of a Blue Ribbon Task 
Force on Water, and adoption of an environmental justice policy.
    I reviewed all legislation involving natural resources and 
environmental issues and provided legal advice to the Governor before 
he took action on these bills.
    There is one additional matter in which I participated on behalf of 
tribal clients in New Mexico that is beyond the scope of your specific 
question but that reflects my experience with natural resources issues, 
including the Endangered Species Act. I participated in an 
intergovernmental collaborative workgroup on behalf of my tribal 
clients regarding the Rio Grande Silvery Minnow and monitored the 
pending litigation, which involved the Department of the Interior, 
environmental groups, the State of New Mexico, and other intervenors. 
My tribal clients were not parties to the litigation.
    Question 13a. Due to your capacity as Deputy Counsel and Chief 
Counsel to Governor Richardson, I am forced to ask you about the 
ongoing investigation by the Federal Prosecutor in New Mexico related 
to the Governor, his Administration, and campaign finance 
irregularities.
    Can you provide the. Committee any information you have on your 
involvement in that investigation or work you did to prepare Governor 
Richardson or any of his staff for any meetings related to that 
investigation?
    Answer. I have had absolutely no involvement in the investigation 
and I did not conduct any work for the Governor, his staff, or any 
other person regarding that investigation.
    Question 13b. Would you provide this Committee with communication 
from the Department of Justice that will give us some assurance that 
you are not a target or potential target of the grand jury 
investigation in question?
    Answer. I would be happy to ask the Justice Department for such an 
assurance, but of course, I cannot guarantee that the Justice 
Department will deliver such a communication.
    Question 14a. I note that you have spent a significant part of your 
career working for or representing a number of tribal entities. Can you 
describe how you and the Department of Interior's Office of Ethics will 
address any communications or issues that come before you, if confirmed 
as solicitor, related to any of the tribal entities you worked for or 
represented?
    Answer. I will consult with the Department of the Interior's Office 
of Ethics on any potential conflicts of interest, and I will abide by 
all applicable ethical rules and regulations should any matter come 
before me involving a former client. I will also abide by the 
Committee's 1993 recusal policy. Lastly, I will abide by the rules of 
professional conduct that apply to me as a licensed attorney.
    Question 14b. Given your long time representation and advocacy for 
a number of Native American Tribes and groups, how will you deal with 
the decades old Cobell v. Secretary of the Interior case? Do you expect 
to recluse [sic] yourself from those proceedings; if not how will you 
ensure that your past advocacy does not color your work on this issue 
while at the Department of the Interior?
    Answer. I have never worked on or represented a party in the Cobell 
v. Secretary of the Interior case. I do not have any financial interest 
in this case and I am not aware of any relative who may have an 
interest in this case. I also do not believe that my past 
representation of Indian tribes and pueblos, my participation in Native 
American groups, or my ethnic identity will impair my ability to work 
on this case in an unbiased fashion. Under these circumstances, I do 
not believe that a recusal is warranted.
    I believe it is also important to note that I have represented the 
United States and the State of New Mexico in an impartial and unbiased 
fashion notwithstanding my prior affiliations with Indian tribes. If I 
am confirmed, I will solely represent the interests of the United 
States and will be a zealous advocate for the Department of the 
Interior in accordance with the highest ethical standards.
    Question 15. Would you describe your understanding of the Surface 
Mining Control and Reclamation Act of 1977 settlement in the 2005 
Energy Act and compare and contrast your interpretation of that 
settlement with that of the last administration?
    Answer. I am unaware of any Surface Mining Control and Reclamation 
Act of 1977 settlement that was part of the Energy Policy Act of 2005, 
and both legal and policy staff at the Office of Surface Mining in the 
Department of the Interior have been unable to identify the referenced 
settlement. If confirmed, I would be happy to work with you and your 
staff on this issue.
    Question 16. In July 2007, a legal opinion was issued in the 
Interior Regional Solicitor's Office that the Department has sufficient 
statutory authority to accept State transportation funds, and transfer 
them to Tribes under self-determination and self-governance agreements, 
under 23 U.S.C. Sec.  204(d) and 25 U.S.C. Sec. 450i. Section 204(d) of 
Title 23 specifically concludes that the Department may accept funds 
from States for the construction and improvement of roads on federal 
lands highway programs. This is a program of which the Indian 
Reservation Roads program is a part. Section 450i of Title 25 states 
that the Secretary may accept donations of funds to further any program 
authorized by other provisions of the law for the benefit of Indians. 
Despite this authority, the Department of Interior has refused to 
accept funds on behalf of tribes. If confirmed, would you be willing to 
work with Interior officials to establish a clear guidance so that 
tribes or Alaska Native villages in my case can continue to make 
necessarily investments in critical infrastructure?
    Answer. Yes, if confirmed I will be willing to review existing 
authorities and to work with Interior officials to provide guidance on 
accepting State funds to make necessary investments in critical 
infrastructure.
       Responses of Hiliary Chandler Tompkins to Questions From 
                            Senator Bennett
    Question 17. Do you agree that the Department's authority to 
establish new Wilderness Study Areas under Section 603 of FLPMA expired 
no later than October 21, 1993?
    Answer. It is my understanding that in a brief filed in the 10th 
Circuit, the Department of the Interior took the position that its 
authority to establish new Wilderness Study Areas under section 603 of 
FLPMA expired on October 21, 1993. I also understand that there is new 
litigation concerning this issue. If confirmed, I look forward to 
learning more about this topic.
    Question 18. Do you agree that the Department currently has no 
authority to establish new WSAs (post-603 WSAs) under any provision of 
federal law, such the Wilderness Act of Section 202 of FLPMA?
    Answer. It is my understanding that other provisions of FLPMA, such 
as section 202 and the Wilderness Act, have been interpreted to give 
the Department of the Interior the authority to manage land for 
wilderness values. I have not had an opportunity to review the various 
concerns that have been raised with respect to the Department's use of 
these authorities. I am also aware that there is new litigation 
concerning this issue. If confirmed, I look forward to learning more 
about this topic.
    Question 19. Do you agree that the Department has not had the 
authority to create any new WSAs since the expiration of FLPMA Section 
603 on October 21, 1993?
    Answer. As I noted in my response to question 17, it is my 
understanding that in a brief filed in the 10th Circuit, the Department 
of the Interior took the position that its authority to establish new 
Wilderness Study Areas under section 603 of FLPMA expired on October 
21. 1993. As I also noted in that response, I understand that there is 
new litigation concerning this issue and I look forward to learning 
more about this topic.
    Question 20. Do you agree with federal Judge Dee Benson that the 
settlement agreement between the state of Utah and the United States is 
consistent with FLPMA?
    Answer. Thank you for providing me with a copy of the settlement 
agreement approved by Judge Dee Benson in Utah v. Norton during our 
meeting last week. It is my understanding that the Department took the 
position in the 10th Circuit that this settlement agreement was 
consistent with FLPMA. As I stated earlier, I am aware that there is 
new litigation concerning this issue and I look forward to learning 
more about this topic. I do understand that the decisions made by 
agencies in Washington D.C. have serious repercussions on the lives of 
people who live near vast Federal land holdings in the West. If 
confirmed, I will advise the Secretary regarding his options under 
applicable laws as well as the impacts of proposed changes in 
applicable statutes.
    Question 21. Does the BLM have authority to apply the non-
impairment standard, as enumerated in the Interim Management Plan for 
wilderness study areas, to lands that are not designated as WSAs under 
Section 603?
    Answer. As I discussed in my previous answer, I believe that 
wilderness management is a complex topic with serious repercussions. If 
confirmed, I will advise the Secretary on how he can manage lands 
consistent with the requirements of FLPMA. 1 have not had an 
opportunity to review the question of whether BLM has the authority to 
apply the non-impairment standard, as described in the Interim 
Management Plan for wilderness study areas, to lands not designated as 
WSAs under Section 603 of FLPMA. However, if confirmed, I look forward 
to learning more about this topic and advising the Secretary.
    Question 22. Under what legal authority did Secretary Salazar 
cancel the 77 leases earlier this year?
    Answer. I was not involved in this decision, nor have I discussed 
the basis for this decision with Secretary Salazar. My general 
understanding is that in this situation the Secretary was acting in 
accordance with his general discretion to offer parcels for lease/sale 
or to determine not to offer parcels for lease/sale. If I am confirmed 
I will certainly learn more about this topic.
    Question 23. Utah has made significant progress on the R.S. 2477 
issue. The legislature recently established a process to record rights-
of-way that were accepted under the terms of R.S. 2477. The state has 
submitted approximately 2,500 such rights-of-way for non-binding 
determinations to the Utah Office of the Bureau of Land Management. 
Could you please explain how the recorded data will be used for such 
determinations?
    Answer. If I am confirmed as Solicitor, you have my commitment that 
I will study the issues that surround the RS 2477 claims and work 
towards a resolution.
    Question 24. Do you support the use of non-binding administrative 
determinations to help resolve the R.S. 2477 issue in each state?
    Answer. I have not had the opportunity to examine whether the use 
of non-binding administrative determinations may be able to help 
resolve R.S. 2477 issues. If confirmed, I will commit to studying this 
issue and supporting policymakers at DOI in their efforts to resolve 
issues surrounding R.S. 2477.
    Question 25a. Much of the evidence of the acceptance of the R.S. 
2477 grant is in the form of personal knowledge. Since the people who 
have this knowledge won't always be with us, the state has been 
gathering affidavits from witnesses to road construction or continuous 
use and will include the affidavits in its requests for non-binding 
determinations of the validity of the rights-of-way. I am concerned 
that the DOI solicitor's office in Utah has refused to consider 
individual affidavits that provide some evidence of either construction 
or continuous use, but do not prove evidence of the complete acceptance 
of the R.S. 2477 grant. This would be tantamount in a criminal trial to 
ignoring all witnesses that didn't see the entire spectrum of the 
crime--if they didn't see the murder suspect purchase the gun, shoot 
the gun, and hit their target, their testimony wouldn't count. Who is 
the factfinder in a non-binding determination?
    Answer. It is my understanding that BLM is the fact finder in a 
non-binding determination involving BLM lands.
    Question 25b. Is the fact finder entitled to arbitrarily and 
capriciously ignore evidence that, when taken in a totality, would 
prove the acceptance of the R.S. 2477 grant, even if the information 
were contained in more than one affidavit?
    Answer. I agree with your general premise that government 
decisionmakers are not entitled to act arbitrarily and capriciously. I 
would need specific knowledge of the affidavits in question in order to 
evaluate whether a particular decision might be arbitrary or 
capricious.
    Question 25c. Is there any rule of law or policy in the Department 
of the Interior that would preclude the factfinder from considering 
affidavits that did not, per se, show acceptance of the R.S. 2477 
grant, but tended to show some evidence of either construction or 
continuous use for the statutory period?
    Answer. I have not had the opportunity to examine the non-binding 
determination process in detail, including any rule of law or policy 
addressing the types of information that would he relevant when 
considering a request for a non-binding determination.
    Question 25d. May the factfinder in a non-binding determination 
consider information in an affidavit that tends to show some evidence 
of either construction or continuous use for the statutory period but 
not all evidence?
    Answer. I have not had the opportunity to examine the non-binding 
determination process in detail, including the types of information 
that would be relevant when considering a non-binding determination for 
a claimed R.S. 2477 right-of-way.
       Responses of Hillary Chandler Tompkins to Questions From 
                            Senator Barrasso
    Question 26. Last month a federal judge blocked an Interior 
Department rule allowing people to carry concealed weapons in national 
parks and wildlife refuges if that state's laws allow it in public 
places. The rule is intended to respect Second Amendment rights of law-
abiding gun owners, while providing a consistent application of state 
weapon laws across all land ownership boundaries. The judge argued in 
her ruling that adequate environmental analysis had not been done. The 
Obama administration has said it will not appeal the federal court 
ruling, but that Interior will continue to review the policy.

  <bullet> If confirmed, how do you plan to address this lone federal 
        judge's ruling that strips Americans of their Second Amendment 
        rights simply because they might be standing or driving on 
        federal land?
  <bullet> As a matter of legal policy, do you think it makes sense for 
        the Interior Department to have inconsistent gun regulations 
        within the lands it oversees?
  <bullet> Based on your experience, what type of environmental study 
        could be done to determine the environmental impact of someone 
        standing in or driving through federal lands with a concealed 
        weapon?

    Answer. I understand that Secretary Salazar told this Committee 
during his confirmation process that he is a strong supporter of the 
Second Amendment. I am aware that litigation with respect to this 
regulation is ongoing. If I am confirmed as Solicitor, I intend to 
carry out my responsibilities in accordance with laws enacted by 
Congress, including applicable laws related to conducting environmental 
review, as well as the applicable provisions of the Constitution. The 
Department and its land managing bureaus have extensive experience 
carrying out environmental analyses under the applicable statutes. My 
past experiences working with general environmental statutes and on 
public lands issues will enable me to provide sound legal guidance to 
those tasked with carrying out such a review.
    Question 27. Leases issued for oil and gas development in the Outer 
Continental Shelf in 1998 and 1999 did not contain price thresholds. 
This decision was made by the Clinton Administration and officials 
within the Department of Interior. There was legislation in the 
previous Congress to effectively force the lease holders to renegotiate 
their leases to include a price threshold.
    Do you think it weakens the value of government contracts if the 
federal government--after signing a contract--decides it no longer 
likes the contract and therefore bullies companies into renegotiating?
    Isn't that a breach of contract, or at a minimum, a breach of good 
faith?
    Do you think it is constitutional to confiscate property interest 
of leaseholders without just compensation?
    Answer. If confirmed as Solicitor, I will closely evaluate any 
contract or takings issue according to all applicable laws, 
regulations, and the Constitution. I am unable at this time to make a 
blanket statement regarding contracts, takings issues, and 
Congressional legislation without having had the opportunity to review 
the specific relevant materials, but I can assure you that I will 
approach any such legal question with care and an open mind. Generally 
speaking, I believe it is vital that the federal government performs 
its duties in accordance with all legal requirements when taking action 
that impacts the property and livelihood of individuals.
    Question 28. Washington owes Wyoming hundreds of millions of 
accumulated Abandoned Mine Land funding. It is Wyoming's money. In 
2006, after decades of bipartisan effort, an agreement was found and 
signed into law to guarantee Wyoming receives the money it was promised 
without strings attached. President Obama and Secretary Salazar both 
voted for this bill when they served in the Senate. The bill required 
certified states or Indian tribes to be paid back money owed in seven 
equal installments.
    I quote--``the Secretary shall make payments to States or Indian 
tribes for the amount due for the aggregate unappropriated amount 
allocated to the State or Indian tribe under subparagraph (A) or (B) of 
section 1232(g)(1) of this title.'' ``Payments under subparagraph (A) 
shall be made in 7 equal annual installments, beginning with fiscal 
year 2008.''
    The previous Interior Solicitor came to a different conclusion and 
stated that what Congress meant was that the funds must be paid back in 
the form of a grant, and not in seven equal installments. What is your 
legal interpretation of ``7 equal annual installments?'' Do you agree 
or disagree with the previous Solicitor's opinion?
    Answer. As I noted at my hearing, this is not an issue that I am 
familiar with. I do agree that an initial reading of the language 
appears to support the interpretation you note in your question. 
However, I have not had an opportunity to review the previous 
Administration's legal analysis. If confirmed, I would be happy to look 
into this issue.
    Question 29a. The State of Wyoming strongly disagrees with the Fish 
and Wildlife Service's decision not to defend in court the wolf 
management plan agreed to in Wyoming between the federal government and 
the State. Will the Obama Administration stand by the States when 
recovery goals are set and achieved, and then they are challenged in 
court by outside groups?
    Answer. I recognize that states play an important role in many 
aspects of wildlife management. If confirmed, I will work with the DOI 
Bureaus and the Department of Justice to uphold Endangered Species Act 
decisions and actions based on the provisions of the law and its 
implementing regulations.
    Question 29b. What steps would you take in order to ensure that 
listing and delisting decisions under the Endangered Species Act are 
made 'solely on the basis of the best scientific and commercial data 
available' as required by Section 4(b) of the ESA?''
    Answer. If confirmed as Solicitor I will work with the Director of 
the U.S. Fish and Wildlife Service to ensure that the Endangered 
Species Act is administered and implemented with the highest ethical 
standards and professional integrity and respects the work of the 
Service's biologists. ESA listing decisions must be made based on the 
best available science and need to be undertaken in an accountable, 
transparent fashion that involves the public
    Question 29c. Do you believe that distinct populations segments can 
be divided by state lines? Political boundaries are not based upon 
ecological characteristics. How is this practice in accordance with the 
biological parameters of a distinct population segment?
    Answer. The Endangered Species Act requires consideration of 
various factors when making a decision to list a particular species. It 
is my understanding that consistent with Fish and Wildlife Service's 
policy on distinct population segments, political boundaries do not map 
ecological characteristics, but they are relevant to survival of a 
species because the applicable State laws and the resources and 
capacity of State wildlife agencies to provide support to conservation 
programs are relevant to the survival chances of a species within that 
jurisdiction. While I am not familiar with the details of how the 
Service has applied the distinct population segment policy with respect 
to the gray wolf, if confirmed my role will be to advise the U.S. Fish 
and Wildlife Service and other DOI Bureaus on their management options 
under the ESA and its implementing regulations.
    Question 29d. What are the specific legal hurdles that must be 
overcome in order to delist the gray wolf in Wyoming? How will you 
advise the Secretary to overcome each of these hurdles?
    Answer. I am aware that the Service has determined that the States 
of Wyoming, Montana, and Idaho must include in their management regime 
provisions to ensure the population never falls below the minimum 
recovery goal of 10 breeding pairs and 100 gray wolves per State. If 
confirmed, I will advise the U.S. Fish and Wildlife Service as it moves 
forward in its efforts to work with the State of Wyoming to address 
issues associated with the State's management plans and laws that 
concern the delisting of the gray wolf in Wyoming.
    Question 30. We have a significant problem at the BLM with grazing 
permit renewals. Completing NEPA paperwork takes months, even years, 
and threatens ranchers' livelihood. Currently, we have legislative 
language in place that allows permits to continue while NEPA paperwork 
is completed. This is responsible stewardship and good business. 
However, ranchers live under threat of this language expiring annually.
    Absent legislative language with regard to NEPA on permit renewals, 
would you supporting continuing grazing with the existing permit under 
the Administrative Procedures Act until NEPA paperwork is completed?
    Answer. While I am not familiar with this issue, I am advised that 
the congressional permit renewal language has been extremely helpful to 
the BLM in prioritizing the processing of over 18,000 permits and 
leases based on environmental considerations, while meeting its NEPA 
obligations. If confirmed as Solicitor, I will study the issue and 
provide advice to the Secretary as he works with Congress to strengthen 
the tools available to the BLM concerning grazing permit renewals while 
ensuring resource protection and fiscal accountability.
    Question 31. Do you support the 2007 Solicitor's opinion defining 
``significant portion of the range'' in order to focus the Fish and 
Wildlife Service's efforts on protecting endangered species in areas 
where they are struggling to survive? What is your definition of 
``significant portion of the range''? What are the implications of your 
definition for managers on the ground in Wyoming?
    Answer. While I am aware that this is a question of law that the 
Solicitor examined in detail, I have not personally dealt with either 
this M-opinion or the underlying legislative history for this term. I 
therefore am not in a position to provide you with a specific 
definition at this time. I understand that this interpretation is 
implicated in a case pending before the United States Court of Appeals 
for the 9th Circuit, and the court's decision may provide further 
clarity in this area.
 Response of Hillary Chandler Tompkins to Question From Senator Bunning
    Question 32. As you may know, on December 8, 2008, the Department 
of the Interior published a rule that reversed its longstanding 
restrictions on transporting and carrying firearms in national parks. 
This rule was recently struck down in U.S. District Court because it 
did not adhere to environmental impacts. Secretary Salazar originally 
said before this committee that he supported the Bush Administration 
rule but has come back and said that the Department of the Interior 
will conduct an environmental impact study on the Bush Administration's 
rule. Is it possible to make the Bush Administration's rule comply with 
the court decision? Will you support rescinding this rule?
    Answer. I understand that Secretary Salazar told this Committee 
during his confirmation process that he is a strong supporter of the 
Second Amendment. I am aware that litigation with respect to this 
regulation is ongoing. It is my understanding that the March 19, 2009, 
opinion granting the injunction reveals the court's view that the rule 
had not been subject to the evaluation of reasonably foreseeable 
environmental impacts required by the National Environmental Policy Act 
and that substantial information in the rule'sadministrative record 
concerning environmental impacts had not been considered or addressed.
    In a step towards resolving this matter, the United States has 
advised the court it will seek a stay so that the Department can 
undertake an environmental analysis. My role as Solicitor will be to 
advise the Secretary and other decision-makers within the Department of 
their management options under the law, the impacts of any court 
rulings, and applicable laws related to conducting that environmental 
review, as well as the applicableprovisions of the Constitution.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Hon. Barbara A. Mikulski, U.S. Senator From Maryland
    Mr. Chairman--I appreciate the opportunity to express my strong 
support for President Obama's nominee for Under Secretary of Energy--
Dr. Kristina Johnson.
    I have known Kristina Johnson since she became provost and senior 
vice president for academic affairs at Johns Hopkins University in 
September 2007. She is one of the preeminent scientists of her 
generation--as well as an accomplished teacher and administrator.
    I have three criteria that I use to evaluate all executive branch 
nominees: competence, integrity, and commitment to the core mission of 
the Department. Based on these criteria, I wholeheartedly support Dr. 
Johnson to be our Under Secretary of the Department of Energy 
Secretary.
    Dr. Johnson is the Provost of Johns Hopkins University and former 
Dean of the Pratt School of Engineering at Duke University. Since 
receiving her PhD from Stanford University in electrical and computer 
engineering, Dr. Johnson has written extensively and holds 45 patents. 
She has received numerous awards--including being the only woman to win 
the John Fritz medal--the highest award in the engineering profession.
    Dr. Johnson will effectively implement President Obama's priorities 
of developing clean energy and addressing global warming. She has the 
unique combination of scientific, leadership, and policy skills needed 
to be an effective and respected Under Secretary of the Department of 
Energy.
    Dr. Johnson would bring vision, new ideas and energy to the 
position of Under Secretary of the Department of Energy. I 
wholeheartedly support her for this important position.
                                 ______
                                 
                               Energy Communities Alliance,
                                    Washington, DC, April 16, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 364 Dirksen 
        Senate Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building, Washington, DC.
Re: Dr. Ines Triay, Nominee for Department of Energy Assistant 
Secretary of Environmental Management

    Dear Chairman Bingaman and Ranking Member Murkowski: The Energy 
Communities Alliance (ECA) respectfully requests that you expeditiously 
confirm Dr. Ines Triay to be the new Department of Energy Assistant 
Secretary of Environmental Management. As the organization of local 
governments and communities that are adjacent to or impacted by 
Department of Energy Environmental Management (DOE-EM) activities, ECA 
has developed a close relationship with Dr. Triay in her current 
capacity as Acting Assistant Secretary and through her former positions 
within the DOE-EM program.
    As you consider Dr. Triay's nomination, we believe she should be 
confirmed for the following reasons:

          (1) Significant work experience in the challenging arena of 
        complex environmental cleanups.--Dr. Triay has developed a 
        technical expertise in the EM program through her past 
        leadership roles in the ``field'' at the Waste Isolation Pilot 
        Plant and the Los Alamos National Laboratory. In addition, her 
        recent roles at DOE Headquarters have equipped her with the 
        skills to execute at the programmatic level;
          (2) She is open and honest with external groups such as 
        states, tribes, and local governments.--Dr. Triay not only has 
        much technical expertise in the environmental cleanup arena, 
        she also has the ability to work well with state, tribal, and 
        local governments around the DOE cleanup sites. Communications 
        and partnerships with external stakeholders is critical to the 
        success of the EM program by avoiding costly disputes and 
        achieving mutually agreeable cleanup solutions; and
          (3) She will provide a continuity of leadership at this 
        critical time for the DOE-EM program.--The DOE-EM program must 
        effectively implement $6 billion in funding it received under 
        the American Reinvestment and Recovery Act, and as such, a 
        continuity of leadership is paramount. Given the current 
        conditions and the goal of the EM program to stimulate the 
        economy through shovel-ready cleanup and construction jobs, we 
        believe that an EM-1 should be put in place immediately. 
        Further, Obama administration initiatives such as the Energy 
        Parks Initiative, which takes federal land that requires 
        environmental remediation and turns it into an opportunity to 
        provide energy to our country, will require her strong 
        leadership to succeed.

    The work of the DOE-EM program is extremely important to the public 
health and environmental well being of ECA communities across the 
nation, and as such we recommend Dr. Ines Triay to be confirmed as the 
new DOE Assistant Secretary of Environmental Management.
            Sincerely,
                                           Robert Thompson,
                                                         ECA Chair,
                              Council Member, City of Richland, WA.
                                 ______
                                 
                               State of New Mexico,
                              Office of the State Engineer,
                                      Santa Fe, NM, April 21, 2009.
Hon. Tom Udall,
B 40D Dirksen, Senate Office Building, Washington, DC.
Re: Nomination of Hilary Tompkins as Solicitor of the Department of the 
Interior

    Dear Senator Udall: On behalf of the New Mexico Office of the State 
Engineer and Interstate Stream Commission, we strongly support the 
nomination of Hiliary Tompkins as Solicitor of the Department of 
Interior. Hilary provided excellent legal counsel to Governor 
Richardson and will be a valuable member of the Interior team. Hiliary 
provided guidance to our agency on a broad range of water-related 
issues and we look forward to working with her in her new position on 
the numerous issues that overlap between our agency and the Department 
of Interior.
            Sincerely,
                              John R. D'Antonio, Jr., P.E.,
                                                    State Engineer.
                                      Jim Dunlap, Chairman,
                                      Interstate Stream Commission.
                          Estevan R. Lopez, P.E., Director,
                                      Interstate Stream Commission.
                                 ______
                                 
                               State of New Mexico,
                              Office of the State Engineer,
                                      Santa Fe, NM, April 21, 2009.
Hon. Jeff Bingaman,
703 Hart Senate Office Building, Washington, DC.
Re: Nomination of Hilary Tompkins as Solicitor of the Department of the 
Interior

    Dear Senator Bingaman: On behalf of the New Mexico Office of the 
State Engineer and Interstate Stream Commission, we strongly support 
the nomination of Hiliary Tompkins as Solicitor of the Department of 
Interior. Hilary provided excellent legal counsel to Governor 
Richardson and will be a valuable member of the Interior team. Hiliary 
provided guidance to our agency on a broad range of water-related 
issues and we look forward to working with her in her new position on 
the numerous issues that overlap between our agency and the Department 
of Interior.
            Sincerely,
                              John R. D'Antonio, Jr., P.E.,
                                                    State Engineer.
                                      Jim Dunlap, Chairman,
                                      Interstate Stream Commission.
                          Estevan R. Lopez, P.E., Director,
                                      Interstate Stream Commission.

                                    

      

</pre></body></html>
